<html>
<title> - INTERNATIONAL FISHERIES: MANAGEMENT AND ENFORCEMENT</title>
<body><pre>[Senate Hearing 110-1144]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 110-1144
 
                        INTERNATIONAL FISHERIES:
                       MANAGEMENT AND ENFORCEMENT

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 3, 2008

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



                  U.S. GOVERNMENT PRINTING OFFICE
75-048                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4225322d02213731362a272e326c212d2f6c">[email&#160;protected]</a>  


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                   DANIEL K. INOUYE, Hawaii, Chairman
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska, Vice Chairman
    Virginia                         JOHN McCAIN, Arizona
JOHN F. KERRY, Massachusetts         KAY BAILEY HUTCHISON, Texas
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            GORDON H. SMITH, Oregon
BILL NELSON, Florida                 JOHN ENSIGN, Nevada
MARIA CANTWELL, Washington           JOHN E. SUNUNU, New Hampshire
FRANK R. LAUTENBERG, New Jersey      JIM DeMINT, South Carolina
MARK PRYOR, Arkansas                 DAVID VITTER, Louisiana
THOMAS R. CARPER, Delaware           JOHN THUNE, South Dakota
CLAIRE McCASKILL, Missouri           ROGER F. WICKER, Mississippi
AMY KLOBUCHAR, Minnesota
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
Lila Harper Helms, Democratic Deputy Staff Director and Policy Director
   Christine D. Kurth, Republican Staff Director and General Counsel
                  Paul Nagle, Republican Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 3, 2008....................................     1
Statement of Senator Stevens.....................................     1
    Prepared statement...........................................     1

                               Witnesses

Balsiger, Ph.D., James W., Acting Assistant Administrator, 
  National Marine Fisheries Service, NOAA, U.S. Department of 
  Commerce.......................................................    12
    Prepared statement...........................................    14
Balton, Hon. David A., Deputy Assistant Secretary of State for 
  Oceans and Fisheries, U.S. Department of State.................    20
    Prepared statement...........................................    22
Benton, David, Executive Director, Marine Conservation Alliance..    37
    Prepared statement...........................................    41
Brooks, Rear Admiral Arthur E., Commander, Coast Guard District 
  17, U.S. Coast Guard, Department of Homeland Security..........    26
    Prepared statement...........................................    28
Cook, James, Vice President, Pacific Ocean Producers, LLC........    46
    Prepared statement...........................................    49
Negroponte, Hon. John D., Deputy Secretary, U.S. Department of 
  State..........................................................     2
    Prepared statement...........................................     3
Speer, Lisa, Director, Water and Oceans Program, Natural 
  Resources Defense Council......................................    55
    Prepared statement...........................................    57

                                Appendix

Cantwell, Hon. Maria, U.S. Senator from Washington, prepared 
  statement......................................................    67
Inouye, Hon. Daniel K., U.S. Senator from Hawaii, prepared 
  statement......................................................    67
Response to written questions submitted to James W. Balsiger, 
  Ph.D. by:
    Hon. Maria Cantwell..........................................    75
    Hon. Daniel K. Inouye........................................    73
    Hon. John F. Kerry...........................................    79
    Hon. Olympia J. Snowe........................................    81
Response to written questions submitted to Hon. David A. Balton 
  by:
    Hon. Daniel K. Inouye........................................    83
    Hon. Olympia J. Snowe........................................    84
Response to written questions submitted to David Benton by:
    Hon. Maria Cantwell..........................................    92
    Hon. Olympia J. Snowe........................................    93
Response to written questions submitted to Rear Admiral Arthur E. 
  Brooks by:
    Hon. Maria Cantwell..........................................    88
    Hon. Daniel K. Inouye........................................    86
    Hon. John F. Kerry...........................................    89
    Hon. Olympia J. Snowe........................................    90
Response to written questions submitted to James Cook by:
    Hon. Maria Cantwell..........................................    97
    Hon. Daniel K. Inouye........................................    96
    Hon. Olympia J. Snowe........................................    99
    Hon. Ted Stevens.............................................    98
Response to written questions submitted by Hon. John F. Kerry to 
  Hon. John Negroponte...........................................    70
Response to written questions submitted to Lisa Speer by:
    Hon. Maria Cantwell..........................................   102
    Hon. Daniel K. Inouye........................................   101
    Hon. Olympia J. Snowe........................................   103
Snowe, Hon. Olympia J., U.S. Senator from Maine, prepared 
  statement......................................................    69


                       INTERNATIONAL FISHERIES: 
                       MANAGEMENT AND ENFORCEMENT

                              ----------                              


                        THURSDAY, APRIL 3, 2008

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:58 a.m. in room 
SR-253, Russell Senate Office Building, Hon. Ted Stevens, 
presiding.

            OPENING STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    Senator Stevens. Good morning. Just over a year ago, 
President Bush signed into law the Magnuson-Stevens 
Reauthorization Act, which mandates science-based catch limits 
and an end to overfishing in U.S. territories. Now the primary 
threat to sustainable fisheries are the foreign fleets that 
pillage the world's oceans by practicing illegal, unreported, 
and unregulated fishing or what we call IUU fishing. We simply 
cannot allow this high seas piracy.
    I want you to note, Mr. Secretary, I understand your 
situation. I will put my statement full in the record and be 
happy to turn to you for your comments for the record. Thank 
you very much for coming.
    [The prepared statement of Senator Stevens follows:]

    Prepared Statement of Hon. Ted Stevens, U.S. Senator from Alaska
    Just over a year ago, President Bush signed into law the Magnuson-
Stevens Reauthorization Act which mandates science-based catch limits 
and an end to overfishing in the U.S. Now the primary threat to 
sustainable fisheries are the foreign fleets that pillage the worlds 
oceans by practicing Illegal, Unreported, and Unregulated fishing or 
IUU fishing. We simply cannot allow this high seas piracy.
    I am committed to making sure that the U.S. has every authority, 
resource, and tool we need to bring an end to IUU fishing. The 
Magnuson-Stevens Reauthorization Act contains international fisheries 
compliance and monitoring provisions, but there is much more to do.
    In December, the President signed into law my legislation requiring 
NOAA to maintain a list of IUU fishing vessels around the world, so 
that the U.S. can take action against them in our waters. I have also 
drafted a Senate resolution calling for an end to harmful foreign 
fishing subsidies that lead to IUU fishing, as well as a resolution 
urging U.S. leadership on efforts to prepare for future management of 
Arctic Ocean fisheries. Additionally, I am committed to closing the 
gaps in international agreements that still leave large areas of the 
high seas in the North Pacific unregulated.
    Despite all these efforts, there are still loopholes that allow IUU 
fish to come into the U.S., and this must stop. I am currently 
preparing a bill that would strengthen the laws that make it illegal to 
trade in fish or fish products harvested from IUU fishing. This bill 
would strengthen civil and criminal penalties and establish a strong 
and effective inter-agency International Fisheries Enforcement Program. 
I urge my colleagues to join me in this effort.
    I thank Ambassador Negroponte for his statement today and his 
ongoing support for ratifying the Law of the Sea Convention. Ratifying 
this Convention would further strengthen our presence in the global 
effort to sustain our international fisheries.
    I look forward to hearing from our witnesses today. I would 
especially like to thank Coast Guard District 17 Commander Rear Admiral 
Gene Brooks and Dave Benton, Executive Director of the Marine 
Conservation Alliance, for making the long trip from Alaska to be with 
us. I would also like to thank Jim Balsiger who was recently appointed 
as Acting Administrator of the National Marine Fisheries Service 
following many years of service as Alaska's Regional Director.

             STATEMENT OF HON. JOHN D. NEGROPONTE, 
           DEPUTY SECRETARY, U.S. DEPARTMENT OF STATE

    Mr. Negroponte. Thank you, Mr. Chairman. I have submitted a 
slightly longer statement for the record, but if I could make 
some summary remarks? I appreciate your invitation and Senator 
Inouye's to address the Committee this morning on ways the 
United States can strengthen the management and enforcement of 
fisheries around the globe.
    Today, the State Department witness, Ambassador David 
Balton, who is the Deputy Assistant Secretary for Oceans and 
Fisheries, will testify in much greater detail about our 
efforts to formulate and enforce better management measures for 
international fisheries. For my part, I would like to focus on 
how the challenges we face in this endeavor are compelling 
reasons for the United States to become party to the Law of the 
Sea Convention as soon as possible.
    With 155 parties, including the major fishing nations, the 
Law of the Sea Convention is widely accepted as the legal 
framework under which all international fisheries must operate. 
The United States accepts the fisheries provisions of this 
Convention. Indeed, those provisions form the basis of a 
related treaty that the United States has already ratified, the 
1995 U.N. Fish Stocks Agreement, which deals with the 
management of key stocks within and outside of the exclusive 
economic zone.
    Senator Stevens, you will recall that you went to the 
United Nations when the U.N. Fish Stocks Agreement was adopted 
to deliver the United States' intervention supporting that 
agreement. The United States was the third country to ratify 
the Fish Stocks Agreement, and we also chaired the seven 
meetings of the parties to the Agreement, as well as the 2004 
review conference held to consider its implementation.
    Despite our leadership on this issue, some nations still 
question our intentions and our right to press for improvements 
in the management and enforcement of international fisheries 
rules because we have not yet joined the Law of the Sea 
Convention. Acceding to the Convention will give us greater 
leverage in negotiating on these matters, particularly in our 
efforts to eliminate illegal, unreported, and unregulated 
fishing.
    American fishermen already follow these standards, and they 
support our accession to the Law of the Sea Convention. By 
doing so, we will be in a stronger position to encourage other 
governments to hold their fishermen accountable to the same 
standards that ours now uphold.
    Other important industries support the Convention as well. 
Oil and gas companies want international recognition and 
greater legal clarity regarding the outer limits of our 
continental shelf beyond 200 miles. This will facilitate access 
to the vast energy resources residing there, particularly in 
the Arctic. American companies can recover valuable minerals 
from the deep sea bed only if we join the Convention because a 
permit issued under domestic legislation would not provide a 
U.S. entity with the certainty of tenure that it would require.
    The telecommunications and shipping industries also want 
the Convention's protection of submarine cables and 
navigational freedoms. An equally important reason to join is 
to put our vital navigational rights on the firmest legal 
footing. The United States military establishment continues to 
express its urgent need for our accession to the Convention in 
order to promote international cooperation on issues--on 
initiatives of national security importance, such as the 
Proliferation Security Initiative.
    Last, I want to note that no additional legislation on 
fisheries or on any other topic is required before acceding to 
the Convention. Indeed, the drafters of the 1976 Fishery 
Conservation and Management Act intended it to be consistent 
with the Convention's provisions on fisheries, and subsequent 
amendments to what is now known as the Magnuson-Stevens Act 
have preserved that consistency.
    Mr. Chairman, I would be pleased to provide for the record 
my testimony on the substance of the Convention before the 
Senate Foreign Relations Committee in a hearing last fall for 
any members who might be interested. I know that you are a 
strong supporter of the Law of the Sea Convention and as I 
understand is Chairman Inouye. And I thank you for your 
leadership and for this opportunity to make the case for U.S. 
accession to the Convention in the context of international 
fisheries management and enforcement.
    And that concludes my summary remarks.
    [The prepared statement of Mr. Negroponte follows:]

   Prepared Statement of Hon. John D. Negroponte, Deputy Secretary, 
                        U.S. Department of State

    Chairman Inouye, Vice Chairman Stevens, Members of the Committee, I 
appreciate your invitation to address the Committee this morning on 
ways the United States can strengthen the management and enforcement of 
fisheries around the globe. Today, the State Department witness, 
Ambassador David Balton, will testify in much greater detail about our 
efforts to formulate and enforce better management measures for 
international fisheries. For my part, I would like to focus on how the 
challenges we face in this endeavor are compelling reasons for the 
United States to become party to the Law of the Sea Convention as soon 
as possible.
    With 155 parties, including the major fishing nations, the Law of 
the Sea Convention is widely accepted as the legal framework under 
which all international fisheries must operate. The United States 
accepts the fisheries provisions of the Convention. Indeed, those 
provisions form the basis of a related treaty that the United States 
has already ratified--the 1995 U.N. Fish Stocks Agreement--which deals 
with the management of key stocks within and outside of the Exclusive 
Economic Zone.
    Vice Chairman Stevens will recall that he went to the United 
Nations when the U.N. Fish Stocks Agreement was adopted to deliver the 
U.S. intervention supporting that Agreement. The United States was the 
third country to ratify the Fish Stocks Agreement, and we also chaired 
the 7 meetings of the parties in the Agreement, as well as the 2004 
Review Conference held to consider its implementation.
    Despite our leadership on this issue, some nations still question 
our intentions and our right to press for improvements in the 
management and enforcement of international fisheries rules--because we 
have not yet joined the Law of the Sea Convention. Acceding to the 
Convention will give us greater leverage in negotiating on these 
matters--particularly in our efforts to eliminate illegal, unreported, 
and unregulated fishing.
    American fishermen already follow these standards and they support 
our accession to the Law of the Sea Convention. By doing so, we will be 
in a stronger position to encourage other governments to hold their 
fishermen accountable to the same standards that ours now uphold.
    Other important industries support the Convention as well. Oil and 
gas companies want international recognition and greater legal clarity 
regarding the outer limits of our continental shelf beyond 200 miles. 
This will facilitate access to the vast energy resources residing 
there, particularly in the Arctic. American companies can recover 
valuable minerals from the deep seabed only if we join the Convention, 
because a permit issued under domestic legislation would not provide a 
U.S. entity with certainty of tenure. The telecommunications and 
shipping industries also want the Convention's protection of submarine 
cables and navigational freedoms.
    An equally important reason to join is to put our vital 
navigational rights on the firmest legal footing. The United States 
military establishment continues to express its urgent need for our 
accession to the Convention, in order to promote international 
cooperation on initiatives of national security importance, such as the 
Proliferation Security Initiative.
    Lastly, I want to note that no additional legislation on fisheries 
or on any other topic is required before acceding to the Convention. 
Indeed, the drafters of the 1976 Fishery Conservation and Management 
Act intended it to be consistent with the Convention's provisions on 
fisheries, and subsequent amendments to what is now known as the 
Magnuson-Stevens Act have preserved that consistency.
    Mr. Chairman, Mr. Vice Chairman, I would be pleased to provide for 
the record my testimony on the substance of the Convention before the 
Senate Foreign Relations Committee in a hearing last fall for any 
members who might be interested.
    Chairman Inouye, Vice Chairman Stevens, I know that you are both 
strong supporters of the Law of the Sea Convention. I thank you for 
your leadership and for this opportunity to make the case for U.S. 
accession to the Convention in the context of international fisheries 
management and enforcement.

    Senator Stevens. Thank you very much, Secretary Negroponte. 
Glad to see you are here and willing to make a statement. And I 
appreciate the fact that you are once again back in the State 
Department, where we need you.
    So we will put your full statement in the record, and I 
would appreciate it if you would provide the Committee with a 
copy of your statements that you made before the other 
Committee.
    Mr. Negroponte. I shall do that.
    Senator Stevens. It would be helpful.
    [The information referred to follows:]

    Written Testimony of Hon. John D. Negroponte, Deputy Secretary, 
     U.S. Department of State, Before the Senate Foreign Relations 
                    Committee on September 27, 2007
Hearing on Accession to the 1982 Law of the Sea Convention and 
        Ratification of the 1994 Agreement Amending Part XI of the Law 
        of the Sea Convention
[Senate Treaty Document 103-39]
    Mr. Chairman and Members of the Committee:
    Thank you for the opportunity to testify on the 1982 United Nations 
Convention on the Law of the Sea (``the Convention'') and the 1994 
Agreement relating to the Implementation of Part XI of the United 
Nations Convention on the Law of the Sea of 10 December 1982 (``the 
1994 Agreement'').
    At my confirmation hearing earlier this year, I reminded the 
Committee that the Senate confirmed me 20 years ago as Assistant 
Secretary for Oceans and International Environmental and Scientific 
Affairs. Shortly thereafter, under the first President Bush, we began 
to work on revising the deep seabed mining section of the Convention to 
address the flaws President Reagan had correctly identified, so that we 
could join the Convention. That effort succeeded, resulting in the 1994 
Agreement overhauling the deep seabed mining regime, as I will explain 
in greater detail.
    Since my first involvement with the Law of the Sea Convention, I 
have had the privilege to serve the United States in other assignments 
that have only strengthened my support for this treaty. As Ambassador 
to the United Nations, I learned that other countries look to the 
United States for leadership on oceans issues such as maritime 
security--a role that is lessened without U.S. accession to the 
Convention. As Ambassador to Iraq, I saw first-hand the importance of 
navigational freedoms for deploying and sustaining our forces in combat 
zones, and how the Convention serves as a foundation for our 
partnerships in the Proliferation Security Initiative. Most recently, 
as Director of National Intelligence, I was reminded how the Convention 
strengthens our ability to carry out intelligence activities that other 
countries might seek to restrain.
    Mr. Chairman, these experiences compel me to endorse--most 
enthusiastically and emphatically--the President's urgent request that 
the Senate approve the Convention, as modified by the 1994 Agreement. 
As the President said in his May 15 statement, joining will serve the 
national security interests of the United States, secure U.S. sovereign 
rights over extensive marine areas, promote U.S. interests in the 
environmental health of the oceans, and give the United States a seat 
at the table when the rights essential to our interests are debated and 
interpreted.
History
    From the earliest days of its history, the United States has relied 
on the bounty and the opportunity of the seas for sustenance, for trade 
and economic development, for defense, for communication, and for 
interaction with the rest of the world. Today, as the world's strongest 
maritime power and a leader in global maritime trade and commerce, the 
United States has a compelling national interest in a stable 
international legal regime for the oceans. We have consistently sought 
balance between the interests of countries in controlling activities 
off their coasts and the interests of all countries in protecting 
freedom of navigation. The United States joined a group of law of the 
sea treaties in 1958, by which it is still bound. But those treaties 
left open some important issues. For example, they did not set forth 
the maximum breadth of the territorial sea, an issue of critical 
importance to U.S. freedom of navigation, and they did not set forth a 
procedure for providing legal certainty regarding the continental 
shelf. We therefore continued to pursue completion of a single, 
integrated law of the sea treaty that would attract near-universal 
acceptance; the U.S. delegation played a very prominent role in the 
negotiating session that began under the Nixon Administration and 
culminated in the 1982 Convention.
    The resulting treaty was a victory for U.S. navigational, economic, 
and other interests except for one important issue--deep seabed mining. 
Due to flaws in the deep seabed mining chapter--Part XI of the 
Convention--President Reagan decided not to sign the 1982 Convention. 
However, the other aspects of the treaty were so favorable that 
President Reagan, in his Ocean Policy Statement in 1983, announced that 
the United States accepted, and would act in accordance with, the 
Convention's balance of interests relating to traditional uses of the 
oceans--everything but deep seabed mining. He instructed the Government 
to abide by, or as the case may be, to enjoy the rights accorded by, 
the other provisions, and to encourage other countries to do likewise.
    As I mentioned earlier, the first Bush Administration agreed to 
participate in negotiations that modified Part XI--in a legally binding 
manner--overcoming each of the objections that President Reagan had 
identified. The United States signed that Agreement in 1994. The 
Convention came into force that same year, and has since been joined by 
industrialized countries that shared the U.S. objections to the initial 
deep seabed mining chapter. There are now 155 parties to the 
Convention, including almost all of our traditional allies.
    This Administration expressed its strong support for the Convention 
in testimony before this Committee in the fall of 2003. Thereafter we 
worked closely with the Committee to develop a proposed Resolution of 
Advice and Consent, which we continue to support, that addressed a 
number of issues, including those relating to U.S. military interests. 
Since then, our conviction has only grown: we must join the Law of the 
Sea Convention, and join it now, to take full advantage of the many 
benefits it offers the United States and to avoid the increasing costs 
of being a non-party.
Joining Is a Win-Win
    Joining is a win/win proposition. We will not have to change U.S. 
laws or practices, or give up rights, and we will benefit in a variety 
of ways. The United States already acts in accordance with the 
Convention for a number of reasons:

  <bullet> First, as noted, we are party to a group of 1958 treaties 
        that contain many of the same provisions as the Convention.

  <bullet> Second, the United States heavily influenced the content of 
        the 1982 Convention, based on U.S. law, policy, and practice.

  <bullet> Finally, the treaty has been the cornerstone of U.S. oceans 
        policy since 1983, when President Reagan instructed the 
        Executive Branch to act in accordance with the Convention's 
        provisions with the exception of deep seabed mining.

    Thus, we are in the advantageous position in the case of this 
treaty that U.S. adherence to its terms is already time-tested and 
works well.
    At the same time, the United States would gain substantial benefits 
from joining the Convention--these can be summarized in terms of 
security, sovereignty, and sustainability.
    Security. As the world's foremost maritime power, our security 
interests are intrinsically linked to freedom of navigation. We have 
more to gain from legal certainty and public order in the world's 
oceans than any other country. Our forces are deployed throughout the 
world, and we are engaged in combat operations in Central and Southwest 
Asia. The U.S. Armed Forces rely on the navigational rights and 
freedoms reflected in the Convention for worldwide access to get to the 
fight, sustain our forces during the fight, and return home safely, 
without permission from other countries.
    In this regard, the Convention secures the rights we need for U.S. 
military ships and the commercial ships that support our forces to meet 
national security requirements in four ways:

  <bullet> by limiting coastal States' territorial seas--within which 
        they exercise the most sovereignty--to 12 nautical miles;

  <bullet> by affording our military and commercial vessels and 
        aircraft necessary passage rights through other countries' 
        territorial seas and archipelagoes, as well as through straits 
        used for international navigation (such as the critical right 
        of submarines to transit submerged through such straits);

  <bullet> by setting forth maximum navigational rights and freedoms 
        for our vessels and aircraft in the exclusive economic zones of 
        other countries and in the high seas; and

  <bullet> by affirming the authority of U.S. warships and government 
        ships to board stateless vessels on the high seas, which is a 
        critically important element of maritime security operations, 
        counter-narcotic operations, and anti-proliferation efforts, 
        including the Proliferation Security Initiative.

    The United States has had a certain amount of success in promoting 
these provisions internationally as reflective of customary 
international law, as well as in enforcing them through operational 
challenges. However, these tools alone are not adequate to ensure the 
continued vitality of these rights. Customary law is not universally 
accepted and, in any event, changes over time--in this case, 
potentially to the detriment of our interests. There are increasing 
pressures from coastal States around the world to evolve the law of the 
sea in ways that would unacceptably alter the balance of interests 
struck in the Convention. Operational challenges are inherently risky 
and resource-intensive. Joining the Convention would put the 
navigational rights reflected in the Convention on the firmest legal 
footing. We would have treaty rights rather than have to rely solely 
upon the acceptance of customary international law rights by other 
states or upon the threat or use of force. Securing these treaty 
rights, and obtaining a seat at the table in treaty-based institutions, 
would provide a safeguard against changes in State practice that could 
cause customary law to drift in an unfavorable direction. Moreover, 
joining would promote the willingness of other countries to cooperate 
with us on initiatives of great security importance, such as the 
Proliferation Security Initiative.
    Sovereignty. Joining the Convention would advance U.S. economic and 
resource interests. Recent Russian expeditions to the Arctic have 
focused attention on the resource-related benefits of being a party to 
the Convention. Because so much is at stake in vast areas of 
continental shelf beyond 200 nautical miles, I will explain in some 
detail the Convention's provisions that govern these areas and why 
being a party would put the United States in a far better position in 
terms of maximizing its sovereign rights.
    The Convention recognizes the sovereign rights of a coastal State 
over its continental shelf, which extends out to 200 nautical miles--
and beyond, if it meets specific criteria. These rights include 
sovereign rights for the purpose of exploring the continental shelf and 
exploiting its natural resources, including oil, gas, and other energy 
resources. U.S. interests are well served not only by the Convention's 
detailed definition of the shelf (in contrast to the 1958 Convention's 
vague standard), but also by its procedures for gaining certainty 
regarding the shelf's outer limits. Parties enjoy access to the expert 
body whose technical recommendations provide the needed international 
recognition and legal certainty to the establishment of continental 
shelf beyond 200 nautical miles.
    Following such procedures, Russia made the first submission (in 
2001) to that expert body, the Commission on the Limits of the 
Continental Shelf. The Commission found that Russia needed to collect 
additional data to substantiate its submission. Russia has announced 
that the data it collected this year support the claim that its 
continental shelf extends as far as the North Pole. Setting aside its 
recent flag planting, which has only symbolic value, Russia's 
continuing data collection in the Arctic reflects its commitment to 
maximizing its sovereign rights under the Convention over energy 
resources in that region.
    Currently, as a non-party, the United States is not in a position 
to maximize its sovereign rights in the Arctic or elsewhere. We do not 
have access to the Commission's procedures for according international 
recognition and legal certainty to our extended shelf. And we have not 
been able to nominate an expert for election to the Commission. Thus, 
there is no U.S. Commissioner to review the detailed data submitted by 
other countries on their shelves.
    Norway has also made a submission to support its extended 
continental shelf in the Arctic, and Canada and Denmark are conducting 
surveys there to collect data for their submissions. The Commission has 
already made recommendations on submissions by Brazil and Ireland and 
is considering several other submissions. Many more are expected in the 
coming months.
    The United States has one of the largest continental shelves in the 
world; in the Arctic, for example, our shelf could run as far as 600 
miles from the coastline. However, as noted, we have no access to the 
Commission, whose recommendations would facilitate the full exercise of 
our sovereign rights--whether we use them to explore and exploit 
natural resources, prevent other countries from doing so, or otherwise. 
In the absence of the international recognition and legal certainty 
that the Convention provides, U.S. companies are unlikely to secure the 
necessary financing and insurance to exploit energy resources on the 
extended shelf, and we will be less able to keep other countries from 
exploiting them.
    Joining the Convention provides other economic benefits: it also 
gives coastal States the right to claim an exclusive economic zone 
(``EEZ'') out to 200 nautical miles. That gives the United States, with 
its extensive coastline, the largest EEZ of any country in the world. 
In this vast area, we have sovereign rights for the purpose of 
exploring, exploiting, conserving, and managing living and non-living 
natural resources.
    Sustainability. The Convention also supports U.S. interests in the 
health of the world's oceans and the living resources they contain. It 
addresses marine pollution from a variety of sources, including ocean 
dumping and operational discharges from vessels. The framework 
appropriately balances the interests of the coastal State in protection 
of the marine environment and its natural resources with the 
navigational rights and freedoms of all States. This framework, among 
other things, supports vital economic activities off the coast of the 
United States. Further, the United States has stringent laws regulating 
protection of the marine environment, and we would be in a stronger 
position as a party to the Convention as we encourage other countries 
to follow suit.
    The Convention also promotes the conservation of various marine 
resources. Indeed, U.S. ocean resource-related industries strongly 
support U.S. accession to the Convention. U.S. fishermen, for example, 
want their government to be in the strongest possible position to 
encourage other governments to hold their fishermen to the same 
standards we are already following, under the Convention and under the 
Fish Stocks Agreement that elaborates the Convention's provisions on 
straddling fish stocks and highly migratory fish stocks.
    Joining the Convention provides other important benefits that 
straddle the security, sovereignty, and sustainability categories. For 
example, its provisions protect laying and maintaining the fiber optic 
cables through which the modern world communicates, for both military 
and commercial purposes; for that reason, the U.S. telecommunications 
industry is a strong supporter of the Convention.
We Need to Join Now
    Some may ask why, after the Convention has been in force for 
thirteen years, there is an urgent need to join. There are compelling 
reasons why we need to accede to the Convention now.
    Although the first several years of the Convention's life were 
fairly quiet, its provisions are now being actively applied, 
interpreted, and developed. The Convention's institutions are up and 
running, and we--the country with the most to gain and lose on law of 
the sea issues--are sitting on the sidelines. For example, the 
Commission on the Limits of the Continental Shelf (which is the 
technical body charged with addressing the continental shelf beyond 200 
nautical miles) has received nine submissions and has made 
recommendations on two of them, without the participation of a U.S. 
commissioner. Recommendations made in that body could well create 
precedents, positive and negative, on the future outer limit of the 
U.S. shelf. We need to be on the inside to protect our interests. 
Moreover, in fora outside the Convention, the provisions of the 
Convention are also being actively applied. Our position as a non-Party 
puts us in a far weaker position to advance U.S. interests than should 
be the case for our country.
    We also need to join now to lock in, as a matter of treaty law, the 
very favorable provisions we achieved in negotiating the Convention. It 
would be risky to assume that we can preserve ad infinitum the 
situation upon which the United States currently relies. As noted, 
there is increasing pressure from coastal States to augment their 
authority in a manner that would alter the balance of interests struck 
in the Convention. We should secure these favorable treaty rights while 
we have the chance.
Deep Seabed Mining
    One part of the Convention deserves special attention, because, in 
its original version, it kept the United States and other 
industrialized countries from joining. Part XI of the Convention, now 
modified by the 1994 Implementing Agreement, establishes a system for 
facilitating potential mining activities on the seabed beyond the 
limits of national jurisdiction--specifically, the deep seabed beyond 
the continental shelf of any nation. The Convention, as modified, meets 
our goal of guaranteed access by U.S. industry to deep seabed minerals 
under reasonable terms and conditions.
    Specifically, the Convention sets forth the process by which mining 
firms can apply for and obtain access and exclusive legal rights to 
deep seabed mineral resources. The International Seabed Authority is 
responsible for overseeing such mining; it includes an Assembly, open 
to all Parties, and a 36-member Council. The Authority's role is 
limited to administering deep seabed mining of mineral resources in 
areas beyond national jurisdiction; it has no other authority over uses 
of the oceans or over other resources in the oceans. The Council is the 
primary decision-making body, with responsibility for giving practical 
effect to the requirement for non-discriminatory access to deep seabed 
minerals and for adopting rules for exploration and development.
    The 1994 Agreement, which contains legally binding changes to the 
1982 Convention, fundamentally overhauls the deep seabed mining 
provisions in a way that satisfies each of the objections of the United 
States, as stated by President Reagan, and of other industrialized 
countries. President Reagan considered that those provisions would 
deter future development of deep seabed mining; establish a decision-
making process that would not give the United States a role that 
reflected or protected its interests; allow amendments to enter into 
force without the approval of the United States; provide for mandatory 
transfer of technology; allow national liberation movements to share in 
the benefits of deep seabed mining; and not assure access of future 
qualified miners.
    The 1994 Agreement overcomes these objections and ensures that the 
administration of deep seabed mining is based on free-market 
principles. Specifically, the Agreement:

  <bullet> deletes the objectionable provisions on mandatory technology 
        transfer;

  <bullet> ensures that market-oriented approaches are taken to the 
        management of deep seabed minerals (e.g., by eliminating 
        production controls), replacing the original Part XI's 
        centralized economic planning approach;

  <bullet> scales back the deep seabed mining institutions and links 
        their activation and operation to actual development of 
        interest in deep seabed mining;

  <bullet> guarantees the United States a permanent seat on the 
        Council, where substantive decisions are made by consensus--the 
        effect of which is that any decision that would result in a 
        substantive obligation on the United States, or that would have 
        financial or budgetary implications, would require U.S. 
        consent;

  <bullet> ensures that the United States would need to approve the 
        adoption of any amendment to the Part XI provisions and any 
        distribution of deep seabed mining revenues accumulated under 
        the Convention; and

  <bullet> recognizes the seabed mine claims established on the basis 
        of the exploration already conducted by U.S. companies and 
        provides assured equality of access for any future qualified 
        U.S. miners.

    The deep seabed is an area that the United States has never claimed 
and has consistently recognized as being beyond the sovereignty and 
jurisdiction of any nation. As reflected in U.S. law (the Deep Seabed 
Hard Mineral Resources Act of 1980), it has long viewed deep seabed 
mining as an activity appropriate for international administration. The 
United States asked for changes to the 1982 Convention's deep seabed 
mining provisions and got them. As George P. Shultz, Secretary of State 
to President Reagan, said recently in a letter to Senator Lugar: ``The 
treaty has been changed in such a way with respect to the deep sea-beds 
that it is now acceptable, in my judgment. Under these circumstances, 
and given the many desirable aspects of the treaty on other grounds, I 
believe it is time to proceed with ratification.''
Why Stay Out?
    Given all the valuable benefits of joining and the substantial 
costs of not joining, is there a persuasive argument why the United 
States should remain a non-party? I do not think there is one.
    Certain arguments distort the risks of joining and/or paint an 
unrealistic picture of our situation as a non-party. In this regard, 
opponents do not offer viable alternatives to the Convention. Some say 
we should rely on the 1958 conventions; however, those are less 
favorable in many respects, such as navigational rights, the outer 
limits of the continental shelf, and authority to conduct boardings on 
the high seas. Some say we should continue to rely on customary law; 
however, as noted, customary law is not universally accepted, evolves 
based on State practice, and does not provide access to the 
Convention's procedural mechanisms, such as the continental shelf 
commission. Finally, some say we should rely on the threat or use of 
force; however, it is implausible and unwise to think that the United 
States can rely on military power alone to enforce its rights, 
particularly economic rights.
    Certain arguments against U.S. accession are simply inaccurate. And 
other arguments are outdated, in the sense that they may have been true 
before the deep seabed mining provisions were fixed and thus are no 
longer true. I would like to address some of these ``myths'' 
surrounding the Convention:

        Myth: Joining the Convention would surrender U.S. sovereignty.

        Reality: On the contrary. Some have called the Convention a 
        ``U.S. land grab.'' It expands U.S. sovereignty and sovereign 
        rights over extensive maritime territory and natural resources 
        off its coast, as described earlier in my testimony. It is rare 
        that a treaty actually increases the area over which a country 
        exercises sovereign rights, but this treaty does. The 
        Convention does not harm U.S. sovereignty in any respect. As 
        sought by the United States, the dispute resolution mechanisms 
        provide appropriate flexibility in terms of both the forum and 
        the exclusion of sensitive subject matter. The deep seabed 
        mining provisions do not apply to any areas in which the United 
        States has sovereignty or sovereign rights; further, these 
        rules will facilitate mining activities by U.S. companies. And 
        the navigational provisions affirm the freedoms that are 
        important to the worldwide mobility of U.S. military and 
        commercial vessels.

        Myth: The Convention is a ``UN'' treaty and therefore does not 
        serve our interests.

        Reality: The Convention is not the United Nations--it was 
        merely negotiated there, as are many agreements, and negotiated 
        by States, not by U.N. bureaucrats. Further, just because a 
        treaty was drawn up at the U.N. does not mean it does not serve 
        our interests. For example, the United States benefits from 
        U.N. treaties such as the Convention Against Corruption and the 
        Convention for the Suppression of Terrorist Bombings. The Law 
        of the Sea Convention is another such treaty that serves U.S. 
        interests.

        Myth: The International Seabed Authority (ISA) has the power to 
        regulate seven-tenths of the Earth's surface.

        Reality: The Convention addresses seven-tenths of the earth's 
        surface; the ISA does not. First, the ISA does not address 
        activities in the water column, such as navigation. Second, the 
        ISA has nothing to do with the ocean floor that is subject to 
        the sovereignty or sovereign rights of any country, including 
        that of the United States. Third, the ISA only addresses deep 
        seabed mining. Thus, its role is limited to mining activities 
        in areas of the ocean floor beyond national jurisdiction. It 
        has no other role and no general authority over the uses of the 
        oceans, including freedom of navigation and overflight.

        Myth: The Convention gives the U.N. its first opportunity to 
        levy taxes.

        Reality: Although the Convention was negotiated under U.N. 
        auspices, it is separate from the U.N. and its institutions are 
        not U.N. bodies. Further, there are no taxes of any kind on 
        individuals or corporations or others. Concerning oil/gas 
        production within 200 nautical miles of shore, the United 
        States gets exclusive sovereign rights to seabed resources 
        within the largest such area in the world. There are no 
        finance-related requirements in the EEZ. Concerning oil/gas 
        production beyond 200 nautical miles of shore, the United 
        States is one of a group of countries potentially entitled to 
        extensive continental shelf beyond its EEZ. Countries that 
        benefit from an Extended Continental Shelf have no requirements 
        for the first 5 years of production at a site; in the sixth 
        year of production, they are to make payments equal to 1 
        percent of production, increasing by 1 percent a year until 
        capped at 7 percent in the twelfth year of production. If the 
        United States were to pay royalties, it would be because U.S. 
        oil and gas companies are engaged in successful production 
        beyond 200 nautical miles. But if the United States does not 
        become a party, U.S. companies will likely not be willing or 
        able to engage in oil/gas activities in such areas, as I 
        explained earlier.

    Concerning mineral activities in the deep seabed, which is beyond 
U.S. jurisdiction, an interested company would pay an application fee 
for the administrative expenses of processing the application. Any 
amount that did not get used for processing the application would be 
returned to the applicant. The Convention does not set forth any 
royalty requirements for production; the United States would need to 
agree to establish any such requirements.
    In no event would any payments go to the United Nations, but rather 
would be distributed to countries in accordance with a formula to which 
the United States would have to agree.

        Myth: The Convention would permit an international tribunal to 
        second-guess the U.S. Navy.

        Reality: No international tribunal would have jurisdiction over 
        the U.S. Navy. U.S. military activities, including those of the 
        U.S. Navy, would not be subject to any form of dispute 
        resolution. The Convention expressly permits a party to exclude 
        from dispute settlement those disputes that concern ``military 
        activities.'' The United States will have the exclusive right 
        to determine what constitutes a military activity.

        Myth: The International Tribunal for the Law of the Sea could 
        order the release of a vessel apprehended by the U.S. military.

        Reality: The Tribunal has no jurisdiction to order release in 
        such a case. Its authority to address the prompt release of 
        vessels applies only to two types of cases: fishing and 
        protection of the marine environment. Further, even if its 
        mandate did extend further--which it does not--the United 
        States will be taking advantage of the optional exclusion of 
        military activities from dispute settlement. As such, in no 
        event would the Tribunal have any authority to direct the 
        release of a vessel apprehended by the U.S. military.

        Myth: The Convention was drafted before--and without regard 
        to--the war on terror and what the United States must do to 
        wage it successfully.

        Reality: The Convention enhances, rather than undermines, our 
        ability to wage the war on terror. Maximum maritime naval and 
        air mobility is essential for our military forces to operate 
        effectively. The Convention provides the necessary stability 
        and framework for our forces, weapons, and materiel to get to 
        the fight without hindrance. It is essential that key sea and 
        air lanes remain open as a matter of international legal right 
        and not be contingent upon approval from nations along those 
        routes. The senior U.S. military leadership--the Joint Chiefs 
        of Staff--has recently confirmed the continuing importance of 
        U.S. accession to the Convention in a letter to the Committee.

        Myth: The Convention would prohibit or impair U.S. intelligence 
        and submarine activities.

        Reality: The Convention does not prohibit or impair 
        intelligence or submarine activities. Joining the Convention 
        would not affect the conduct of intelligence activities in any 
        way. This issue was the subject of extensive hearings in 2004 
        before the Senate Select Committee on Intelligence. Witnesses 
        from Defense, CIA, and State all confirmed that U.S. 
        intelligence and submarine activities are not adversely 
        affected by the Convention.

    We follow the navigational provisions of the Convention today and 
are not adversely affected; similarly, we would not be adversely 
affected by joining.

        Myth: The United States can rely on use or threat of force to 
        protect its navigational interests fully.

        Reality: The United States has utilized diplomatic and 
        operational challenges to resist the excessive maritime claims 
        of other countries that interfere with U.S. navigational 
        rights. But these operations entail a certain degree of risk, 
        as well as resources. Being a party to the Convention would 
        significantly enhance our efforts to roll back these claims by, 
        among other things, putting the United States in a stronger 
        position to assert our rights.

        Myth: Joining the Convention would hurt U.S. maritime 
        interdiction efforts under the Proliferation Security 
        Initiative (PSI).

        Reality: Joining the Convention would not affect applicable 
        maritime law or policy regarding the interdiction of weapons of 
        mass destruction. PSI specifically requires participating 
        countries to act consistent with international law, which 
        includes the law reflected in the Convention. Almost all PSI 
        partners are parties to the Convention. Further, joining the 
        Convention is likely to strengthen PSI by attracting new 
        cooperative partners.

        Myth: President Reagan thought the treaty was irremediably 
        defective.

        Reality: As explained above, President Reagan identified only 
        certain deep seabed mining provisions of the Convention as 
        flawed. His 1983 Ocean Policy Statement demonstrates that he 
        embraced the non-deep-seabed provisions and established them as 
        official U.S. policy. The 1994 Agreement overcomes each of the 
        objections to the deep seabed mining provisions identified by 
        President Reagan. As President Reagan's Secretary of State, 
        George P. Shultz, noted in his recent letter to Senator Lugar, 
        ``It surprises me to learn that opponents of the treaty are 
        invoking President Reagan's name, arguing that he would have 
        opposed ratification despite having succeeded on the deep sea-
        bed issue. During his administration, with full clearance and 
        support from President Reagan, we made it very clear that we 
        would support ratification if our position on the sea-bed issue 
        were accepted.''

        Myth: The Convention provides for mandatory technology 
        transfer.

        Reality: Mandatory technology transfer was eliminated by the 
        1994 Agreement that modified the original Convention.

        Myth: The United States could and should renegotiate a new law 
        of the sea agreement, confined to the provisions on 
        navigational freedoms.

        Reality: Assuming, for the sake of argument, that this were a 
        desirable outcome, other countries would have no reason or 
        incentive to enter into such a negotiation. The Convention is 
        widely accepted, having been joined by over 150 parties 
        including all other major maritime powers and most other 
        industrialized nations. Those parties are generally satisfied 
        with the entirety of the treaty and would be unwilling to 
        sacrifice other provisions of the Convention, such as benefits 
        associated with exclusive economic zones and sovereign rights 
        over the resources they contain, as well as continental shelves 
        out to 200 nautical miles and in some cases far beyond. And 
        parties that would like to impose new constraints on our 
        navigational freedoms certainly would not accept the 1982 
        version of those freedoms.
Conclusion
    Mr. Chairman, I am confident that the Committee will agree that 
U.S. accession to the Convention is the best way to secure navigational 
and economic rights related to the law of the sea. I hope I have 
convinced the Committee that arguments against joining the Convention 
are completely unfounded, that there are not viable alternatives to 
joining, and that we cannot just go out and negotiate another treaty, 
much less one that is more favorable. And we certainly cannot have much 
influence over development of the law of the sea in the 21st Century 
from outside the Convention.
    The safest, most secure, and most cost-effective way to lock in 
these significant benefits to our ocean-related interests is to join 
the Convention. President Bush, Secretary Rice, and I urge the 
Committee--once again--to give its swift approval for U.S. accession to 
the Law of the Sea Convention and ratification of the 1994 Agreement, 
and we urge the Senate to give its advice and consent before the end of 
this session of Congress.

    Senator Stevens. But we do thank you for coming, and I know 
you have another appointment. So there will be no questions.
    Mr. Negroponte. I thank you very much for this opportunity 
and look forward to continuing to work with you on this issue.
    Thank you.
    Senator Stevens. Thank you very much, Mr. Secretary.
    Now, our first panel is Dr. James Balsiger, Assistant 
Administrator for Fisheries, National Oceanic and Atmospheric 
Administration, NOAA; Mr. David Balton, Deputy Assistant 
Secretary for Oceans and Fisheries, Department of State; and 
Rear Admiral Gene Brooks, Commander of the 17th Coast Guard 
District and the force's Maritime Component Commander for 
Alaska.
    Gentlemen, your statements will appear in full on the 
record. Appreciate your comments. There is no limit on what 
comments you want to make. But let us proceed in the order that 
I indicated.
    Dr. Balsiger, you would be first, please.

    STATEMENT OF JAMES W. BALSIGER, Ph.D., ACTING ASSISTANT 
 ADMINISTRATOR, NATIONAL MARINE FISHERIES SERVICE, NOAA, U.S. 
                     DEPARTMENT OF COMMERCE

    Dr. Balsiger. Thank you. Good morning. I am Jim Balsiger, 
the Acting Assistant Administrator for Fisheries within the 
National Oceanic and Atmospheric Administration.
    Senator Stevens. Can you pull that mike toward you, please, 
Doctor?
    Dr. Balsiger. Of course.
    Senator Stevens. Thank you.
    Dr. Balsiger. With the U.S. Department of Commerce. Thank 
you, Senator Stevens, and my thanks to Chairman Inouye for the 
invitation to this hearing. Thanks to the Members of the Senate 
Commerce Committee for the opportunity to describe some of the 
challenges of international fisheries management.
    I am pleased to see Congress has increased attention on 
these issues. Thanks to the efforts of this Committee, Congress 
adopted and the President signed the Magnuson-Stevens Fisheries 
Conservation and Management Reauthorization Act in January 
2007. This act contains several new provisions that will 
significantly shape the focus of our international fisheries 
management efforts.
    Fulfilling this mandate is a high priority for my agency, 
and I will illustrate this with some of the examples from our 
work with the regional fishery management organizations, or the 
RFMOs. Many of our target fish stocks and protected species 
range into waters of other countries. So our management 
strategies require a multilateral, regional approach.
    RFMOs provide a forum for collaboration, data sharing, 
regional management, and enforcement, and NOAA has a leadership 
role in a number of these RFMOs. One of these RFMOs, the 
International Convention for the Conservation of Atlantic 
Tunas, or ICCAT, has adopted catch and trade tracking programs 
for bluefin tuna in response to declining stocks and high 
levels of IUU fishing.
    These programs help us verify where bluefin tuna are caught 
and allow us to track product from capture through its final 
market. This information can lead to trade restrictions against 
countries, which are a major deterrent to illegal trade--
illegal fishing.
    The Northwest Atlantic Fisheries Organization, or NAFO, has 
also taken proactive steps to combat IUU fishing. With U.S. 
leadership, this RFMO developed a compliance scheme that 
prevents a vessel from landing its catch in the port of any 
NAFO member if the vessel has been cited engaging in IUU 
fishing. Programs based on this scheme have been adopted by 
other RFMOs.
    NOAA also plays a leadership role in developing 
international measures to reduce bycatch of sea birds, sea 
turtles, and sharks. The U.S. promotes the development of 
national sea bird bycatch reduction plans by RFMO members and 
stresses the need for scientific assessments.
    On sea turtles, the U.S. led negotiations resulting in FAO 
guidelines to reduce sea turtle mortality in fishing 
operations. These guidelines have now been adopted by several 
RFMOs. Additionally, the U.S. negotiated the binding Inter-
American Convention for the Protection and Conservation of Sea 
Turtles and were hosting international workshops to train 
fishermen to use circle hooks as turtle bycatch reduction 
devices.
    On sharks, we have the Shark Finning Prohibition Act 
enacted and has drastically reduced the number of sharks finned 
with the carcasses discarded at sea. In accordance with this 
mandate, the U.S. has promoted the adoption of shark finning 
bans in many RFMOs.
    Through the Magnuson-Stevens Act, Congress recognized a 
significant lack of data for international fisheries 
management, particularly from developing countries. Good data 
is the cornerstone for sound fisheries management, and to 
address this data scarcity, NOAA has provided funding to 
improve data collection in other countries.
    The Magnuson-Stevens Act also calls for a biennial report 
to Congress on IUU fishing, and NOAA is currently soliciting 
information from the public that can be used to identify 
nations whose vessels are engaged in IUU fishing. With regard 
to enforcement efforts to combat IUU fishing, NOAA's Office of 
Law Enforcement works closely with the international, Federal, 
and State law enforcement partners to detect, apprehend, and 
prosecute those involved in illegal importation of IUU product. 
These efforts include NOAA's coordination with Coast Guard 
patrols in the North Pacific Ocean to detect large-scale high 
seas driftnet fishing.
    NOAA currently serves as the chair of the International 
Monitoring, Control, and Surveillance Network, which works with 
countries around the globe to exchange enforcement information, 
including information on IUU fishing. The network provides a 
mechanism for fisheries law enforcement professionals to share 
experiences as they monitor increasingly complex global 
fisheries.
    Another important development that will improve NOAA's 
ability to detect IUU fish imports is the International Trade 
Data System currently under development by the Department of 
Homeland Security. This system is a Government-wide platform 
for the electronic collection, use, and dissemination of trade 
data. NOAA has taken steps to become a participating agency, 
and I believe our participation will significantly improve our 
ability to enforce RFMO trade measures and documentation 
requirements.
    In closing, we have a lot to be proud of in the 
international fisheries management realm, but much work 
remains. With the tools that this Committee has supplied, NOAA 
is well positioned to improve our fisheries management efforts 
to benefit the world's marine ecosystems.
    Senator Stevens, please give my thanks again to Chairman 
Inouye for the invitation, to the Members of the Committee. I 
look forward to working with you, with the public, with the 
fishing industry, and our international counterparts on this 
important issue. I would be happy to answer questions when the 
time is right.
    [The prepared statement of Dr. Balsiger follows:]

   Prepared Statement of James W. Balsiger, Ph.D., Acting Assistant 
Administrator, National Marine Fisheries Service, NOAA, U.S. Department 
                              of Commerce

Introduction
    Good morning, I am Jim Balsiger, the Acting Assistant Administrator 
for Fisheries within the National Oceanic and Atmospheric 
Administration (NOAA), U.S. Department of Commerce. Thank you, Chairman 
Inouye, and Members of the Senate Commerce Committee for the 
opportunity to discuss the many challenges of international fisheries 
management. In my years working on fisheries issues in the Alaska 
region, I have been directly engaged in addressing our international 
goals for fishery management and the conservation of protected species. 
As the U.S. Federal Commissioner for the North Pacific Anadromous Fish 
Commission and other international management bodies, I am pleased to 
see the increased attention focused on this critical aspect of NOAA's 
National Marine Fisheries Service's (NMFS) mission.
    Thanks to the efforts of this Committee, Congress adopted and the 
President signed the Magnuson-Stevens Fishery Conservation and 
Management Reauthorization Act (Magnuson-Stevens Act) into law in 
January 2007. This Act contains several new provisions that will 
significantly shape the focus of fisheries management including 
reinforcing NOAA's mandate for international activities. Congress has 
tasked the Department of Commerce, working with our partners at the 
State Department, Coast Guard, and other agencies, to work 
multilaterally to address multiple aspects in international stewardship 
of living marine resources. Fulfilling this mandate has been a high 
priority for the agency.
    My testimony will cover a number of topics, with a particular focus 
on illegal, unreported and unregulated (IUU) fishing. IUU fishing is 
estimated to generate some $4-$9 billion in landings gross revenues 
each year. This illegal fishing can undermine our domestic fishery 
management practices and has implications for sustainable international 
fisheries management which benefit the world's marine ecosystems, the 
U.S. fishing industry, and the American seafood consumer. As a major 
consumer of seafood, the United States has an obligation to avoid the 
importation of illegal seafood product. With a multi-agency approach 
and with new technologies, the United States continues to work with our 
country partners bilaterally and multilaterally to address the 
challenges of IUU fishing.

Global IUU-related Activities
    In the global context, the United Nations General Assembly has 
drawn attention to the negative impacts of IUU fishing and called for 
its elimination in every annual resolution on fisheries since 1998. 
This created the impetus for the Food and Agriculture Organization of 
the United Nations (FAO) to begin its program on IUU fishing, starting 
in 2001 with the development of its International Plan of Action to 
Prevent, Deter, and Eliminate IUU Fishing. This Plan called on FAO 
members to develop corresponding national plans of action in the 
following 2 years, a task completed by the United States in 2004. FAO 
is the premiere international organization addressing global fishing 
issues. While the State Department typically has the lead in these 
issues, NOAA provides technical expertise for issues addressed by FAO.
    The FAO has continued its work on IUU fishing by developing tools 
to eliminate this destructive fishing practice. Beginning in 2002, the 
FAO began to develop a voluntary model scheme on Port State measures to 
combat IUU fishing. This project was completed and adopted in 2004. At 
the 2007 meeting of the FAO Committee on Fisheries (COFI), there was 
agreement to organize and negotiate a binding agreement which would set 
minimum standards for the in-port inspection of fishing vessels, and 
the denial of certain port services to vessels suspected or confirmed 
to have engaged in IUU fishing. This is an exciting new development. Up 
to now, the focus has been on developing rules and applying pressure to 
flag states to eliminate IUU fishing. This initiative strikes directly 
at IUU fishing vessels by making it more difficult and costly for them 
to land their illicit catches. Also launched by COFI in 2007 was the 
development of a global record of all fishing vessels which includes 
information on the vessels' past activities and beneficial owners. The 
development of this database is essential because currently there is no 
comprehensive fishing vessel data base.
    The FAO is working with the International Maritime Organization to 
promote the entry into force of the Torremolinos Protocol of 1993, an 
instrument that would set international safety standards for fishing 
vessels. This protocol would address some of the crew safety concerns 
associated with IUU fishing. NMFS will continue to work to combat IUU 
fishing in the global forums.

Regional Fishery Management Organization (RFMO) Actions
    Many of our target fish stocks and protected species also occupy 
waters under the jurisdiction of other countries and on the high seas. 
By their very nature, these resources require an international approach 
to science and management in order to be effective. In most cases, it 
is necessary to collaboratively manage these species. This 
collaboration ranges from a simple bilateral agreement (such as the 
International Pacific Halibut Commission) to the most complex, 
multinational Regional Fishery Management Organization (RFMO), such as 
the 3 tuna RFMOs of which the United States is a member. NMFS is taking 
a leadership role in a number of RFMOs, which are key to combating IUU 
fishing in the multilateral context. Next I will highlight the type of 
measures taken by RFMOs.

Catch/Trade Documentation Schemes
    Catch and trade documentation schemes in the Convention for the 
Conservation of Antarctic Marine Living Resources (CCAMLR) and the 
International Convention for the Conservation of Atlantic Tunas (ICCAT) 
illustrate multilateral efforts to combat IUU fishing. CCAMLR adopted a 
Catch Documentation Scheme in 1999 designed to prevent illegal harvests 
of Patagonian and Antarctic toothfish from entering markets in CCAMLR 
member countries. The Scheme monitors international trade, identifies 
the origin of imports, determines if imports caught in the Convention 
Area are consistent with CCAMLR conservation measures, and provides 
catch data for stock assessments. NMFS has fully implemented the Catch 
Documentation Scheme in the United States and recently went a step 
further by implementing an electronic reporting system that will 
greatly enhance the integrity of the Scheme. This electronic reporting 
system serves as a model for other RFMO catch and trade tracking 
programs.
    In the early 1990s, ICCAT adopted a trade tracking program for both 
fresh and frozen bluefin tuna in response to concerns about the status 
of the resource and suspected high levels of IUU fishing. Subsequently, 
statistical document programs were adopted for swordfish (fresh and 
frozen) and bigeye tuna (frozen). The programs track the trade of 
product and provide information on the flag state and name of the 
harvesting vessel, the location of harvest, the point of export, a 
description of the fish in the shipment and a variety of other 
identification information. Information from these programs assists 
with catch data verification for both ICCAT members and non-members and 
is used as important input into ICCAT's process for evaluating fishery 
activities under its Trade Measures Recommendation, which can lead to 
the adoption of restrictive trade measures against countries.
    ICCAT also overhauled its bluefin tuna statistical document program 
in 2007 to create a Bluefin Tuna Catch Documentation Scheme. Like the 
CCAMLR Catch Documentation Scheme, this program tracks product from the 
point of capture through its final market. This Scheme, which requires 
documentation when harvest occurs rather than only at export, will 
capture the large portion of bluefin tuna product that stays within a 
country and never enters international trade. The program was 
specifically developed to provide more direct control of the eastern 
Atlantic and Mediterranean bluefin tuna fishery given pervasive quota 
compliance and data reporting problems. A United States proposal to 
implement ICCAT's catch and trade documentation programs electronically 
was adopted by ICCAT in 2006, and the United States is working toward 
electronic implementation with a view to improving the efficiency and 
effectiveness of these programs.

Compliance Committees/Sanctions
    ICCAT was the first RFMO to adopt a trade-related instrument to 
promote compliance with conservation measures. The organization's 
Bluefin Tuna Action Plan, agreed upon in 1994, established a 
multilateral process for evaluating fishing activities and recommending 
restrictions on trade against countries that diminished the 
effectiveness of ICCAT's bluefin tuna measures. The approach taken to 
help reduce IUU fishing and protect overfished bluefin tuna was 
expanded to address the swordfish fishery and, more generally, all 
unregulated and unreported catches in the mid- and late 1990s.
    By 2003, ICCAT had identified and adopted a comprehensive trade 
measure instrument which applied equally to all ICCAT fisheries and all 
parties (both member and non-member). This made the process for the 
application of trade restrictive measures more transparent, employed 
comparable standards for evaluating fishery related activities, and 
allowed for swift re-imposition of trade sanctions. This comprehensive 
approach has bolstered ICCAT's already significant efforts to eliminate 
IUU fishing in the Atlantic Ocean. This has led to a number of 
countries to take action to rectify non-compliant activity. 
Additionally, this has provided the incentive for countries to join the 
Commission in order to directly assist in conservation programs.
    In addition to trade related approaches, ICCAT has adopted a suite 
of monitoring, control, surveillance and quota compliance measures. The 
latter approach requires parties to repay quota overharvests, including 
a penalty for repeated incidences. With respect to the swordfish and 
bluefin tuna fisheries, extreme cases of quota non-compliance can lead 
to trade penalties. Full implementation of ICCAT's quota compliance 
regime by the organization has been slow and the United States 
continues to work toward improving this situation.
    Another notable example of improved compliance is the Northwest 
Atlantic Fisheries Organization's (NAFO) adoption in 1997 of its 
``Scheme to Promote Compliance by Non Contracting Party Vessels with 
the Conservation and Enforcement Measures Established by NAFO.'' The 
development of this Scheme was led by the United States. In brief, the 
Scheme presumes that any non-Contracting Party vessel sighted engaging 
in fishing activities in the NAFO Regulatory Area is undermining NAFO 
conservation and enforcement measures and, unless this presumption is 
rebutted, the vessel may not land its catch in the port of any NAFO 
member. The NAFO Scheme marked a significant achievement in RFMO 
efforts to deal with non-Contracting party fishing activities and 
facilitated the adoption of similar programs by other regional fishery 
conservation and management organizations throughout the world.

IUU Vessel Lists
    As a tool to combat IUU fishing activities, an increasing number of 
RFMOs have adopted procedures for listing vessels that have engaged in 
IUU fishing. These lists have been created to attach certain penalties 
to vessels, including restriction on port access, unloading 
prohibitions, and product marketing. The United States has played a 
leading role in ensuring that such lists are compiled in a transparent 
manner and provide due process to listed vessels. NMFS is designing a 
system that will implement U.S. obligations to apply these RFMO 
decisions in our ports to vessels that have been included on IUU vessel 
lists. The United States is also developing a robust outreach program 
to enhance IUU awareness among the public and private sectors. NMFS has 
posted links on its webpage to RFMO IUU vessel lists in order to 
provide the public with a single source where IUU lists can be found. 
NMFS intends to further enhance our IUU outreach activities to create 
further economic disincentives for IUU fishing, including limits on 
access of IUU product into the significant United States market.

Bycatch Reduction
    The United States plays a leadership role in the adoption of RFMO 
measures designed to reduce bycatch of seabirds, sea turtles, and 
sharks.
    Seabirds: The United States has taken a leadership role in 
addressing seabird bycatch in a number of RFMOs by promoting the 
development of individual National Plans of Action by RFMO members and 
by stressing the need for RFMOs to scientifically assess seabird/
fisheries interactions and take appropriate steps to mitigate them. Due 
in part to United States leadership, seabird bycatch mitigation 
measures have been adopted in ICCAT, CCAMLR and the Western and Central 
Pacific Fisheries Commission (WCPFC). Additional efforts are currently 
underway to address seabird bycatch in the Inter-American Tropical Tuna 
Commission (IATTC). Many of the measures adopted by these RFMOs are 
comparable to those already required in U.S. fisheries. Additionally, 
the United States is promoting international seabird conservation by 
participating in the activities of the Agreement on the Conservation of 
Albatrosses and Petrels (ACAP). ACAP entered into force in 2004, and 
its objective is to achieve and maintain a favorable conservation 
status for albatrosses and petrels. The Administration is currently 
reviewing ACAP for possible submission to the Senate.
    Sea turtles: The United States led negotiations resulting in the 
FAO Guidelines to Reduce Sea Turtle Mortality in Fishing Operations in 
2005. The United States has subsequently led successful efforts to 
adopt the FAO Guidelines in the IATTC, WCPFC, and NAFO. Additionally, 
the United States took a leadership role in negotiating the Inter-
American Convention for the Protection and Conservation of Sea Turtles 
(the only binding international sea turtle treaty) and participates in 
Indian Ocean-Southeast Asia Marine Turtle Memorandum of Understanding, 
and the Memorandum of Understanding Concerning Conservation Measures 
for Marine Turtles of the Atlantic Coast of Africa. All three measures 
have provisions requiring or urging participant countries to use 
bycatch reduction devices such as Turtle Excluder Devices and circle 
hooks. The United States continues to work bilaterally and 
multilaterally to urge countries to implement measures comparable to 
the United States to reduce sea turtle bycatch and injury. The United 
States has also worked successfully with nations that export shrimp to 
the United States to help them develop Turtle Excluder Device programs 
comparable to the United States program. Finally, the United States has 
hosted one international workshop on circle hooks for the longline 
fisheries, and will host another in 2008. The workshops, when coupled 
with a coordinated strategy among the U.S. delegations to RFMOs, have 
increased U.S. effectiveness in pushing for binding RFMO measures to 
reduce sea turtle bycatch and mortality.
    Sharks: The United States has been a leader in calling on the 
international community to improve the conservation and management and 
reduce bycatch of shark populations. The Shark Finning Prohibition Act 
was enacted in 2000 with the intent of drastically reducing the number 
of sharks finned and carcasses discarded at sea. The Shark Finning 
Prohibition Act directed the United States to seek agreement on 
international bans on shark finning and other fishing practices 
adversely affecting these species through the United Nations, FAO and 
RFMOs. The adoption of shark finning bans and 5 percent fin to carcass 
ratio requirements by many of the world's RFMOs is due in part to U.S. 
leadership internationally, pursuant to Congressional direction in the 
Shark Finning Prohibition Act. The Shark Finning Prohibition Act also 
directs the United States to urge other governments to prepare and 
submit National Plan of Actions for sharks under the FAO's 
International Plan of Action for the Conservation and Management of 
Sharks. The United States worked to ensure that the December 2007 
United Nations General Assembly Fisheries Resolution contains a strong 
mandate for improved global efforts relating to shark conservation and 
management.

NOAA Activities and Initiatives
Fisheries Enforcement Activities
    NOAA's Office of Law Enforcement includes 148 sworn Federal agents. 
The officers work closely with international, Federal and state law 
enforcement partners in an effort to detect, apprehend and prosecute 
those involved in the illegal importation of IUU products into the 
United States and its territories and to stop the global trade of IUU 
fisheries products. These efforts include NOAA's coordination with the 
U.S. Coast Guard sea and air patrols in the North Pacific Ocean to 
detect illegal large-scale high seas driftnet fishing. The Office of 
Law Enforcement also works closely with Customs and Border Protection 
to detect illegal fisheries products being imported into the United 
States.
    NOAA's Office of Law Enforcement is routinely engaged in 
international investigations that involve efforts to terminate 
unscrupulous business operations that are multi-national in scope. Such 
efforts typically involve the application of the Lacey Act and have 
resulted in blocking importation of illegally harvested and processed 
marine products trafficked on a worldwide scale. In recent years the 
Office of Law Enforcement has been able to identify a number of multi-
million dollar IUU operations engaged in the trafficking of IUU fish 
and fish products through investigative operations that have resulted 
in successful prosecution and ultimately the termination of these 
operations. Such cases have resulted in the elimination of activities 
that have caused or that are causing harm to marine resources 
throughout the world.
    The Office of Law Enforcement has also initiated an effort to 
enhance our ability to investigate and respond to IUU fishing activity 
as well as other growing international responsibilities. Creation of an 
intelligence analysis capability within the Office of Law Enforcement 
is one critical need being addressed which will require further 
expansion in the future. Developing a capability to access, evaluate, 
and analyze fisheries-related intelligence and then to create 
intelligence-driven products to assist in focusing limited enforcement 
resources is critical to meet our obligations to respond to IUU fishing 
issues and to the flow of IUU product around the globe and into the 
United States.

Leadership of the International Monitoring, Control and Surveillance 
        Network
    In 2001, the United States joined other countries to establish the 
International Monitoring, Control and Surveillance Network (Network), 
which works multilaterally to exchange fisheries and enforcement 
information, including information related to IUU fishing. The Network 
was established to provide a mechanism for fisheries law enforcement 
professionals to share information and experiences as they monitor the 
increasingly complex harvesting and marketing of fish around the world. 
The rise in illegal activities that has accompanied globalization 
underscores the need for cooperative law enforcement across national 
borders.
    In 2006, the High Seas Task Force project on global IUU fishing 
recommended enhancement of the Network as a key initiative to combat 
IUU fishing. NOAA has taken the lead to improve the Network through 
implementation of an enhancement project and by serving as Chair of the 
Network. Funding for the enhancement has been provided by several 
partners, including Australia, Canada, New Zealand, and the United 
Kingdom.

International Trade Data System Project
    One important development that will improve NOAA's ability to 
detect IUU fish being imported into the United States is the 
International Trade Data System currently under development by the 
Department of Homeland Security. International Trade Data System is an 
integrated, government-wide system for the electronic collection, use, 
and dissemination of trade data. The Safe Ports Act of 2006 made 
International Trade Data System mandatory for all Federal agencies that 
have a role in determining the admissibility of imports to the United 
States market and NMFS has taken steps to become a participating 
government agency in this system. International Trade Data System will 
significantly improve the capability of NMFS to enforce trade measures 
and documentation requirements of these programs. Currently, the Office 
of Law Enforcement is informed of permitting, documentation and 
reporting violations long after they occur, which makes investigation 
and forfeiture of product difficult or impossible. This system will 
allow screening and targeting of inbound shipments, potentially on a 
pre-arrival basis. Such capability will place NOAA staff in a position 
to approve entries or to place holds on shipments when permits/
documentation are missing. Close interagency coordination will ensure 
effective and consistent application of import regulations as well as 
detection of potential IUU shipments of fish and fish products.

Newly Reauthorized Magnuson-Stevens Act
    The newly reauthorized Magnuson-Stevens Act contains several new 
provisions that will significantly shape the focus of fisheries 
management in the coming years. Importantly, the Magnuson-Stevens Act 
pays an unprecedented level of attention to international fisheries, 
and the overarching approach of this legislation is a call for the 
Secretary of Commerce to work multilaterally, through RFMOs and other 
forums, to combat IUU fishing.
    The Magnuson-Stevens Act amends the High Seas Driftnet Fishing 
Moratorium Protection Act (Moratorium Protection Act) to require the 
Secretary of Commerce to produce a biennial report to Congress that 
lists countries which the United States has identified as having 
vessels engaged in IUU fishing or bycatch of protected living marine 
resources. Under the Act, the United States is directed to consult with 
and encourage identified nations to take appropriate corrective action 
to address the IUU fishing and bycatch activity outlined in the 
biennial report.
    The Magnuson-Stevens Act also requires the Secretary of Commerce to 
develop rulemaking to implement certification procedures for nations 
that have been identified in the biennial report. If these nations do 
not take steps to address the problems of IUU fishing or bycatch, the 
United States is authorized to prohibit the importation of certain fish 
and fish products from such nations into the United States and take 
other measures.
    NMFS has been actively working to implement the international 
provisions of the Magnuson-Stevens Act to help combat IUU fishing. In 
January of this year, NMFS produced a report on the status of progress 
toward implementation of the international provisions of the Magnuson-
Stevens Act, which highlights the work that has been undertaken to 
date. I will briefly describe for the Committee where we are with 
respect to implementation and outreach on the international provisions 
of the Magnuson-Stevens Act.

Magnuson-Stevens Act Implementation and Outreach
    The first step that NMFS took to implement the international 
requirements in the newly reauthorized Magnuson-Stevens Act was to 
promulgate a final rule to define IUU fishing. This definition mirrors 
the definition of IUU fishing that was included in the reauthorized 
Magnuson-Stevens Act.
    In fulfillment of its obligations under Magnuson-Stevens Act, the 
United States is seeking to strengthen international fishery management 
agreements to address IUU fishing through negotiation of their 
underlying agreements or negotiation of new protocols. With substantial 
United States involvement, international fishery management 
organizations have taken action toward the adoption and sharing of IUU 
vessel lists, use of observers and technologies to monitor compliance, 
and promotion and use of centralized vessel monitoring systems. As 
previously noted, the United States has also worked with these 
organizations to adopt trade tracking and documentation schemes, 
prevent trade or import of IUU-caught fish, and protect vulnerable 
marine ecosystems.
    Most RFMOs operate on the basis of catch data that are far less 
complete than necessary. Systems that would improve data shortcomings 
and serve as a basis for improved management, such as observer programs 
and vessel monitoring systems, are not universal. There are clear cases 
of RFMO members who are capable of providing complete data but fail to 
do so. Some developing country RFMO members lack the capability and 
resources to collect and share this information, and the world has been 
slow to realize that assistance to these countries for the purpose of 
improving international fisheries management is in everyone's interest.
    This Committee and the Congress as a whole have recognized this gap 
and provided authorization through the Magnuson-Stevens Act and initial 
funding to allow us to reach out and assist other countries to improve 
their contributions to international fisheries management. We are 
enthusiastic about this new authority and the prospects that, with it, 
we can help improve the situation in ways that were not available to us 
previously. In cooperation with its Federal partners, NMFS has assisted 
other nations in addressing IUU fishing and bycatch of protected 
resources. We have hosted and supported workshops on techniques and 
tools to strengthen enforcement; methods to prevent and mitigate the 
incidental take of marine turtles, mammals, seabirds, and other 
resources; and response to marine mammal strandings. NMFS has also 
provided technical and other assistance to developing countries to 
improve their monitoring, control, and surveillance capabilities and 
has sought to promote the development of effective fisheries observer 
programs in other countries.
    Although not funded with Magnuson-Stevens Act funding, a similar 
initiative called the Coral Triangle Initiative is going forward with 
support from NOAA and the Department of State. The Initiative is 
bringing together Indonesia, Malaysia, Philippines, Papua New Guinea, 
Solomon Islands, and Timor-Leste, who are cooperating in a wide range 
of marine projects, including sustainable fisheries, IUU fishing, 
fishing overcapacity, and destructive fishing practices.
    In addition, NMFS is developing a proposed rule to establish 
procedures for the identification and certification of nations whose 
vessels are engaged in IUU fishing or bycatch of protected living 
marine resources. In preparation for development of these procedures, 
NMFS held three public meetings to solicit comments from the public on 
an advance notice of proposed rulemaking.
    Finally, in preparation for the first biennial report, which is due 
to Congress in January 2009, NMFS is soliciting information from the 
public, including other nations, as well as from appropriate Federal 
agencies that can be used in the identification of nations whose 
vessels are engaged in IUU fishing or bycatch of protected living 
marine resources. NMFS has also developed an internal process for the 
compilation, review, and analysis of all appropriate information and 
NMFS will be collaborating with our Federal partners, such as the Coast 
Guard and the State Department, in the verification of such 
information. The United States plans to conduct consultations with 
nations that have been identified as having vessels engaged in IUU 
fishing activity to promote corrective action. NMFS will keep the 
Committee apprised of progress implementing the international portions 
of the Magnuson-Stevens Act.

Conclusion
    While the United States takes pride in what has been accomplished 
through RFMOs and other fora, much work remains to be done. NMFS is 
actively working to implement the international provisions of the 
Magnuson-Stevens Act and is vigorously engaged through various RFMOs to 
combat IUU Fishing. We strive to work in a cooperative and transparent 
manner toward achieving these goals. With the tools and support this 
Committee has supplied to this complex endeavor, NOAA will create the 
incentives for sustainable international fisheries management to 
benefit the world's marine ecosystems, the U.S. fishing industry, and 
the American seafood consumer.
    As a matter of outstanding business, the Inter-American Tropical 
Tuna Commission adopted a new treaty, known as the Antigua Convention, 
to provide it with a comprehensive mandate that incorporates modern 
standards for international fisheries management. Let me state our 
agreement with Ambassador Balton's urging quick Congressional action on 
implementing legislation for the Antigua Convention.
    Chairman Inouye and Members of the Committee, that concludes my 
statement. The Department of Commerce and NOAA look forward to working 
with you, the public, the fishing industry, and our international 
counterparts on these important fisheries issues. I will be happy to 
answer any questions.

    Senator Stevens. Thank you. Thank you, Mr. Secretary, and 
we will proceed with all of the statements. Then I will have 
some questions.
    Mr. Balton, Deputy Assistant Secretary of Oceans and 
Fisheries, I would be happy to have your statement.

 STATEMENT OF HON. DAVID A. BALTON, DEPUTY ASSISTANT SECRETARY 
  OF STATE FOR OCEANS AND FISHERIES, U.S. DEPARTMENT OF STATE

    Mr. Balton. Thank you, Senator Stevens. It is a pleasure to 
appear before you again this morning.
    We seek sustainable fisheries, but three daunting 
challenges stand in the way--first, overcapacity of fishing 
fleets, which leads to overfishing; second, illegal, 
unreported, and unregulated fishing; and third, adverse 
environmental effects of certain fishing practices.
    We cannot successfully address these challenges separately, 
nor can we succeed without the cooperation of other nations and 
stakeholders. Congress and the Administration also need to 
continue to work together. The overall picture is worrisome. 
FAO estimates that almost three quarters of commercially 
exploited fish stocks for which good data exist are either 
overexploited, fully exploited, or recovering from a depleted 
state. Problems of overfishing, IUU fishing, and other 
environmental factors have certainly contributed.
    We have two reasons for hope, however. First, international 
fisheries issues now occupy a much more prominent position on 
the policy agenda. And second, as we have already heard, we 
have a robust framework for international fisheries governance 
that rests on the 1982 Convention on the Law of the Sea. For 
the United States to maximize its influence over international 
fisheries, however, we must join all other major fishing 
nations as a party to this Convention.
    Of the three challenges, overcapacity and overfishing are 
the hardest to address. We have achieved only limited success 
in establishing capacity caps for some fisheries. To be 
sustainable, many fisheries need actual reductions in fishing 
capacity and effort. We also need stronger disciplines on 
subsidies to the fisheries sector. At the WTO, the United 
States has proposed new subsidies rules, but negotiations 
continue.
    The second challenge, IUU fishing, continues to plague 
virtually all fisheries, but we are making progress here. 
Through the FAO, we have created a toolbox for this--flag State 
measures, coastal State measures, port State measures, market-
related measures. Governments have been using these tools, 
individually and through the RFMOs. We have seen improvements 
in the monitoring, control, and surveillance of fishing 
vessels, restrictions on transshipment at sea, catch and trade 
documentation schemes, lists of authorized vessels and of IUU 
vessels, import restrictions, and port State controls.
    We have seen an increase in cooperation among the RFMOs. We 
are supporting the creation of a global record on fishing 
vessels to include unique vessel identifiers and comprehensive 
ownership information. We are leading efforts to negotiate a 
new agreement on port State measures for IUU fishing. I was 
pleased to chair an initial meeting to develop a first draft of 
this treaty. Negotiations will begin in earnest in June, with 
the goal of producing a final treaty next year.
    We understand that Congress shares our desire to crack down 
on IUU fishing, and we look forward to further collaboration. 
We know that Congress also shares our concern over the third 
challenge, the impact of certain fishing practices on the 
marine environment. I can report reasonable progress here as 
well, but again, more needs to be done.
    We brokered a U.N. resolution that calls for identification 
of vulnerable marine ecosystems, for assessment of whether 
specific fishing practices significantly harm them, and for the 
development of measures to prevent such harm. In the absence of 
such measures, governments have agreed to stop destructive 
fishing in the high seas areas in question by the end of this 
year.
    We have secured interim rules for the South Pacific and for 
the Northwest Pacific to give effect to the U.N. mandate as 
negotiations on longer-term arrangements proceed. Worldwide, as 
we have heard, we are pressing to reduce bycatch of species of 
concern, including sea turtles, seabirds, and sharks. With 
respect to sharks, many RFMOs have followed the lead in banning 
shark finning, but they have done little else for these 
species. And this has led other international bodies to act, 
including the U.N. and the Convention on Migratory Species.
    Despite their shortcomings, the RFMOs remain the only 
feasible means for managing international fisheries. But they 
are only as effective as their member governments allow them to 
be. One way to make RFMOs more effective is to review their 
performance using common criteria, a process that is now 
underway. And one RFMO, the Inter-American Tropical Tuna 
Commission, has adopted a new treaty, the Antigua Convention, 
to strengthen its role. The Senate provided advice and consent 
to this treaty, and we now urge Congress to pass the necessary 
implementing legislation.
    Let me conclude with a call for greater assistance to 
developing countries to help them with fisheries management. To 
achieve sustainability in international fisheries, all nations 
must have the capacity to implement agreed rules. Such 
assistance, therefore, will ultimately benefit the United 
States as well.
    Thank you very much, Senator Stevens. I would be happy to 
take any questions when the time is right.
    [The prepared statement of Mr. Balton follows:]

Prepared Statement of Hon. David A. Balton, Deputy Assistant Secretary 
      of State for Oceans and Fisheries, U.S. Department of State

    Mr. Chairman and Members of the Committee:
    I am pleased to have the opportunity to appear before you to 
outline both the challenges we face in working toward sustainable 
international fisheries, as well as the recent progress we have made.
Introduction and Overview
    Managing the world's fisheries on a sustainable basis is a goal we 
all share, but it is also one that still proves elusive. Three 
challenges in particular stand in the way of achieving this goal:

        1. Overcapacity of fishing fleets, which leads to overfishing;

        2. Illegal, unreported and unregulated (IUU) fishing; and

        3. Adverse environmental effects of certain fishing practices.

    We cannot successfully address these challenges by dealing with 
them in isolation from each other. Nor can we successfully address them 
without the cooperation of other nations, international organizations 
and key stakeholders. Flag States, coastal States, market States and 
port States each play a vital role in managing the conduct of fisheries 
and the progress of fisheries products through the marketplace. To 
achieve sustainable fisheries, we need to work with the governments of 
these States bilaterally and through Regional Fisheries Management 
Organizations (RFMOs) and other international organizations such as the 
United Nations and the U.N. Food and Agriculture Organization (FAO). At 
the international level and here at home, we also need to continue to 
engage industry groups, conservation organizations, scientists, 
consumers and the media on these issues. Last, but certainly not least, 
Congress and the Administration also need to continue to work together.
    The overall picture is worrisome. The FAO, in its most recent 
survey of the state of the world's fisheries, estimates that almost 
three quarters of commercially exploited fish stocks for which adequate 
data exist are either fully exploited, overexploited, or rebuilding 
from a depleted state. This situation has not changed appreciably over 
the past two decades. But even as global capture fisheries production 
has leveled off, the demand for seafood has continued to increase. Much 
of this increased demand is driven by developing countries whose 
citizens depend on fish and seafood as a critical source of low-cost 
protein.
    Two things have changed over the past two decades or so, however, 
which give us a basis for hope. First, international fisheries issues, 
and the challenges noted above, have taken a much more prominent 
position on the policy agenda. Thanks in part to more extensive media 
coverage of these issues, we see much greater awareness of the problems 
at hand and more insistent calls for solutions to those problems. At 
both the international and domestic levels, we also see fisheries 
issues merging more and more with broader environmental issues.
    Second, we have created an international governance structure for 
fisheries that is strong and growing stronger. The international 
community has forged a robust international law framework at both the 
global and regional levels and has developed a broad range of new tools 
for managing shared fisheries. The entirety of this framework rests on 
the 1982 Convention on the Law of the Sea, which established the 
overall structure for international fisheries management. I must note, 
however, that the status of the United States as a non-party to this 
vital treaty undermines our credibility with other major fishing 
nations, virtually all of which are parties to the Convention. As 
discussed by Deputy Secretary Negroponte's testimony, the 
Administration once again urges the Senate to provide its advice and 
consent to U.S. accession to this treaty.
    Building on the Law of the Sea framework, we have a series of other 
treaties for the management of international fisheries to which the 
United States is party, including the 1993 FAO Compliance Agreement and 
the 1995 U.N. Fish Stocks Agreement. The United States is also a key 
member of more than 10 RFMOs and is leading international efforts to 
strengthen these organizations and to create new ones. Complementing 
these binding mechanisms are a number of voluntary instruments, 
including a the FAO Code of Conduct for Responsible Fisheries, 
international plans of action that address bycatch of sharks and 
seabirds, capacity management, and IUU fishing, and a number of other 
technical guidelines and model instruments to guide further 
cooperation, including one for improved data collection and sharing.

Overcapacity and Overfishing
    Overcapacity and overfishing are proving the hardest problems to 
solve. Overcapacity in particular contributes to poor stock 
productivity, unsatisfactory economic performance, increased impacts on 
bycatch species and excessively contentious management debates. We are 
working with some success to establish capacity caps for some key 
fisheries. But it is clear that sustainable fisheries require in many 
instances a reduction in capacity and effort. There are simply too many 
fishing vessels operating with too much ability to catch fish. Through 
the RFMOs, we must keep pressing for effective capacity management--
including monitoring and controlling both the level and use of fishing 
capacity--as part of their overall conservation and management regimes.
    A key challenge is that many developing States are looking to 
increase their capacity to harvest fish within areas under their 
jurisdiction, as well as on the high seas. They argue, with some merit, 
that the developed States bear the lion's share of responsibility for 
the overcapacity problem. But we cannot accommodate the desires of 
developing States to increase their capacity to participate in 
fisheries that are already fully subscribed (or oversubscribed) unless 
the developed States with large fleets are willing to reduce their 
capacity concomitantly.
    Reforms to World Trade Organization (WTO) disciplines on fisheries 
subsidies currently under negotiation as part of the Doha Round are a 
vital component of rationalizing fishing capacity. The goal is to 
eliminate subsidies that lead to overfishing and overcapacity, but 
allow the continuation of some subsidies that support sustainable 
fisheries management (such as properly designed buy-out programs). The 
United States presented a proposal for new subsidies rules in March 
2007 that was very well-received. While the negotiations are far from 
complete, we are making substantial process. The United States is also 
working through other organizations, such as Organization for Economic 
Cooperation and Development, to find new ways to tackle these problems, 
particularly by identifying the economic drivers that lead to 
overfishing and IUU fishing.

IUU Fishing
    IUU fishing continues to plague virtually all fisheries, in areas 
under national jurisdiction and on the high seas. The international 
community has recognized this, and has created a set of new tools to 
deal with this phenomenon, some of which seem to be helping. But more 
needs to be done.
    The 2001 FAO International Plan of Action (IPOA) to Prevent, Deter, 
and Eliminate IUU Fishing lays out a suite of measures that individual 
States--whether acting as flag States, coastal States, port States or 
market States--and RFMOs can implement to reduce the incidence of IUU 
fishing.
    In 2004, the United States became one of the first States to adopt 
a national plan of action to give operational effect to this IPOA. An 
increasing number of States have by now adopted their own National 
Plans of Action on IUU fishing. RFMOs have also adopted measures to 
address IUU fishing, including requirements to improve monitoring, 
control and surveillance (MCS) of vessels, restrictions on 
transshipment of fish at sea, catch and trade documentation schemes, 
lists of both authorized vessels and vessels identified as having 
engaged in IUU fishing, market-related measures and port State 
controls, to name some. We have also seen increasing cooperation 
between and among RFMOs, particularly those in adjacent areas (such as 
the Northwest Atlantic Fisheries Organization and the Northeast 
Atlantic Fisheries Commission) and those that deal with fisheries for 
similar species (such as the five RFMOs that manage tuna fisheries 
around the world).
    For example, the five tuna RFMOs met jointly for the first time in 
Kobe, Japan in January 2007. The meeting agreed to four immediate areas 
of coordinated work: harmonizing and improving trade tracking programs, 
creating a global IUU vessel list, harmonizing transshipment control 
measures, and standardizing the presentation of stock assessment 
results. Work on the first is well underway, the United States has also 
supported efforts among RFMOs to work toward a global IUU vessel list 
by contributing to a process that provides for inclusion of vessels 
identified by one RFMO on the lists of others, while taking into 
account any due process concerns that may arise.
    We are also pursuing stronger port controls. Because fish must be 
landed before they can get to the market, controlling the landing point 
often presents the best and most effective chance to combat IUU 
fishing. Stronger agreed standards for port States to regulate the 
landing and transshipment of fish in port can complement the market-
related measures already in place through several RFMOs. The United 
States strongly supported the development through the FAO of a 
voluntary model scheme to facilitate coordination and cooperation among 
port States to address IUU fishing. Last year, the FAO Committee on 
Fisheries agreed to create a new, binding agreement based on the Model 
Scheme. I was pleased to chair the initial expert consultation that 
developed a first draft of this agreement. This draft will form the 
basis of negotiations that will begin in earnest this coming June. Our 
goal is to complete the negotiations in time for the next meeting of 
the Committee on Fisheries to adopt an agreement in March 2009.
    The United States continues to advocate for other measures to 
combat IUU fishing. Through FAO, we are pressing for the development of 
a global record of fishing vessels--including transport and support 
vessels--that would include unique vessel identifiers and comprehensive 
ownership information. At the RFMO level, we are seeking stronger MCS 
measures, including broader access to data from vessel monitoring 
systems, increased vessel observer programs, stronger documentation 
schemes, etc.
    Cooperative mechanisms such as the International MCS Network, which 
facilitates cooperation and information-sharing between monitoring, 
control, and surveillance officials in different countries, are 
increasingly important. Recognizing the connections among vessels 
involved in or supporting IUU fishing, we have also strongly supported 
the FAO and the International Maritime Organization's joint working 
group on IUU fishing, and in particular efforts to create a global 
record of all fishing vessels.
    The Administration understands very well that Congress shares our 
desire to crack down on IUU fishing. The 2006 Magnuson-Stevens 
Reauthorization Act has provided new tools in this regard. We also see 
other major markets moving toward stricter controls. The European 
Union, for example, is considering a sweeping set of new policies 
intended to prevent access of IUU-caught fish to its market and to 
strengthen internal information collection and enforcement within its 
member States.

Environmental Impacts
    The United States and our international partners have become 
increasingly concerned by the impacts of certain fishing activities on 
the marine environment, including excessive bycatch and harm to 
vulnerable marine ecosystems. In 2006, the President charged the 
Secretaries of State and Commerce to work multilaterally to end 
unregulated destructive fishing practices on the high seas and to work 
to create effective, science-based conservation and management regimes 
for high seas fisheries more generally. The United States subsequently 
chaired negotiations on the 2006 U.N. General Assembly fisheries 
resolution (UNGA Resolution 61/105) that calls for specific actions by 
States, RFMOs, and the FAO to identify vulnerable marine ecosystems, 
assess whether certain fishing practices may significantly harm them, 
and to develop effective conservation and management measures for these 
fisheries to prevent such harm, or halt fishing in these areas.
    The United States has been in the forefront of efforts to apply the 
provisions of UNGA Resolution 61/105 within existing RFMOs, and to 
develop interim management regimes for the Northwest Pacific and the 
South Pacific, where longer-term arrangements are still under 
negotiation. In addition, the United States is taking a leadership role 
at the FAO in the negotiations on technical guidelines for the 
management of deep sea fisheries. In these negotiations, the United 
States recently secured clear criteria and standards for identifying 
vulnerable marine ecosystems and assessing and determining significant 
adverse impacts to such ecosystems. We are now working within those 
RFMOs that have not yet adopted measures to implement Resolution 61/105 
to ensure these criteria and standards are put into operation.
    In addition, ensuring effective conservation and management of 
sharks is a high priority for the United States. Sharks are 
particularly susceptible to overexploitation because they are typically 
long-lived, slow-growing, and produce few young. Many shark species are 
apex predators and are vital to the health of the ecosystems they 
inhabit, so their conservation is an integral part of ecosystem-based 
fisheries management. Sharks are currently taken in fisheries directed 
for sharks, and are also caught incidentally in fisheries targeting 
other species. Sharks are also subject to the practice of ``finning,'' 
which is the removal and retention of shark fins and the discard of 
shark carcasses at sea. The United States has led efforts within RFMOs 
to adopt consistent shark finning bans and to reduce shark bycatch, but 
States and RFMOs now need to take stronger action to manage directed 
shark fisheries.
    Once again, the United States led efforts at the U.N. General 
Assembly to adopt language in the 2007 fisheries Resolution that calls 
on States and RFMOs to take immediate and concerted actions to improve 
shark conservation and management and to better enforce existing rules 
on shark fishing. The Resolution calls for improved compliance with 
current bans on shark finning, which could include requirements that 
sharks be landed with fins attached. Perhaps more importantly, the 
Resolution calls for improved management of directed fisheries through 
establishing limits on shark catches, improving assessment of the 
health of shark stocks, and limiting shark fisheries until management 
measures are adopted. We are now working within RFMOs to implement 
these provisions. The United States also participated in a first-ever 
meeting under the auspices of the Convention on Migratory Species (CMS) 
in December 2007 to identify and elaborate an option for international 
cooperation on migratory sharks under CMS.
    The United States is continuing to press for stronger actions to 
mitigate the bycatch of other vulnerable marine species as well. We 
continue to enforce the prohibition on the importation of shrimp 
harvested in ways that harm endangered sea turtles and the importation 
of certain tuna that is caught in a manner that is inconsistent with 
agreed standards relating to dolphin safety. Through NOAA, we are 
working to reduce the bycatch of sea turtles in longline fisheries. We 
are also reviewing the Agreement on the Conservation of Albatrosses and 
Petrels for possible submission to the Senate.

Strengthening RFMOs
    Though RFMOs are imperfect, they are currently the most practical 
way to manage shared international fisheries. As active participants in 
many RFMOs, we are committed to multilateral efforts to strengthen 
fisheries governance in order to ensure the sustainability of target 
stocks while also conserving associated and dependent species and the 
habitats on which they depend.
    In many ways, we are at a crossroads. Many national and 
multilateral fora responsible for fishery management are under heavy 
criticism for failing to take decisions that the science tells us is 
necessary to ensure sustainability of fishery resources, or to take 
steps (many of which are widely acknowledged to be effective) to 
mitigate the impacts of fishing activities on non-target species and 
habitats. If RFMOs fail to fulfill their obligations, we can expect 
calls to continue for other organizations to step in and fill that 
void.
    A key outcome of the joint tuna RFMO meeting in Kobe was a 
commitment among these organizations to undertake performance reviews 
to assess how each was meeting its mandate and to identify how each 
could strengthen its functioning. The first three of these reviews are 
under way, using a common approach and criteria developed through U.S. 
leadership. Other RFMOs have recently strengthened their mandates and 
charters to reflect the changes in international fisheries governance 
and better allow them to manage the full ecosystems under their 
purview. With new regimes coming on line to fill the gaps in 
international management, it is vital the United States gives these 
organizations its full support and participation.
    In this regard, I should mention that the Inter-American Tropical 
Tuna Commission adopted a new treaty, known as the Antigua Convention, 
to provide it with a comprehensive mandate that incorporates modern 
standards for international fisheries management. In 2005, the Senate 
provided its advice and consent to U.S. ratification of the Antigua 
Convention. However, because Congress has yet to pass legislation to 
implement the Convention, we have not deposited our instrument of 
ratification. We therefore urge Congress, and this Committee in 
particular, to take up this legislation at the earliest opportunity.

Capacity Building
    While the United States has been a leader in managing its own 
fisheries and in pressing for stronger international fisheries 
governance, success depends upon our building strong international 
partnerships. Effective international governance can only work if all 
parties have the will and the capacity to implement agreed rules. In 
some parts of the world, the problems facing fisheries--especially IUU 
fishing--are inextricably linked to other concerns such as 
transboundary crime, smuggling, human trafficking, human rights, and 
environmental degradation. Developing countries need help to build 
their capacities to effectively address these myriad and interlinked 
issues. The United States has strongly supported mechanisms like the 
U.N. Fish Stocks Agreement Part VII Fund, which provides assistance to 
developing States for implementing the Agreement, and other similar 
funds within RFMOs. Building capacity for sustainable fisheries 
management is important in the big picture, but it sometimes also has a 
very direct affect on U.S. fisheries. Small tunas born in the Gulf of 
Guinea, which are subject to tremendous fishing pressure there, form 
the backbone of U.S. fisheries for yellowfin and bigeye tuna off the 
East Coast and in the Gulf of Mexico.
    Working with developing States to assist their efforts to build 
strong fisheries management and enforcement capabilities benefits all 
of us. Moreover, assistance to build capacity for ecosystem-based 
management in developing countries can also benefit valuable fish 
stocks and fisheries. The Coral Triangle region of the Indo-Pacific is 
another important tuna spawning and nursery ground that is under 
intense fishing pressure. Juvenile fish from this region eventually 
replenish adult yellowfin and bigeye stocks of the Pacific that are 
fished by vessels from many countries, including the United States. 
Recently, the United States committed $4.35 million to the development 
of the Coral Triangle Initiative, a new cooperative framework to 
protect the world's richest area of marine biodiversity from 
overexploitation. By promoting regional cooperation (among the 
countries of Indonesia, Malaysia, Philippines, Papua New Guinea, 
Solomon Islands, and Timor Lest), the Initiative will develop mutual 
conservation and management solutions that ensure the sustainability of 
these commercially important tunas in their early life before they 
disperse across the Western Pacific, where they support large and 
important regional fisheries.
    Thank you very much. I would be happy to take any questions.

    Senator Stevens. Thank you very much, Mr. Balton.
    Rear Admiral Brooks, I would be happy to have your 
statement, sir.

          STATEMENT OF REAR ADMIRAL ARTHUR E. BROOKS,

     COMMANDER, COAST GUARD DISTRICT 17, U.S. COAST GUARD,

                DEPARTMENT OF HOMELAND SECURITY

    Admiral Brooks. Good morning, Mr. Chairman. It is a 
pleasure to appear before you today to discuss the Coast 
Guard's role in international fisheries management and 
deterring illegal, unreported, and unregulated or IUU fishing. 
It is also a pleasure to represent the Alaskan law enforcement 
community today.
    The Coast Guard has been the leading Federal law 
enforcement presence on the high seas since the days of the 
Revenue Cutter Service in the 18th century. Our role in 
defending living marine resources dates back to the great 
Alaskan fur seal and sea otter hunts of the 19th century. In 
the 21st century, Coast Guard law enforcement is primarily 
focused on protecting the 3.4 million square miles of the U.S. 
exclusive economic zone and key areas of the high seas.
    The Coast Guard aims to provide effective and professional 
at-sea enforcement to advance national goals for living marine 
resource conservation and management. IUU fishing describes 
activities that are a direct affront to such conservation and 
management measures.
    The U.S. Coast Guard strategy for maritime safety, 
security, and stewardship is driven by national policy, such as 
Presidential Decision Directive 36, Protecting the Ocean 
Environment, and legislation such as the Magnuson-Stevens 
Fisheries Conservation and Management Act. Coast Guard efforts 
to deter IUU fishing span across domestic and international 
fisheries, and they bridge our maritime security and maritime 
stewardship goals.
    IUU activity is global. It is conducted by fishing vessels 
of all sizes and descriptions. As discussed, the U.N. Food and 
Agricultural Organization estimates that as much as 75 percent 
of the world's fish stocks are fully exploited, overexploited, 
or depleted. There are tremendous economic incentives at play 
in IUU fishing for both the coastal States and the IUU fishers.
    The FAO estimates annual global revenues lost to IUU 
fishing to be as much as $9 billion per year. This activity 
damages marine ecosystems, distorts competition, and 
jeopardizes the economic survival of coastal communities that 
rely on fishing for their livelihoods. Many coastal States lack 
the enforcement capability to effectively manage and protect 
their living marine resources and are left exposed to poaching 
and overfishing. Recent press reports from West Africa, for 
example, link depleted fish stocks to regional instabilities 
and dangerous illegal large-scale immigration from devastated 
fishing communities.
    NOAA and the State Department are our key partners in 
implementing the U.S. national plan of action to combat IUU 
fishing. The Coast Guard applauds NOAA and the State 
Department's efforts to establish port State control measures, 
catch documentation schemes, and international trade data 
systems to deter IUU importation. These tools will help 
restrict market access for IUU products. Nevertheless, at-sea 
enforcement, which applies significant legal and economic 
consequences to those who engage in illegal fishing activity, 
remains a critical element in combating the IUU threat.
    The Coast Guard is the only Federal agency with the 
capability and legal authority to project a law enforcement 
presence on the high seas and throughout the U.S. exclusive 
economic zone. The Coast Guard plan for fisheries law 
enforcement is known as Ocean Guardian and is based on 
principles of sound regulations, meaning enforceable legal 
regimes or systems of rules that define acceptable activities, 
productive partnerships, cooperative resource management law 
enforcement and case prosecution efforts, use of technology to 
enhance enforcement efforts through maritime domain awareness, 
and effective presence, meaning professional law enforcement 
personnel onboard, capable surface and air assets.
    The concepts of sound regulations and productive 
partnerships are inextricably linked. The Coast Guard serves as 
an enforcement advisor to a number of U.S. delegations to 
regional fisheries management organizations, or the RFMOs, that 
establish the foundations of legal regimes for maritime 
governance to combat IUU fishing. One such RFMO is the North 
Pacific Anadromous Fish Commission. My staff in the 17th Coast 
Guard District serves as the head of the U.S. delegation to the 
enforcement committee for that commission.
    The Coast Guard is also highly engaged in maintaining a 
productive bilateral agreement with the People's Republic of 
China to enforce the U.N. moratorium on large-scale high seas 
driftnet fishing. The Chinese fisheries enforcement officers 
have served as ship riders on U.S. Coast Guard cutters under 
this agreement, staged and operated out of the Coast Guard's 
North Pacific Regional Fisheries Training Center in Kodiak, 
Alaska.
    These forums further overlap with the international 
coordination efforts of the North Pacific Coast Guard Forum 
Fisheries Working Group, which met last week in Seattle. This 
year, Pacific Rim partners will conduct harmonized surface and 
air patrols in the North Pacific high threat area for IUU 
driftnet fishing. In addition to the United States, Canada, 
Japan, Korea, the Russian Federation, and the People's Republic 
of China will all contribute operational resources to this 
effort. Similar efforts paid great dividends last year when the 
U.S. Coast Guard cutter BOUTWELL intercepted and facilitated 
the seizure of six Chinese-flagged high seas driftnet vessels.
    The Coast Guard's operational efforts are guided by an 
organizational sense of maritime domain awareness or knowledge 
of what is happening at sea. We enhance this awareness with 
satellite-based ship tracking systems, such as the vessel 
monitoring system, which allows us to see the movement of many 
U.S. and foreign-flagged vessels in the noncontiguous EEZ, 
especially in the western and central Pacific.
    VMS is also an extremely valuable tool in many domestic 
fisheries within the U.S. exclusive economic zone. However, 
awareness alone is of little use without a robust at-sea 
presence to detect and intercept potential perpetrators. The 
first component of effective Coast Guard presence is a 
professional corps of knowledgeable boarding officers. The five 
U.S. Coast Guard regional fisheries training centers, including 
the North Pacific Regional Training Center in Kodiak and the 
Maritime Law Enforcement Academy, continue to be vital to 
training our maritime law enforcement personnel.
    Our cutters, boats, aircraft, and the facilities and 
personnel to support them must be up to the task of sustaining 
our efforts on scene over vast distances for days, weeks, or 
months on end. In the 14th Coast Guard District, for example, 
in Honolulu, Hawaii, a patrol cutter must transit for over a 
week from the nearest Coast Guard base to reach many of the 
eight noncontiguous exclusive economic zones most susceptible 
to illegal foreign fishing.
    Similar distances figure into the 17th District operations, 
where the U.S.-Russian maritime boundary line is at least 3 
days transit from the nearest viable logistics stop or port, 
and emerging operational areas in the Arctic are even more 
remote.
    The centerpiece of the Coast Guard's future capabilities to 
meet projected increases in the IUU threat and to secure our 
maritime borders is the Integrated Deepwater System. Deepwater 
will maintain our ability to enforce international and domestic 
living marine resource regulations in the distant reaches of 
the U.S. exclusive economic zone and the high seas.
    The Coast Guard addresses the IUU threat to living marine 
resources through our framework of concerted international 
efforts to develop legal regimes, foster partnerships inside 
and outside of our own Government, expanding maritime domain 
awareness, and maintaining effective at-sea enforcement. We 
will continue to work closely with NOAA, the State Department, 
and our international partners to achieve national and 
international objectives for fisheries conservation and 
management.
    One thing is clear. More people throughout the world are 
going to greater lengths to harvest limited living marine 
resources. This impacts economies and the stability and well-
being of entire societies across the globe. In the face of 
increasing resource scarcity, IUU fishing is a threat that the 
Coast Guard stands ready to confront.
    Thank you for this opportunity to testify before you today. 
I would be happy to answer any questions you may have.
    [The prepared statement of Admiral Brooks follows:]

 Prepared Statement of Rear Admiral Arthur E. Brooks, Commander, Coast 
  Guard District 17, U.S. Coast Guard, Department of Homeland Security

    Good morning Chairman and distinguished Members of the 
Subcommittee. It is a pleasure to appear before you today to discuss 
the Coast Guard's role in international fisheries management and 
deterring Illegal, Unregulated, and Unreported--or IUU--fishing both 
within areas of national jurisdiction and on the high seas.
    Protecting living marine resources--through active patrolling to 
detect, deter, and interdict vessels engaged in illegal fishing 
activity--is a longstanding Coast Guard mission. Beginning with 19th 
Century protection of the Bering Sea fur seal and sea otter herds, and 
continuing through the post-WWII expansion in the size and efficiency 
of global fishing fleets, the Coast Guard has embraced its role as the 
lead Federal maritime law enforcement presence at sea. Coast Guard 
enforcement presence has a particular focus within the 3.4 million 
square mile U.S. Exclusive Economic Zone (EEZ), the largest in the 
world, as well as in key areas of the high seas.
    The term ``IUU fishing'' is commonly understood to refer to fishing 
activities that are inconsistent with, or in contravention of, fishery 
management and conservation measures. The Coast Guard aims to provide 
effective and professional at-sea enforcement to advance national goals 
for the conservation and management of living marine resources and 
their environments. The U.S. Coast Guard Strategy for Maritime Safety, 
Security, and Stewardship is driven by national policy such as 
Presidential Decision Directive 36--Protecting the Ocean Environment, 
and legislation such as the Magnuson-Stevens Fishery Conservation and 
Management Act. Coast Guard efforts to deter IUU fishing span across 
domestic and international fisheries, and they bridge our maritime 
security and maritime stewardship goals.
    IUU activity is global in reach. It affects both domestic waters 
and the high seas, and is conducted by all types of fishing vessels. 
Controlling IUU fishing is a requirement to optimally manage and 
protect vital living marine resources that are under pressure from 
increasingly sophisticated and capable fishing fleets that travel the 
world's oceans in search of new fish stocks. According to the United 
Nations (U.N.) Food and Agriculture Organization (FAO), seventy-five 
percent of the world's fish stocks are fully exploited, over-exploited, 
or depleted. FAO studies indicate that in some fisheries, IUU fishing 
is estimated to account for 30 percent of total catches. In many other 
fisheries, IUU catches may even exceed legal and reported harvesting. 
IUU activity has adverse effects on marine ecosystems, distorts 
competition, and jeopardizes the economic survival of coastal 
communities that are reliant on local fisheries for their livelihood.
    Many coastal states do not have the maritime governmental regimes 
or enforcement capability necessary to effectively manage and protect 
their living marine resources and are left exposed to poaching and 
over-fishing. Recent press reporting from West Africa, for example, 
suggests a link between depleted fish stocks and regional instabilities 
and dangerous and illegal large-scale migration from devastated fishing 
communities. There are tremendous economic incentives at play in IUU 
fishing, for both the coastal states and the IUU fishers. Revenues 
generated by coastal states through responsible and sustainable 
management lead to a healthier economy, increased societal stability, 
and enhanced maritime security. The FAO estimates annual global revenue 
lost to IUU fishing to be $9 billion (U.S.). This revenue is a direct 
theft from maritime communities, including many of the world's most 
vulnerable coastal states.
    Given that living marine resources do not recognize national 
boundaries, the Coast Guard works alongside key partners at home and 
abroad to protect them. We enforce U.S. domestic fisheries laws in 
conjunction with National Oceanic and Atmospheric Administration (NOAA) 
Fisheries' Office of Law Enforcement (OLE) and General Council for 
Enforcement and Litigation (GCEL), and the Department of Justice, 
supporting conservation and management of domestic resources in the 
estimated $60 billion domestic fishing industry. Additionally, the 
Coast Guard enforces laws at sea to protect marine mammals, endangered 
species, and marine sanctuaries.
    We applaud and support NOAA and the State Department in their 
efforts to bring additional tools to bear on combating IUU, such as the 
application of Port State Measures to deter IUU importation, 
implementation of Catch Documentation Schemes, and development of an 
International Trade Data System. These tools will help restrict market 
access for IUU product, thereby making IUU activity less profitable. 
However, at-sea enforcement and the ability to deliver consequences to 
those found directly engaged in illegal fishing activity remains a 
critical element of the overall U.S. Government effort to address the 
IUU threat, as outlined in the U.S. National Plan of Action to Prevent, 
Deter, and Eliminate IUU Fishing.
    As the only agency with the infrastructure and authority to project 
a law enforcement presence throughout the U.S. EEZ and in key areas of 
the high seas, the Coast Guard implements Ocean Guardian, our strategic 
plan for fisheries law enforcement. This strategy incorporates the four 
principles of: (1) sound regulations based on effective and enforceable 
legal regimes which act as a system of ``rules'' that shape acceptable 
activities; (2) productive partnerships that facilitate law enforcement 
cooperation; (3) use of technology to advance Maritime Domain 
Awareness; and (4) effective presence on the ocean. We believe these 
four principles offer a useful framework for addressing the threat 
posed by IUU fishing. The rest of my statement will focus on how the 
Coast Guard implements Ocean Guardian.
    The Coast Guard is dedicated to supporting multilateral efforts to 
bolster legal regimes that deter IUU and deliver consequences to 
violators. Considering maritime initiatives and policies as part of a 
larger system enables a better understanding of their inter-
relationships and effectiveness. A well designed system of regimes 
creates the opportunity for mutually supporting domestic and 
international regulations. Together, they provide a comprehensive 
system of maritime governance.
    We fully support modernization of Regional Fishery Management 
Organizations (RFMOs) to include comprehensive boarding and inspection 
regimes as called for by the 1995 Agreement for the Implementation of 
the Provisions of the United Nations Convention on the Law of the Sea 
of 10 December 1982 Relating to the Conservation and Management of 
Straddling Fish Stocks and Highly Migratory Fish Stocks--more commonly 
referred to as the U.N. Fish Stocks Agreement. The Western and Central 
Pacific Fisheries Commission's recent incorporation of these 
enforcement principles into its management regime is a particularly 
relevant example. This Commission is one of the first in the world to 
employ a fully-developed boarding and inspection protocol for high seas 
enforcement based on the U.N. Fish Stocks Agreement. The Coast Guard is 
proud to have been involved in its development.
    One of the fundamental building blocks of this system is the 1982 
U.N. Convention on the Law of the Sea. While this Convention, along 
with its 1994 Protocol relating to Deep Seabed Mining, was referred to 
the Senate for advice and consent in 1994, we remain a ``non-party.'' 
Joining the Convention with the declaration and understandings 
reflected in Senate Executive Report 110-9 (Senate Foreign Relations 
Committee) is an important step to ensure that we can exercise the 
necessary leadership in international regime development across the 
full spectrum of concerns including international fisheries management 
and conservation.
    The Coast Guard continues to develop active international 
partnerships through the development of bilateral enforcement 
agreements and participation in multilateral groups like Regional 
Fishery Management Organizations (RFMOs) and the North Pacific Coast 
Guard Forum. Applying the principle of productive partnerships to 
combating IUU in an international context requires that the Coast Guard 
work closely with NOAA and the U.S. Department of State to develop and 
advance cooperative enforcement agreements and improve communications 
with industry and environmental groups. A non-inclusive list of RFMOs 
in which the Coast Guard participates includes: the Western and Central 
Pacific Fisheries Commission, the North Pacific Anadromous Fish 
Commission, and the International Commission for the Conservation of 
Atlantic Tuna. The Coast Guard also maintains a liaison officer with 
the State Department's Office of Marine Conservation to advise U.S. 
delegations to these organizations on the enforceability of proposed 
management regimes. We also provide a liaison officer to the NOAA 
Fisheries Office for Enforcement.
    Additionally, the Coast Guard engages directly with our 
international enforcement counterpart. For example, over the past year 
the Coast Guard harmonized efforts with North Pacific Anadromous Fish 
Commission and North Pacific Coast Guard Forum partners including 
Canadian, Chinese, Japanese, and Russian surface and air patrols to 
cooperatively deter IUU in the North Pacific. Much of the operational 
planning for the 2008 North Pacific high seas driftnet (HSDN) 
enforcement season recently took place at the North Pacific Coast Guard 
Forum Fisheries Working Group meeting in Seattle, Washington. There, we 
coordinated multilateral operational plans for upcoming North Pacific 
surface and air patrols. North Pacific Coast Guard Forum planning 
efforts overlap, and are coordinated with, meetings of the North 
Pacific Anadromous Fish Commission. These two forums further supplement 
the Coast Guard's implementation of a bilateral U.S.-China Memorandum 
of Understanding to enforce the U.N. moratorium on large-scale high 
seas driftnet fishing. Similar HSDN coordination with partner agencies 
from Canada, Japan, Korea, the Russian Federation, and the Peoples 
Republic of China took place in 2007 and resulted in the interdiction 
and seizure of six Chinese-flagged driftnet vessels by the Coast Guard 
Cutter BOUTWELL.
    Beyond our work in the North Pacific, the Coast Guard is 
increasingly involved with West Africa and Pacific Island nations 
striving to develop their own maritime safety, security, and 
stewardship forces. As another example of global maritime partnerships, 
I would like to share with you a recent success story in international 
cooperation and effective enforcement. The Coast Guard currently makes 
use of bilateral ``ship-rider'' agreements with a number of Pacific 
Island Nations. These agreements allow foreign enforcement personnel to 
embark U.S. Coast Guard assets to exercise their authority and 
jurisdiction from the deck of a Coast Guard cutter. In mid-February of 
this year, Coast Guard Cutters ASSATEAGUE and SEQUOIA, with embarked 
Federated States of Micronesia ship-riders, interdicted two Japanese-
flagged fishing vessels in the Micronesian EEZ, 160 nautical miles 
south of Guam. Both Japanese fishing vessels were found to be fishing 
in violation of Micronesian law. The Coast Guard cutters, acting under 
authority of their embarked Micronesian fisheries enforcement officers, 
escorted these suspected IUU fishing vessels toward Pohnpei, Micronesia 
for further investigation and prosecution. The enforcement action that 
I just described would not have been possible without sound regulations 
and productive partnerships such as developed regimes for maritime 
governance including South Pacific Forum Fisheries Agency management 
measures, Micronesian fisheries regulations, and a U.S.-Micronesian 
bilateral agreement allowing ship-rider operations.
    In June, the high endurance Coast Guard cutter DALLAS will deploy 
to West Africa under the operational control of the Department of 
Defense. Planning efforts are underway to conduct maritime law 
enforcement operations with Cape Verde, which include using Cape Verde 
maritime law enforcement officer ``ship-riders'' as a proof-of-concept 
test. If successful, the Coast Guard and Navy may consider expanding 
such operations to other West African nations with the interest and 
capacity to participate.
    The Coast Guard also continues to establish ever more comprehensive 
Maritime Domain Awareness (MDA) to inform decisions on how best to 
employ finite resources to deter the threat of IUU fishing. MDA is 
enhanced through application of technologies such as Vessel Monitoring 
Systems, or ``VMS.'' VMS is a general term that applies to ship 
tracking systems used as part of a living marine resources regulatory 
regime. VMS is a component of many domestic fishery management plans 
and international fishery agreements alike. For example, the Pacific 
Forum Fishery Agency requires that that foreign fishing vessels seeking 
access to fish within member EEZs must carry operable VMS. In the 
Fourteenth Coast Guard District, we have executed agreements with 
Pacific Forum Fishery Agency countries to gain near-real time access to 
this VMS position data. We can see the movement of many U.S. and 
foreign-flagged vessels operating in the non-contiguous U.S. EEZs of 
the Pacific, which provides the Coast Guard with improved visibility on 
what is happening in this geographically expansive area. VMS is also a 
provision of other RFMO management schemes, including the Central 
Bering Sea ``Donut Hole'' Convention and the Western and Central 
Pacific Fisheries Commission. VMS alone, however, is not enough to 
maintain MDA. It is not infallible, it is not part of every management 
measure, and it is not on board every potential IUU vessel. The Coast 
Guard is able to close this gap in some key areas by utilizing national 
resources to monitor foreign fishing vessel activity.
    The Coast Guard also continues to examine potential surveillance 
contributions of Unmanned Aircraft Systems (UAS). The Coast Guard 
Research and Development Center is actively evaluating contributions of 
UAS to perform all Coast Guard missions, including fisheries. The Coast 
Guard is currently conducting a Gulf Coast Maritime Demonstration to 
assess the use of UAS in conducting maritime surveillance. However, 
awareness is often only half of the picture. Effective enforcement of 
the regulations necessary to combat IUU fishing ultimately requires 
that we put ``steel on target'' and ``boots on deck.''
    This leads me to the fourth Ocean Guardian principal, effective 
presence, which has two main components.
    First, the Coast Guard requires a high level of knowledge and 
professionalism from all of our Boarding Officers who conduct the 
fisheries enforcement mission at sea. The five U.S. Coast Guard 
Regional Fisheries Training Centers and the Maritime Law Enforcement 
Academy are our primary means of maintaining this competency.
    Second, we must sustain the ability to place capable resources on 
scene when and where they are needed. The U.S. EEZ is not only the 
largest in the world; it is also vulnerable because it is one of the 
most productive. The U.S. EEZ contains an estimated 20 percent of the 
world's fishery resources. Foreign fishers operating illegally in this 
area are, effectively, stealing U.S. resources. These vast patrol 
areas, coupled with the long distance from U.S. shores, provide a 
compelling requirement for a Deepwater fleet capable of providing 
persistent surveillance and presence in the open ocean expanses far 
from U.S. shores. As fish stocks throughout the world dwindle and the 
fleets of distant water fishing nations voyage far from home in search 
of lucrative catches, the U.S. EEZs, along with those of coastal states 
everywhere, will become more attractive targets. Preventing illegal 
encroachment of the U.S. EEZ by foreign fishing vessels is vital to 
protecting the integrity of our maritime borders.
    Enforcement of international fisheries management schemes is a 
mission largely conducted by Coast Guard deepwater assets our cutters, 
boats, and aircraft must be up to this task. Most of the eight non-
contiguous U.S. EEZs in the Western and Central Pacific require several 
days to over a week in transit time for a cutter from the nearest Coast 
Guard base. The centerpiece of the Coast Guard's future capabilities to 
address a projected increase in IUU threat and secure our Nation's 
maritime borders is the Integrated Deepwater System. The capability 
that the Deepwater acquisitions are designed to deliver will maintain 
our ability to enforce international and domestic living marine 
resources regulations in distant reaches of the U.S. EEZ, and on the 
high seas beyond.
    The Coast Guard needs to replace aging vessels, aircraft, and shore 
infrastructure, and sustain these assets during recapitalization. The 
cost of maintaining and operating out-dated assets is continually 
increasing, as are major unplanned maintenance evolutions and 
reductions in readiness. Lost cutter days within the legacy deepwater 
cutter fleet continue to mount. During the last 2 years, an average of 
400 scheduled deployment days were lost in Pacific Area due to 
unplanned maintenance and engineering casualties. In December 2007, the 
aging Medium Endurance Coast Guard Cutter ACUSHNET suffered a 
catastrophic mechanical casualty resulting in the loss of a significant 
portion of the propulsion shaft and the attached propeller. The 
ACUSHNET is a World War II veteran, originally commissioned as a U.S. 
naval salvage vessel in 1944. Despite her 64 years of valiant service, 
the ACUSHNET is a preeminent example of the Coast Guard's need to 
recapitalize. Ultimately, the future operational success of the Coast 
Guard to help combat the global threat of IUU fishing is dependent upon 
a comprehensive recapitalization of front line assets and shore and 
support infrastructure.
    In conclusion, the Coast Guard addresses the IUU threat to living 
marine resources by participating in a concerted international effort 
to develop necessary legal regimes, foster partnerships, expand our 
Maritime Domain Awareness, and maintain an effective enforcement 
presence. The Coast Guard will continue to work closely with NOAA, the 
State Department, and our international partners to achieve national 
and international objectives affecting fisheries worldwide. The world's 
oceans are truly a global commons, requiring a global approach toward 
their conservation and management. In the face of increasing resource 
scarcity, IUU fishing is a growing threat to the long-term viability of 
fish stocks around the globe that the U.S. Coast Guard stands ready to 
confront.
    Thank you for the opportunity to testify before you today. I would 
be happy to answer any questions you may have.

    Senator Stevens. Well, thank you very much, Admiral. Let me 
start with questions with you.
    I have just returned from Alaska, where I had some 
briefings by the International Arctic Research Center at the 
University of Alaska in Fairbanks. And they inform me that it 
is true that the Arctic ice will continue to thin in the near 
period ahead.
    Now in order to enter the Arctic Ocean, a vessel has to go 
through some Nation's economic zone. It is the one area of the 
world that could be completely controlled if we had an 
agreement from all nations that no vessel could proceed through 
their economic zone without specific controls, such as having a 
beacon that can be traced by satellite and such as examination 
of the gear that would be involved and such as examination of 
the catch as they exited that Arctic Ocean.
    I think it is time that we really worked on, through the 
entities that all three of you represent, an aggressive 
approach to protecting the Arctic. If we are informed 
correctly, the thinning is taking place because of warm water 
that is coming from the Atlantic into the Arctic Ocean and that 
our ice is thinning from the bottom, not from the top.
    Under those circumstances, it is very acute to the time 
before the ice will be thin enough for operation in the Arctic 
by just regular fishing vessels without any ice protection 
available to them. I would say from what I understand, we have 
2 to 3 years at most before it would be possible to operate 
fishing vessels without any protection, any ice capability in 
their construction.
    Do you think that it is a possibility that the law 
enforcement mechanisms of the various States that have entry 
into the Arctic Ocean could get together and initiate this kind 
of an agreement?
    Admiral Brooks. Yes, Senator, I think they could. I think 
the Arctic nations all understand the opportunities and risks 
of the Arctic. I can--I was in Kotzebue and Barrow just last 
week and was surprised to see clear water within visual range 
offshore. Of course, the shore ice is still there, but the ice 
is already retreating, and that means ships can come. Access is 
coming, the whale season accelerating.
    The issue for us, I have talked with my Russian counterpart 
locally, General Lebedev in Kamchatka, about the need for a 
vessel traffic management scheme through the Bering Strait. 
Because from the Pacific side, all vessels entering the Arctic 
must transit that narrow pass between Alaska and Russia where--
between Little and Big Diomede Island. And it is a shallow 
place, relatively shallow, and we are--I am concerned about 
navigational safety, whether we need a way to control these 
ships to ensure that they don't run aground or break down and 
drift ashore in Alaska and give us a Selendang Ayu type of 
problem.
    And the Russians understand that whatever we did in the 
Bering Strait would have to be a joint U.S.-Russian venture, 
and we would have to pursue that through the international 
maritime organization based on the needs that we would have to 
control vessels.
    Beyond that, I had not considered the idea of a fishing 
regulatory scheme among the nations, but it makes perfect 
sense. It is something that could and probably should be 
pursued because for no one benefits from IUU fishing, and I 
think the nations of the world could come together on this 
issue.
    Senator Stevens. Well, I think the interests of Congress 
and what is going on in the Arctic Ocean is demonstrated by the 
number of people at this Committee table.
    [Laughter.]
    Senator Stevens. We are the only ones that have the direct 
knowledge of the threat and only ones that have the direct 
impact on our people. Our indigenous people harvest ocean 
mammals for their sustenance or their subsistence. There are 
not too many people of the world that still do that, but ours 
do and under their own regimes, which we helped them create, 
which regulate their taking of those mammals.
    We know that the oil industry now is proceeding to have a 
great interest to try to keep up with Russia in terms of what 
is going on on the ocean floor of the Arctic Ocean. And by the 
way, the Russians will be here next week over at the Library of 
Congress en masse, and I think we ought to find somebody to 
have a meeting with them while they are here to start talking 
about this.
    We showed what the U.N. could do with regard to driftnets. 
It hasn't been completely effective, but it has been an 
enormous impact on their use. I think we ought to try to think 
about how to get the U.N. into aiding us to protect the Arctic 
Ocean now before it is raped by these IUU fisheries. I do 
appreciate your concern and your being here.
    Mr. Balton, I have really no problem with what the State 
Department is doing. I do think that you are really very much 
aware of it, of the threat.
    I am interested in some of the things that you mentioned 
about the tools that are available now. I believe that was your 
statement, the tools that are available now. Can you describe 
that to us a little bit more? What really can we do under 
existing arrangements to initiate some firmer control over IUU 
fisheries in the Arctic Ocean?
    Mr. Balton. Let me say a word about existing fisheries in 
the Arctic Ocean, Senator. The Arctic is not actually a single 
region when it comes to fisheries. In the area of the Arctic 
farthest from Alaska, namely the part off of Norway, there 
already are major commercial fisheries underway in the Barents 
Sea and the Greenland Sea.
    Senator Stevens. Are they regulated by Norway at all?
    Mr. Balton. Yes, not only by Norway within its exclusive 
economic zone, but through bilateral and multilateral 
agreements among the countries in that area. We are not party 
to those.
    Senator Stevens. Have they been effective agreements?
    Mr. Balton. I would say the record is mixed.
    Senator Stevens. Do they document their activities? Is 
there a record some way to show what they actually have done in 
pursuing those agreements?
    Mr. Balton. Yes, I could provide that to the Committee if 
you are interested.
    [The information referred to follows:]

    The North East Atlantic Fisheries Commission (NEAFC) regulates 
fishing activities in the NEAFC regulatory area, which includes 
portions of the Arctic Ocean, in order to combat IUU fishing. The NEAFC 
website contains records of its efforts in this respect. The website 
also contains facts, answers and questions that aid in summarizing 
regulatory actions NEAFC has taken to combat IUU fishing.
    NEAFC utilizes a wide range of strategies to combat IUU fishing 
activities, including at-sea monitoring and surveillance of fishing 
vessels, as well as a recently enacted suite of port State controls 
that will prevent vessels on IUU blacklists from, inter alia, using 
port services and landing or transshipping fish in port. The complete 
scheme for enforcement and control of fishing activities in the NEAFC 
regulatory area is described on NEAFC's website. NEAFC also maintains a 
Permanent Committee on Control and Enforcement (PECCOE) that regulates 
activities in the Convention regulatory area. Recent reports from 
PECCOE shed additional light on the regulatory efforts at combating IUU 
fishing activities in the NEAFC regulatory area.
    The nations of Russia and Norway have also undertaken efforts to 
combat IUU fishing activities in the Barents Sea. They have established 
a Joint Fisheries Commission, intended to work in conjunction with the 
regulatory schemes employed by NEAFC. Their efforts are not as well 
documented in English as are the efforts of NEAFC, but some 
documentation exists. For example, I can refer you to comments by John 
Erik Pedersen, political adviser at the Norwegian Ministry of Fisheries 
and Coastal Affairs, in ``Fisheries cooperation in the North: a 
Norwegian perspective,'' is available on the website of the Norwegian 
Ministry of Fisheries and Coastal Affairs. Also see Russian/Norwegian 
fisheries collaboration, including efforts to combat IUU activities, 
which is located on the Norwegian Fisheries website. In addition, there 
are news reports that Russian and Norwegian coast guards have agreed to 
share information on IUU activities and vessels, and to make that 
information available on an online data base.
    Here are links to information on the North East Atlantic Fisheries 
Commission and the Joint Russian/Norwegian activities to combat IUU 
activities in Barents Sea:

        1. http://www.neafc.org/index.htm

        2. http://www.neafc.org/measures/iuu_faq.htm

        3. http://www.neafc.org/news/docs/30-april-
        07_pressrelease_psc_iuu.pdf

        4. http://www.neafc.org/rneasures/docs/scheme 2008.pdf

        5. http://www.neafc.org/reports/peccoe/index.htm

        6. http://www.neafc.org/reports/peccoe/docs/peccoe1_april 
        2008.pdf

        7. http://www.neafc.org/reports/peccoe/docs/peccoe_oct 2007.pdf

        8. http://www.neafc.org/reports/peccoe/docs/peccoe_april-
        2007.pdf

        9. http://www.regjeringen.no/nb/dep/fkd/dep/politisk_ledelse/
        John-Erik-Pedersen/taler-og-artikler/2008/fisheries-
        cooperation-in-the-north-a-nor.html?id=503822

        10. http://www.fisheries.no/management_control/
        Norwegian_fisheries_colla
        boration/Russia.htm

        11. http://www.barentsobserver.com/joint-norwegian-russian-data 
        base-on-illegal-fishing.4481078.html

    Yes, they have very good documentation. They have had 
problems with IUU fishing, particularly in the Barents Sea and 
in a high-seas pocket in that area known as ``the loophole'' in 
years past. But they have made major strides in cutting down on 
IUU fishing, including through port State measures.
    Now in the area of the Arctic closest to Alaska, there are 
not yet major commercial fisheries. But you are right to say 
that as the climate changes, the ice recedes, the water warms, 
we should be expecting and anticipating that there could be 
major commercial fisheries north of the Bering Strait sometime 
in the future. We are aware that the Senate has passed a 
resolution calling on us to work with the other Arctic 
countries to regulate our future Arctic fisheries to prevent 
IUU fishing.
    Senator Stevens. Ours is a virgin area, and my worry is not 
the entrance through the Bering Straits as much as it is this 
entrance from the fishing fleets of foreign countries that are 
dealing with the other part of the Arctic already. Ours is a 
virgin area. The ice has been thicker in the past than it will 
be in the near future, although I have been told to expect that 
it will come back eventually, and this is not a permanent 
problem. But it will be a problem for the next couple of 
decades, that will be sure.
    But I am really interested to try and find out to what 
extent the vessels that are out there now, from particularly 
above Norway, would have easy access to the waters off Alaska 
and Canada.
    Mr. Balton. I don't see any significant threat in the 
immediate future of vessels fishing in the North Atlantic area 
adjacent to the Arctic coming all the way through the Arctic to 
reach Alaskan waters. And we have regulatory controls already 
in place for our own EEZ. The North Pacific Council, for 
example, has proposed an Arctic fisheries management plan that 
I expect will be finalized sometime soon. There are other----
    Senator Stevens. That would only apply to the area above 
Alaska?
    Mr. Balton. That is correct.
    Senator Stevens. That does not apply above Russia yet?
    Mr. Balton. Not yet. I have, however, in a meeting with 
Russia just last September, presented to them the North Pacific 
Council decisions and urged that they adopt something 
comparable for their area adjacent to ours and that we work 
with them for any stocks that could straddle our zone and 
theirs.
    I similarly presented to Canada the Senate resolution 
calling for cooperative work on Arctic fisheries and urged that 
we meet with Canada to talk specifically about the area in the 
Arctic that the U.S. and Canada both border. And it is my hope 
and expectation that in the near future we will be able to make 
progress with our neighbors in that way.
    Senator Stevens. I think you mentioned and I believe that 
ratification of the Law of the Sea treaty would enable us to 
have greater control of the areas above our country. But some 
of the areas--the nations that have boundaries that touch in 
the Arctic Ocean already have ratified the Law of the Sea.
    Are there any mechanisms that they have used, pursuant to 
the Law of the Sea treaty, to enhance their ability to regulate 
fisheries in the Arctic Ocean, where they have already ratified 
the Law of the Sea treaty?
    Mr. Balton. You are right that all of the major fishing 
countries other than the United States are party to the Law of 
the Sea Convention already, including all of the other Arctic 
nations, and that gives them a strong framework on which to 
build fisheries laws. It also gives them a clear path forward 
for defining where the outer limit of their continental shelves 
in the Arctic and elsewhere may exist. As a non-party, we are 
at a disadvantage in those ways.
    Senator Stevens. I know we are at a disadvantage now, but I 
wonder if they have been effective at all in using the powers 
of the Law of the Sea treaty to enhance their ability to manage 
the fisheries in an area of which those nations already have 
control?
    Mr. Balton. Senator, I wouldn't want to overstate it, but I 
would say that at least indirectly their being party to the Law 
of the Sea Convention has aided them in these endeavors. The 
Law of the Sea Convention creates a general framework for 
fisheries, and these countries, using that framework, have 
built fisheries rules for both their EEZ and in cooperation 
with each other for areas beyond national jurisdiction to deal 
with fisheries in their parts of the Arctic.
    Senator Stevens. I am one who believes that our control 
over our economic zone has enabled us to lead the world in 
terms of the scientific management of fisheries, and I don't 
think that many areas of the world have been as aggressive as 
ours. I think our regional council has been more aggressive 
than any area of the world in management on a scientific basis.
    Our area, which has half the coastline of the United 
States, has no endangered species that are harvested by any 
fishery and has no threatened species that are harvested by any 
fishery. That was on my latest report, and I hope it is still 
the case.
    Mr. Balton. I certainly agree that the North Pacific 
Council has a very well-deserved reputation for effective 
fisheries management.
    Senator Stevens. Well, if we can spread that throughout the 
Arctic as quickly as possible, it may enhance the future of the 
fisheries of the Arctic Ocean. Otherwise, I think they are 
liable to be really harmed.
    Mr. Balsiger, there may be some seafood products that we do 
want to harvest in the Arctic Ocean in time. Do you think we 
have the capability through NOAA to have any influence on what 
fishing does take place in this area now?
    Dr. Balsiger. Well, Senator, yes. Certainly in the U.S. EEZ 
just above Alaska that any regulations that would allow fishing 
there would be recommended by the North Pacific Fishery 
Management Council through their Arctic FMP, and it would be 
approved or disapproved by NOAA.
    So we have a strong role in that regard, and I think that 
you are correct that the North Pacific Council, in developing 
their Arctic FMP, has a very conservative outlook. I don't 
think that there will be fishing regulations recommended that 
would put any of the fish stocks in jeopardy or the environment 
in jeopardy. So there is good control there.
    Senator Stevens. Well, let me be bad and just ask you, and 
Mr. Balton, are State and NOAA ready to accept the jurisdiction 
of our regional council over the EEZ north of Alaska, as they 
have in the North Pacific?
    Dr. Balsiger. Senator, I believe so. I think that is----
    Senator Stevens. We have assumed that is our authority, but 
I was just wondering, are you going to challenge the authority 
of the regional council in the Arctic Ocean that might be 
available to be fished by anybody?
    Dr. Balsiger. No, sir.
    Senator Stevens. Well, if you have any hesitancy, I would 
appreciate if you would report back to us if there is any 
indication at all that State and NOAA will challenge the 
jurisdiction of the North Pacific Regional Fisheries Council to 
manage the resources within the U.S. EEZ north of Alaska.
    Dr. Balsiger. Senator, my hesitancy was only because such 
an idea never occurred to me that we would challenge that, but 
I take your point that we certainly would get back.
    Senator Stevens. I appreciate your hesitancy, and I agree 
with it.
    [Laughter.]
    Dr. Balsiger. And I----
    Senator Stevens. Thank you very much, gentlemen. There may 
be some questions that my colleagues wish to submit. I would 
appreciate it if you would answer them within a 2-week period. 
Thank you very much. Thank you, Admiral.
    And now we will turn to the second panel, which is Mr. Dave 
Benton, Executive Director of the Marine Conservation Alliance; 
Mr. James Cook, the President of North Pacific Ocean Producers 
LLC; and Ms. Lisa Speer of the Natural Resources Defense 
Council.
    If it is agreeable, we will just proceed with the witnesses 
as they were listed on my list and proceed with you first, 
Dave, if you will. Mr. Benton?

     STATEMENT OF DAVID BENTON, EXECUTIVE DIRECTOR, MARINE 
                     CONSERVATION ALLIANCE

    Mr. Benton. Thank you, Mr. Chairman.
    For the record, my name is David Benton. I am the Executive 
Director of the Marine Conservation Alliance. The Marine 
Conservation Alliance is a coalition of seafood industry 
participants in Alaska--harvesters, processors, coastal 
communities, CDQ groups. Collectively, the membership of MCA 
represents probably between 70 to 80 percent of the seafood 
production off the coast of Alaska.
    And Mr. Chairman, I appreciate the opportunity to come 
before you today on international fisheries issues. It has been 
quite a while since we have had a discussion about 
international issues in a Committee like this. My history goes 
back with the State of Alaska and the initiatives that you 
generated back in the 1980s and the 1990s to deal with the 
threats like the high seas, large-scale high seas driftnets, 
overfishing in the ``Donut Hole'' by the fleets from Japan and 
Poland and China and Korea, the need to get a U.N. fish stocks 
agreement to deal with straddling stocks and highly migratory 
fish stocks.
    All of those--all of those initiatives, Senator, sort of 
originated in this room, and I noted your comment a little 
while ago that the interest in the Arctic is reflected by how 
many Committee members are here in the room. And it seems to me 
that I recall that the time when we had to deal with high seas 
driftnets, we had just about this many members in the room at 
the time when we first started that, and I think the result 
turned out pretty good at the end of the day. And I think----
    Senator Stevens.--comments, but I understand what you are 
saying.
    Mr. Benton. Yes, it has really been quite an interesting 
process from my perspective and from the perspective of the 
seafood industry. When you looked at what was going on in the 
1980s and early 1990s in the North Pacific, there was a high 
seas driftnet fleet of about 1,500 vessels to 2,000 vessels 
fishing there. They were fishing between 35,000 miles in net a 
night. Estimates were a million miles in net a year.
    During the summer, when they fished up there, those fleets 
then moved down to the south, into the southern Pacific Ocean, 
and were hammering tuna stocks and migratory species down 
there. Literally, tens of thousands of sea turtles, hundreds of 
thousands of marine mammals, estimates of up to maybe a million 
some-odd sea birds were being decimated by those fleets. At the 
same time that that fleet was operating, we had several hundred 
vessels operating in the central Bering Sea Donut Hole that 
were overfishing the pollock stocks in the Aleutian Basin, and 
we had some real problems.
    But this Committee took charge of those issues. The seafood 
industry worked very closely with you. We created the Bering 
Sea Fisheries Advisory Body, which then advised State 
Department on U.S.-Russian matters. We initiated bilaterally 
with Russia joint initiatives to address those kinds of 
problems, including, I failed to mention, high seas salmon 
fishery that Japan was conducting as well.
    And within a very short space of time, we banned high seas 
driftnet fishing. We eliminated the INPFC, the International 
North Pacific Fisheries Commission, which authorized the high 
seas salmon fleet, eliminated the high seas salmon fishery of 
Japan, closed the Donut Hole, and established pretty much an 
entirely new order in the North Pacific.
    And it was in a very short period of time, and there were 
large conservation benefits that have come about because from 
that. And I think it is important for us to remember that, that 
bit of history, because we are facing very similar challenges, 
I think, today. And some ways, we really need to make a renewed 
commitment to dealing with problems of IUU fishing and the 
prospects of the Arctic opening to new fisheries, whether they 
are IUU fisheries or fisheries that are sponsored by nations 
that may be regulated, but not be--but may not be acceptable to 
us and our interests.
    So I want to talk a little bit about that, and I want to 
talk about it in the context of both the North Pacific and the 
Arctic. And I want to start with the Arctic, Senator, because, 
as you know, obviously that is very close to our home. It has 
always been a place that has been very important to our coastal 
communities and native peoples that live along our shoreline. 
They live off the sea. The sea is fundamental to their way of 
life.
    The rapid pace of change up there that may bring 
industrialization and commercial fishing into those waters is 
going to have a very significant impact on the resources up 
there and also on those people. And I think that the United 
States has an obligation to take charge of that matter, not let 
it happen in a happenstance way, and take a very proactive 
approach to dealing with the Arctic.
    The resolution that came out of the Senate last year, I 
think, was a very, very important piece of work. You laid out a 
chart--you charted a course and laid out a way for the United 
States to proceed, and you keyed off the actions that the North 
Pacific Fishery Management Council has been pursuing.
    Our organization and the seafood industry in Alaska fully 
supported and, in fact, initiated the action at the North 
Pacific Council to close the waters of the U.S. EEZ north of 
the Bering Straits to all commercial fishing until we 
understood better the effects of climate change and had a 
fishery management plan in place so that we would go up there 
if fisheries opened up in an orderly, biologically sustainable 
manner and a way that was respectful to the people and the 
resources of the Arctic Ocean.
    We believe that same policy needs to carry forward and that 
the United States needs to go and push very aggressively with 
our--at least our two closest Arctic neighbors, Canada and 
Russia, bilaterally--initially bilaterally and get those two 
countries to support a similar kind of policy within their own 
waters and then to work with us and with yourself to close the 
major part of the Arctic Basin.
    Ambassador Balton referred to what is going on in the 
Atlantic and that there are fisheries there that are 
technically in the Arctic. They are above the Arctic Circle, 
but it is a very different world over there, very different 
than what it is off of Alaska and Russia and Canada and very 
different than the world that is in the major part of the 
Arctic Basin in the international waters.
    If those waters open up or there are ways for vessels from 
the Atlantic or from other countries to come into the Arctic 
Basin because of sea ice retreat, then that is going to have a 
dramatic effect. And if we don't have controls on that ahead of 
time, we are going to be facing a situation that is going to be 
just like what we had in the Bering Sea Donut Hole with fleets 
of Japan and China and Korea and Poland were fishing. They were 
authorized. They weren't IUU fishing. They were authorized by 
their countries, but they overfished those stocks very much to 
the detriment of Alaskans, to the United States, and to the 
resources of that region. So I think we really need to pursue 
that, Mr. Chairman.
    With regard to the North Pacific, there are initiatives to 
deal with bottom fisheries on the seamounts in the northwest 
North Pacific. We think that that is appropriate, but we don't 
think it goes far enough. And frankly, it is somewhat 
disappointing the approach that the United States has taken in 
that regard.
    The--if you look back at some of the history that I was 
mentioning just a moment ago, we, working with you and working 
with State, made major changes in North Pacific waters, and the 
idea actually was that we should have a comprehensive single 
international organization and series of institutions that were 
all coordinated, from Asia to North America. And choose your 
southern boundary, but at the time, we were looking at 33 
degrees north and anything north of there. And that such an 
institutional arrangement should deal with all species and all 
fisheries.
    The North Pacific Anadromous Fish Convention and the 
Commission that it spawned was intended to, at least for a 
while, fill that role, and it has provisions in that convention 
to do that. The United States has chosen to go down a different 
path and deal with just the northwestern Pacific Ocean for the 
time being.
    We believe--and I note that you sent a letter to Secretary 
Rice last fall stating that there should be a comprehensive 
treaty, and we agree with that. We think that such a 
comprehensive treaty needs to be simple in structure. We don't 
want something complicated. We don't need to create a new 
organization. We can use--to the extent possible, we can use 
existing international instruments to achieve that goal.
    A good example is the enforcement arrangements that Admiral 
Brooks was referring to. It is one of the models for the world 
on how international enforcement cooperation can proceed. We 
don't want to disrupt that. We want to maximize the benefits we 
get from that and use it better.
    We believe that such a new international instrument should 
prohibit new fisheries in the North Pacific--not just bottom 
fisheries, all fisheries--until such time as there is a 
management plan in place to manage those fisheries and that 
they develop again in an orderly manner.
    And finally, Mr. Chairman, and this is perhaps a bit of a 
touchy subject. But we really believe that such a new 
international instrument needs to avoid the use of big, ill-
defined terms and principles--the over application of 
principles that perhaps we would not apply inside our own 
waters. We should be promoting sound management practices like 
we do in the North Pacific, but we should not try and impose on 
the high seas a lot of rhetorical principles that aren't 
necessarily going to get us there. And problems with some of 
the language that is in some of the instruments that have been 
discussed these days has actually driven wedges between 
interests that should be natural allies.
    Those successes that we had in the North Pacific in the 
1980s and 1990s came about because the seafood industry, this 
Committee, NOAA, and the Department of State worked together 
very well. The environmental interests that Ms. Speer 
represents got involved as well, and we were all able to work 
together because there was a good working relationship.
    Adherence to rhetorical stances on some of the principles 
is going to get in the way of that unless we figure out how to 
work together. NOAA and Department of State need to forge the 
kinds of working relationships with the seafood industry, 
environmental interests so that we can all have a good, strong 
U.S. presence and make the success work that you are trying to 
achieve and we see that we need.
    Thank you, Mr. Chairman. This concludes my statement.
    [The prepared statement of Mr. Benton follows:]

        Prepared Statement of David Benton, Executive Director, 
                      Marine Conservation Alliance

Introduction
    Thank you, Mr. Chairman, for this opportunity to testify before you 
today regarding management of international fisheries, including the 
problem of illegal, unreported, and unregulated (IUU) fisheries, and 
the need to improve conservation and management of marine resources on 
the high seas.
    My name is David Benton. I am the Executive Director for the Marine 
Conservation Alliance, based in Juneau Alaska. The MCA is a coalition 
of seafood harvesters, processors, coastal communities, Community 
Development Quota organizations, and others interested in and dependent 
upon the groundfish and shellfish fisheries off Alaska. Taken together, 
the membership of the MCA represents about 70 percent of the harvesting 
and processing of groundfish and shellfish off Alaska.
    Mr. Chairman, Alaska has high stakes in the successful 
implementation of practical, effective management regimes on the high 
seas of the North Pacific.
    Alaska produces roughly half of the Nation's commercial fisheries 
landings by volume and almost one third of the total value. The value 
of Alaska's seafood products ranges between $3-4 billion annually, and 
the industry employs roughly 50,000 workers. If Alaska were an 
independent nation, it would rank 9th among seafood producing 
countries.
    Most importantly, the majority of our coastal communities are built 
around a fisheries based economy, and without a stable fishery resource 
base many of these communities would not exist. It is because of this 
dependence upon the sea and its resources that Alaskans work hard to 
ensure that conservation comes first, and that fishery resources are 
managed for their long term sustainability.
    The record speaks for itself. There are no overfished stocks of 
groundfish in Alaska. Fisheries are managed under hard caps and close 
when harvest limits are reached. Federal observers and Vessel 
Monitoring Systems (VMS) monitor the catch to ensure compliance with 
closures. Ecosystem considerations are taken into account in fishery 
management plans. For example, fishing on forage fish species is 
prohibited, and measures are in place to protect marine mammals and 
seabirds. Close to 500,000 square nautical miles are closed to bottom 
trawling or other fishing to protect marine habitat. The North Pacific 
Fishery Management Council is also working on measures to close the 
U.S. Arctic EEZ to commercial fishing until the effects of climate 
change are better understood and appropriate fishery management plans 
are developed. Taken together, the total for existing closures plus the 
Arctic waters off Alaska would be approximately 650,000 square nautical 
miles, an area roughly 5 times the size of the entire U.S. National 
Park system.
    It is this record that caused the U.S. Commission on Ocean Policy 
to cite Alaska as a potential model for the rest of the Nation.
    But the success of Alaska has not only been a result of how we 
manage fisheries within our own waters, but has also required diligent 
action in the international arena to ensure that marine resources are 
protected throughout the North Pacific. Alaska has no common border 
with the rest of the United States. Rather, Alaska is bounded on one 
side by the U.S. Canada international boundary, and on the other side 
with one of the world's longest contiguous maritime boundaries, the 
U.S. Russia maritime boundary. However, most of the waters off Alaska 
are bounded by international waters of the North Pacific and Arctic 
oceans, and the international waters of the Bering Sea known as the 
donut hole. Living marine resources do not respect political 
boundaries, and the fish, marine mammals, seabirds and other resources 
important to Alaska range across all of these boundaries.
    This fact of geography has dictated that Alaska needs to be deeply 
involved in international fisheries issues to protect its resources and 
its interests.

A Brief Historical Overview
    For Alaska, foreign fleets have long played a major role in the 
fisheries off our shores. Following the end of WWII and up to 1976, 
foreign fishing vessels dominated the waters of the North Pacific and 
Bering Sea. Fleets from Japan, Korea, China, Poland and the Soviet 
Union came here for salmon, crab, and groundfish. For the most part, 
the only check on these fleets was the 12 mile limit, and for some 
countries the International North Pacific Fisheries Convention (INPFC) 
which attempted to control some of these fisheries.
    In 1976, Congress passed the law we now know as the Magnuson 
Stevens Act (MSA). The MSA was part of a worldwide shift toward coastal 
state management of fishery resources. A lot has been written about the 
period immediately following passage of the MSA. It was one of dynamic 
change, with the elimination of the foreign fleets operating within 200 
miles of our coast, and the subsequent development of the U.S. domestic 
fishing fleet.
    But, as these dramatic changes were taking place within the U.S. 
200 mile zone, dramatic changes were also taking place on the high 
seas. Alaska watched with increasing alarm the unregulated growth of 
international fleets, and their impact on the conservation of a wide 
range of living marine resources.
    To put this into perspective, we have to look at what was going on 
in North Pacific on the high seas in the mid 1980s. Despite efforts 
throughout the 1960s and 1970s to control and eliminate high seas 
fishing for salmon, Japan still had a fleet of around 300 vessels using 
large scale driftnets fishing for salmon on the high seas beyond our 
EEZ as well as within the U.S. 200 mile zone. This fishery was 
authorized by the INPFC, a treaty between Canada, Japan, and the U.S. 
At the same time, Japan's high seas salmon fleets were also fishing for 
salmon in waters adjacent to, and inside the Soviet Union's 200 mile 
zone under a separate agreement.
    Meanwhile, another fleet of high seas driftnet vessels was taking 
shape, with no international controls whatsoever. Originating from 
Japan, Korea, and Taiwan these fleets totaled roughly 1500 vessels 
fishing in the North Pacific between Hawaii and the Aleutians. These 
vessels fished for squid and other species in the north during our 
summer, and moved to the southern hemisphere in the winter to fish for 
tuna. In the North Pacific these vessels were fishing an estimated 
30,000 miles of net a night, with attendant high bycatches of non-
target fish as well as hundreds of thousands of marine mammals and 
seabirds, and thousands of sea turtles.
    At the same time, a little further north, in the international 
waters of the Bering Sea, fleets of large factory trawlers from Japan, 
Poland, China and Korea began fishing hard for pollock. These vessels 
were hugging the line off both the Soviet Union and the U.S. maritime 
boundary. The pace of fishing in the so called ``donut hole'' caused 
great concern among both U.S. and Soviet scientists, who were 
predicting that these stocks would be drastically overfished in a short 
timeframe.
    So, Mr. Chairman, while the fisheries inside the U.S. 200 mile zone 
were undergoing dramatic changes with attendant conservation benefits, 
fisheries in international waters were growing dramatically and most of 
them were totally unregulated or governed by the weak rules of the 
INPFC. The high seas driftnet fisheries were intercepting large numbers 
of salmon and decimating seabirds and marine mammals. The donut hole 
fisheries were overfishing Aleutian Basin pollock and posing a major 
enforcement problem for the U.S., and the INPFC provided no effective 
monitoring and enforcement mechanism. By all appearances, there was 
little or no chance to get control of these fisheries or mitigating the 
damages they were inflicting on our fisheries or the resources of the 
North Pacific.
    But, through the leadership of this Committee, and especially 
Senator Stevens of Alaska and yourself Mr. Chairman, we began to make 
progress.
    Through your hard work, Congress passed several important pieces of 
legislation, including the Driftnet Act, the Anti-Reflagging Act, and 
legislation establishing the Bering Sea Fisheries Advisory Body (BSFAB) 
which is charged with providing advice to the Department of State on 
U.S./Russian fisheries issues. Establishing the BSFAB proved pivotal. 
President Gorbachev had come into power in the USSR, and relations 
began to thaw. The two rivals were searching for common ground, and one 
thing the two super powers had in common was one of the world's longest 
continuous maritime boundaries, and important fisheries in the North 
Pacific and Bering Sea that were being decimated by foreign fleets that 
were operating off their shores. The doors were open for effective 
cooperation. Through the BSFAB and the joint U.S./Russian fisheries 
agreement, the United States and Russia initiated several actions to 
address fishery conservation issues of mutual concern. This joint 
effort coordinated negotiations at bi-lateral and multi-lateral treaty 
talks including at the U.N.
    The result was impressive. Over a period of just a few years 
several new international treaties were put in place. Through the 
urging of this Committee the United States engaged in a major 
initiative to eliminate high seas driftnets. The result was the U.N. 
moratorium banning high seas driftnet fishing worldwide, thus 
prohibiting the most destructive fishing practice employed on the high 
seas. The INPFC was disbanded, and the new North Pacific Anadromous 
Fish Convention (NPAFC) was put in place. The NPAFC prohibited fishing 
for salmon on the high seas of the North Pacific, included provisions 
to conserve ecologically related species, and established a 
comprehensive international research program. The NPAFC also charted 
new ground on international fisheries enforcement. For the first time, 
major ocean powers moved from strict flag state enforcement to a 
cooperative enforcement regime. The original parties to the NPAFC are 
Japan, Canada, Russia, and the U.S. The cooperative enforcement 
agreements facilitate joint enforcement actions between the four 
original parties, and provide an effective shield for marine resource 
protection. China and the Republic of Korea are now participants as 
well, further strengthening these enforcement arrangements.
    In addition, the Central Bering Sea ``donut hole'' was closed and a 
new treaty adopted by Russia, the U.S., Japan, Korea, China, and 
Poland. This treaty mirrors many of the provisions of the NPAFC, 
including most importantly the enforcement provisions. The U.N. also 
adopted the Fish Stocks Agreement to implement certain provisions of 
the U.N. Law of the Sea; and the U.S. and Russia adopted several 
bilateral agreements including an agreement to protect each nation's 
salmon within their respective 200 mile zones. To strengthen 
international cooperation for marine science, PICES was adopted, 
establishing a major new international science organization devoted to 
addressing marine science in the North Pacific.
    Taken together, the entire international fishery management regime 
in the North Pacific was rewritten during this timeframe. Every treaty 
now in place, with the exception of the halibut treaty between the U.S. 
and Canada, was written during this period. This includes the Pacific 
Salmon Treaty between the U.S. and Canada, the U.S. Russia bilateral 
agreement on fisheries cooperation, the United Nation's moratorium on 
High Seas Driftnets, the U.N. Fish Stocks Agreement, the Central Bering 
Sea Pollock Convention (aka the Donut Hole Convention), the PICES 
convention, and the North Pacific Anadromous Fish Convention (NPAFC).
    These successes could not have come about except for the very good 
working relationship between the seafood industry, the Department of 
State, and the leadership of the Congress. They are the result of 
forward thinking leaders, applying practical solutions to real world 
problems. With the exception of rogue vessels fishing illegally, the 
high seas driftnet fleets are now gone from North Pacific waters. The 
high seas directed salmon fishery is terminated, and the donut hole 
trawl fleets are no more. Joint enforcement by the major ocean powers 
of the region are a model for international cooperation. A new multi-
national science program is providing sound scientific advice to 
fishery managers including important new insights into the challenges 
facing the marine environment. These new institutions, and their 
actions, are in turn providing major conservation benefits for the 
fish, seabirds, marine mammals and other components of the North 
Pacific and Bering Sea ecosystems.
    Mr. Chairman, this Committee, and especially you and Senator 
Stevens, should take pride in what has been accomplished. But this is 
not to say that all is well on the high seas, and that there are no 
problems facing us in our quest to ensure that North Pacific resources 
are protected and conserved. We all know that serious challenges exist, 
and once again we need your help and leadership to chart a course for 
effective action.

The Challenges Ahead
    Mr. Chairman, there is a need to renew our commitment to taking 
action to address real world problems on the high seas. For example, 
despite the U.N. moratorium on high seas driftnets and the multi-
lateral enforcement shield that exists in the North Pacific, there is a 
significant resurgence of high seas driftnet fisheries. These are the 
ultimate IUU operations. They are outlawed by the U.N. moratorium, the 
NPAFC, and the national laws and regulations of most of the major 
nations around the North Pacific rim. The treaties and laws are already 
in place prohibiting these operations, but the resources are not there 
to effectively police such a vast area of the ocean.
    Similarly, while the Central Bering Sea is now closed to pollock 
fishing, maintaining our enforcement presence along the U.S./Russian 
maritime boundary is taxing our enforcement capability. The 
distribution of Bering Sea fishery resources appears to be changing, 
and our scientific, monitoring, and enforcement programs will all need 
to adapt to these new realities The prospect of loss of sea ice due to 
global climate change is forcing the United States to reassess its 
Arctic policies and management capabilities in light emerging new 
international challenges.
    There are also problems with new and emerging fisheries further 
south. Fisheries on the seamounts north and west of the Hawaiian 
Islands raise conservation concerns. Application of measures inside our 
zone to protect sea turtles and seabirds are placing U.S. fishermen at 
a disadvantage because similar measures are not applied to foreign 
fisheries operating on the high seas. The growth of the Chinese economy 
and the economies of Southeast Asia are placing new pressures on North 
Pacific resources as demand for seafood increases in those regions.
    All of these problems argue for a comprehensive solution. But to be 
successful, that solution needs to be simple, practical and focused. We 
believe that this could be accomplished using existing international 
institutions and arrangements. The U.S. Government would need to take 
the lead on such an initiative, with additional resources to ensure 
adequate funding for the science, monitoring, and enforcement programs 
that will be needed to ensure success.
    Another option would be a new Regional Fishery Management 
Organization (RFMO) for the North Pacific. Ongoing talks regarding the 
northwest Pacific Ocean could provide a valuable opportunity to develop 
a long term agreement for such an RFMO. But to be successful, the U.S. 
needs to set out a proposal that is simple in structure, clear in its 
intent, and cost effective. It needs to focus on the problems of 
clearly identifying what constitutes IUU fishing, and will need to seek 
coordination or integration with existing international institutions.
    The U.S. Government may wish to pursue such a course of action. If 
that is the case, then there are certain principles which we believe 
should guide U.S. policy, and our support for such an approach is 
conditioned on U.S. application of these principles. If the U.S. 
adheres to these concepts, then we believe that several U.S. interests, 
including both the seafood industry and the environmental lobby, could 
come together in support of a new agreement covering the high seas of 
the entire North Pacific from Asia to North America.
    We believe it important that the new agreement be simple in 
structure, and not result in creation of yet another international 
bureaucracy. There are several models for such an agreement, and they 
have proven cost effective, efficient, and successful at achieving 
their conservation and management objectives.
    The new agreement should provide a mechanism to develop a registry 
of existing fisheries, fishing vessels and their owners, and the 
management measures currently in place that govern those fisheries. 
This would include fisheries under existing international agreements 
including any interim measures where formal agreements are not yet in 
place.
    The new agreement should then prohibit any new fisheries in the 
North Pacific unless a management plan has been developed and approved 
by the parties. New fisheries would be authorized, and placed on the 
registry, once a management plan is reviewed and approved. Management 
plans should include provisions for observers, VMS, harvest limits, 
bycatch controls, or other management measures as appropriate to the 
fishery.
    The new agreement should recognize existing international 
agreements and management regimes, and minimize disruption to those 
arrangements. Existing fisheries operating under current agreements 
would continue to be regulated by such arrangements. Where there are 
existing international agreements that might authorize a fishery in the 
future (i.e. Central Bering Sea Pollock convention) that treaty would 
control how such a fishery might occur.
    The new agreement should also have clear rules for new entrants 
into a fishery. In some instances, U.S. vessels have refrained from 
fishing on the high seas in compliance with U.S. policy while foreign 
fleets have continued to fish. In such instances, opportunity should be 
provided for U.S. fishermen to participate in high seas fisheries, with 
appropriate conservation and management measures in place. This is 
necessary in order to level the playing field.
    Fisheries not on the registry or not governed by an existing 
international agreement would be defined as IUU. This would greatly 
simplify enforcement and allow for efficient use of monitoring and 
enforcement assets for such a wide area. Enforcement regimes under the 
new agreement should build upon and compliment existing international 
cooperative enforcement arrangements.
    And finally, the new agreement should, as a general matter, 
encompass management requirements similar to those we would employ in 
our own waters. The agreement must avoid the use of ill defined terms, 
or the over-application of vague principles such as the precautionary 
principle. It should be clear at the outset about the conservation 
goals for habitat protection. In our view, the new agreement should 
mirror the recently revised MSA, and identify the bottom habitats that 
need protection as seamounts, hydrothermal vents, and unique or rare 
concentrations of corals. We also believe that the United States needs 
to make a clear statement that the intent is for an agreement that 
recognizes the need for sustainable fisheries to meet the growing need 
for seafood products worldwide.
    Many of these principles were outlined last fall by Senator Stevens 
in a letter dated October 19, 2007, to Secretary Rice, and we wish to 
go on record in support of the framework he proposed for a new RFMO in 
the North Pacific.
    A related matter centers around the work of the U.N. Food and 
Agriculture Organization (FAO) on guidelines for management of deep sea 
fisheries in the high seas. The draft guidelines are intended identify 
characteristics of appropriate management tools, reporting 
requirements, enforcement protocols, and other proposed measures for 
the management of these fisheries. However, these guidelines spend a 
lot of time trying to identify what constitutes ``vulnerable marine 
ecosystems'' (VMEs) and how to determine ``significant adverse 
impacts'' to these VMEs.
    To date, the United States has focused most of its efforts on the 
question of defining VMEs and criteria for determining significant 
adverse impacts, and less time on the other fundamentals necessary for 
management of these high seas fisheries. Unfortunately, the draft 
guidelines stray far from some of the principles identified above, 
employing vague references to the need to protect biodiversity, or the 
overly broad application of the precautionary principle. The guidelines 
also go far beyond the guidance found in the MSA that identifies 
seamounts, hydrothermal vents and concentrations of cold water corals 
as the bottom habitats to be protected. We believe that these 
guidelines will serve a more practical and useful purpose if the 
language is focused more on managing deep sea fisheries on the high 
seas, and less on the use of vague principles that are subject to 
wildly differing interpretations.
    Effective management of these deep sea fisheries is a critical 
issue that needs careful attention. Much work remains to tighten these 
guidelines, to make them practical and concise, and thereby produce a 
useful product. As such, we recommend that the United States support 
provisions in these guidelines that mirror language in the MSA, and 
work to craft practical and effective guidelines for managing these 
fisheries. The United States should also ensure that the guidelines do 
not include any provisions that suggest that these measures should be 
enforced or applied with the 200 mile zone. Language still remains in 
the draft that cause concerns in this regard.
    An additional area of interest to Alaska is the fate of the high 
Arctic, and how to address and adapt to the rapidly changing conditions 
there due to climate impacts.
    In recognition of the challenges posed by the projected loss of sea 
ice in the waters north of Bering Strait, the North Pacific Fishery 
Management Council, at the urging of the seafood industry, began a 
process to close U.S. Federal waters to commercial fishing. The closure 
would be in place until we better understand the effects of climate 
change on the marine environment of the Arctic, and appropriate fishery 
management plans have been developed. We believe that such action is 
warranted in order to protect the marine resources of our Arctic waters 
as well as the way of life of the small villages and communities along 
Alaska's Arctic shores.
    Last year, Senate Joint Resolution 17 was introduced, calling for 
the United States to seek international agreements mirroring the action 
being taken in the Arctic by the North Pacific Fishery Management 
Council. MCA supports the action you have taken with the resolution, 
and hopes that the U.S. Government will actively pursue such agreements 
with our Arctic neighbors. Marine resources in the Arctic, as in the 
waters of the North Pacific, do not respect political boundaries. 
Effective conservation and management needs to be coordinated 
throughout the Arctic basin. To this end, we urge the Committee to 
continue in your efforts to get the U.S. Government to take a lead in 
such an initiative.
    As a final matter, Mr. Chairman, I would like to enter a note of 
caution as we pursue initiatives to address international fisheries 
issues, recognizing that sometimes the law of unintended consequences 
comes into play. For example, the United States is involved in work at 
the World Trade Organization to use WTO authorities to prohibit certain 
fishery subsidies to control IUU fishing and to reduce the 
unsustainable level of fishing capacity in worldwide fleets. There 
should be no question that such subsidies are causing significant 
problems in many parts of the world, and action needs to be taken to 
address these problems. However, while these are laudable goals, some 
provisions in the current draft proposals could be interpreted to 
prohibit U.S. investment in ports and harbors upgrades, or improvements 
in fish landing or processing facilities, or the reconstruction or new 
construction to replace aging vessels in the U.S. fleet. None of these 
have anything to do with either IUU fishing or overcapitalization of 
international fisheries, and the U.S. should exercise careful judgment 
when negotiating such provisions to ensure that the measures are 
specific to the problem to be addressed.
    Application of port state measures to address IUU fisheries, 
including service vessels, can also have unintended consequences for 
the U.S. seafood industry. Use of service vessels to transport seafood 
products legally caught in U.S. waters can have dire economic 
consequences if, unbeknownst to the U.S. companies who employ these 
vessels, the vessels are blacklisted by other nations for being 
associated with IUU fishing. Shipments of legal product can be seized 
while in transit, costing time and money if not the loss of the product 
itself. Similarly, the European Union is developing port state measures 
that may raise ``equal treatment'' questions under world trade rules as 
well as resulting in a cumbersome and expensive chain of custody 
process. This could negatively affect U.S. trade with the EU, and we 
need to work closely with our trading partners to ensure that such 
unintended consequences are avoided. We appreciate that NOAA and the 
Dept. of State are working to resolve these issues, but meanwhile U.S. 
seafood companies are in a state of limbo regarding the rules and how 
they may be enforced.
    Again, Mr. Chairman, thank you for this opportunity to testify 
before you today. I will be happy to answer any questions.

    Senator Stevens. Thank you very much.
    Next up, Mr. Cook. James Cook, President, Pacific Ocean 
Producers.

           STATEMENT OF JAMES COOK, VICE PRESIDENT, 
                  PACIFIC OCEAN PRODUCERS, LLC

    Mr. Cook. Good morning, Senator Stevens. Aloha from Hawaii.
    My name is Jim Cook. I was born and raised in Hawaii and 
have participated in various aspects of commercial fishing for 
the past 40 years. My testimony today will focus on the 
management and enforcement of tuna fisheries in the Pacific.
    The major tuna species are considered highly migratory, and 
for that reason, tuna is managed by RFMOs. The ability of the 
RFMOs in the Pacific to manage these resources is far from 
reality. In the western and central Pacific, tuna and billfish 
are managed through the Western and Central Pacific Fisheries 
Commission and in the eastern Pacific by the Inter-American 
Tropical Tuna Commission.
    Bigeye tuna have been determined to be experiencing 
overfishing in both the western, central Pacific and the 
eastern Pacific. Fishery scientists have recommended a 25 
percent reduction in fishing. To date, neither the WCPFC or the 
IATTC have been able to reach consensus on measures to end 
bigeye overfishing. Competing economic interests between 
distant water fishing fleets of Asian, U.S., and European 
nations versus the independent Pacific island countries that 
grant access rights to fish in their EEZs has precluded any 
meaningful conservation for bigeye.
    Longliners for fishing for bigeye target large adult fish. 
They are valuable in sushi and sashimi markets around the 
world. Purse seiners do not target bigeye, but incidentally 
catch them when targeting skipjack and yellowfin for the canned 
tuna market. Bigeye catches from purse seiners have risen 
dramatically over the past decade due to increased purse seine 
sets using deeper nets on fish aggregation devices, which 
attract juvenile bigeye, yellowfin, skipjack as well as other 
marine bycatch species.
    In order to properly manage the resource, there needs to be 
accurate and timely catch reports by member nations, a cap on 
the number of longliners authorized to fish in the western and 
central Pacific, and effective FAD management programs for 
purse seine fisheries.
    In 2006, the western and central Pacific fisheries 
requirement--excuse me, organization required all members to 
develop management plans for the use of fish aggregation 
devices on the high seas. To date, only Papua New Guinea has a 
plan, and the U.S. should comply with this measure as soon as 
possible.
    To address capacity issues in the western and central 
Pacific, vessels authorized to fish in the convention area need 
to be strictly regulated within the economic zones of member 
nations as well as on the high seas. Conservation and 
management measures require that total levels of fishing effort 
for bigeye and yellowfin tuna shall not be increased beyond 
current levels. However, there are already too many fishing 
vessels, and new vessels are being built that are larger and 
more efficient.
    Another management issue involves the bycatch of marine 
mammals, sea turtles, and sea birds. Since 1996 reauthorization 
of Magnuson, the Western Pacific Fisheries Management Council 
has implemented an effective bycatch reduction program. Key 
bird mitigations have reduced sea bird bycatch in the Hawaii 
longline fishery from thousands of sea birds annually to less 
than 100 per year. Reduction in sea turtle bycatch have also 
been realized, 90 percent reduction in loggerhead and 87 
percent in leatherback sea turtle interactions.
    Based on these successes, the council has been working 
actively to promote these measures in the international arena, 
sponsoring a series of international fisheries forums and sea 
turtle workshops. Hawaii's longline fishermen have been active 
participants in these efforts and have worked to engage foreign 
fishermen.
    Our bycatch measures in the RFMOs have made little progress 
during this time. Enforcement issues in the western and central 
Pacific involve a lack of adequate monitoring, flag of 
convenience, at-sea transshipment, inadequate port State 
measure, catch documentation, and loopholes for vessels having 
access agreements with island nations.
    While effort has been made to resolve these issues, 
implementation is still far from a reality. A major problem 
facing small island nations is the lack of enforcement assets 
to patrol their economic zones. The U.S. Coast Guard faces 
similar challenges as effective monitoring of the U.S. economic 
zone in the region, especially the Pacific island remote areas, 
requires significant resources.
    The U.S. economic zone around the remote areas is subject 
to illegal fishing by foreign vessels. Recent cases involve two 
Ecuadorian-flagged purse seine vessels caught fishing illegally 
in the U.S. EEZ around Howland, Baker, and Jarvis Islands. The 
U.S. Coast Guard needs more resources and assets to effectively 
monitor the U.S. economic zone in the western and central 
Pacific.
    The reauthorization added a provision that requires all 
fishing vessels without vessel monitoring systems transiting 
the U.S. EEZ seaward of Hawaii and the Northern Marianas, 
American Samoa, Guam, and the remote island areas to notify the 
Coast Guard with name of the vessel, flag State, location, and 
destination. Congress intended this provision to require 
notification because effective monitoring of the economic zone 
around the remote U.S. territories takes nearly daily flyovers. 
Unfortunately, this provision has not been enacted because of 
conflict with international law.
    Fisheries observers are a major component of effective 
monitoring. At the last WCPFC meeting, it was agreed that the 
observer program would be initiated in 2008, starting with 
national observer programs with 5 percent coverage. There has 
been major resistance on this measure.
    Vessel monitoring systems are another important enforcement 
tool. Although the WCPFC conservation and management measure 
require VMS on all vessels that are authorized to fish in the 
area, the VMS program and implementing details have yet to be 
agreed on, and significant work needs to be done before VMS is 
applied evenly throughout the region. The Western Pacific 
Council mandated the use of this equipment in 1991.
    At-sea transshipment is a major concern because it can 
avoid port State monitoring, and catch documentation is often 
lacking. At-sea transshipment is prohibitive for purse seiners. 
However, at-sea transshipment remains a practice for large-
scale longline vessels.
    The Hawaiian-American Samoa longline fleets combine the 
largest domestic industrial fleet in the western and central 
Pacific. These are model fisheries, employing high observer 
coverage, vessel monitoring system, limited entry programs, 
spatial management to minimize fisheries interactions, and 
innovative turtle and sea catch bycatch reduction methods. The 
Hawaii fishery was recently evaluated and found to be 94 
percent complaint with the United Nations Code for the Conduct 
of Responsible Fisheries.
    Responsible, well-managed fisheries can also be profitable. 
Honolulu was ranked fourth nationally in 2006 with $54 million 
worth of landed value, and in 2007, the value of landed fish in 
Hawaii exceeded $71 million.
    Overall, I believe the Department of State, the National 
Marine Fisheries Service, and the Coast Guard are working well 
on implementing the international provisions of the Magnuson-
Stevens Reauthorization Act. For these agencies, it is often a 
tiring and frustrating experience. They deserve our 
appreciation and financial support. The focus on IUU fishing is 
important but pales in comparison to the challenges faced by 
the U.S. in attempting to get the Pacific RFMOs to adopt 
monitoring and compliance along with adequate conservation 
measures.
    In the western and central Pacific, the Hawaii longline 
fleet represents less than 2.5 percent of total bigeye catch. 
Yet it provides 87 percent of the total observer-monitored 
fishing in the region. As previously mentioned, we have had VMS 
for nearly 20 years in our fishery. However, such measures 
essential to the monitoring and compliance have a long way to 
go before being fully implemented in the Western and Central 
Pacific Fisheries Commission.
    As a small, well-managed fishery, there is little overall 
impact in the larger picture of fishing in the western and 
central Pacific. We stand ready to adopt conservation measures 
recommended by science. We ask only that when the U.S. 
Government acts to restrict us within the context of 
international agreements that it results in lower fishing 
mortality, which benefits the resource, and not simply a shift 
to imports from countries without proper monitoring and 
compliance.
    While the Hawaii longline fishery maintains a solid working 
relationship with the Western Pacific Fisheries Management 
Council, Department of State, National Marine Fisheries 
Service, and the Coast Guard, we recognize that further 
coordination and dialogue amongst these groups is required in 
order to formulate or consider appropriate management and 
enforcement measures for international fisheries in which we 
participate.
    Senator Stevens, thank you. It has been my honor to testify 
today.
    [The prepared statement of Mr. Cook follows:]

           Prepared Statement of James Cook, Vice President, 
                      Pacific Ocean Producers, LLC

    Chairman Inouye, Committee Members, aloha from Hawaii and the 
Western Pacific. My name is Jim Cook . I was born and raised in Hawaii 
and have participated in various aspects of commercial fishing for the 
past forty years. I own and operate five vessels in the Hawaii longline 
fishery and for the last twenty-five years I have been involved in the 
design, sales, and installation of the high-tech tuna longline systems 
throughout the Pacific. We currently have projects in Korea, China, 
Mexico, Fiji, French Polynesia, and the Maldive Islands. I served 9 
years on the Western Pacific Fishery Management Council, with three of 
those years as chair. My testimony today will focus on the management 
and enforcement of tuna fisheries in the Pacific.
    The major tuna species bigeye, albacore, yellowfin, and skipjack 
are considered highly migratory and their populations are assessed on 
large geographic scales. For that reason these fisheries should be 
managed within international arrangements such as Regional Fishery 
Management Organizations (RFMOs); however, the ability of these RFMOs 
to effectively manage the resource is far from reality. In the Western 
and Central Pacific Ocean (WCPO), tuna and billfish are managed through 
the Western and Central Pacific Fisheries Commission (WCPFC), and in 
the Eastern Pacific Ocean (EPO), by the Inter American Tropical Tuna 
Commission (IATTC). I believe the U.S. Department of State, National 
Marine Fisheries Service, and the U.S. Coast Guard (USCG) are doing 
their best to implement the international provisions of the Magnuson-
Stevens Reauthorization Act of 2006 (MSRA) within the context of these 
RFMOs.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Figure 1: International management of highly migratory fish stocks 
in the Pacific Ocean
Management Issues
    Bigeye tuna (Thunnus obesus) has been determined to be experiencing 
overfishing in both WCPO and EPO, and fishery scientists have 
recommended a 25 percent reduction in fishing mortality of this 
species. To date, neither the WCPFC nor IATTC have been able to reach 
consensus on conservation and management measures to end bigeye 
overfishing. In the WCPO, the competing economic interests between 
distant water fishing fleets of Asian, U.S. and European nations versus 
the independent Pacific Island countries that grant access rights to 
fish resources in their Exclusive Economic Zones (EEZs) has precluded 
any meaningful conservation for bigeye tuna. The issue is complicated 
in that two very different types of industrial-scale fishing, longline 
and purse seine, are harvesting the same resource, with neither type 
wanting to yield in reducing harvests. Longliners fishing for bigeye 
target large, adult fish that are valuable in sushi and sashimi markets 
around the world. Purse seiners do not target bigeye tuna, but catch 
juvenile bigeye incidentally when targeting skipjack and yellowfin tuna 
for the global, canned tuna market.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Figure 2: Size distribution of bigeye tuna catch, longline vs purse 
seine
    Source: Secretariat of the Pacific Community-Oceanic Fisheries 
Program

    Bigeye catches from purse seiners have risen dramatically over the 
past decade due to increased purse seine sets using deeper nets on Fish 
Aggregation Devices (FADs), which attract juvenile bigeye, yellowfin, 
and skipjack tuna, as wells as other marine bycatch species.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Figure 3: WCPO Bigeye Tuna Catch by Longline and Purse Seine 
Fisheries
    Source: Secretariat of the Pacific Community-Oceanic Fisheries 
Program

    In order to properly manage the bigeye tuna resource, there needs 
to be: (1) accurate and timely submissions of catch reporting by all 
member nations, (2) a cap on the number of longliners authorized to 
fish in the WCPO, and (3) effective FAD management programs for purse 
fisheries. In 2005 (and for years 2006-2008), the WCPFC agreed on 
bigeye longline catch limits for nations not exceed their average 
annual catch between 2001-2004. In 2006, the WCPFC required all members 
to development FAD management plans for the use of FADs by member 
nations on the high seas. To date only Papua New Guinea has a plan, 
whereas the U.S. has not developed a FAD management plan and therefore 
not in compliance with the above mentioned measure. The U.S. needs to 
address purse seine fishing on FADs, especially since in 69 percent of 
the U.S. purse seine fishing effort in 2006 was in association with 
FADs. Furthermore, the U.S. purse seine fleet is undergoing expansion, 
with 8-12 Taiwanese-built, U.S. flagged seiners to be fishing within 
the next few years, bringing the total number of U.S. purse seiners to 
around 30. The Western Pacific Fishery Management Council recently 
recommended to prohibit purse seine fishing in association with FADs in 
the entire U.S. EEZ around American Samoa, CNMI, Guam, Hawaii, and the 
U.S. Pacific Remote Island Areas (PRIA), which include Johnston Atoll, 
Howland Island, Baker Island, Jarvis Island, and Palmyra Atoll, Wake 
Island, and Kingman Reef.
    To address capacity issues in the WCPO, the vessels authorized to 
fish in the convention area need to be strictly regulated within the 
EEZs of member nations as well as on the high seas. WPCPFC Conservation 
and Management Measures require that total levels of fishing effort for 
bigeye and yellowfin tuna in shall not be increased beyond currently 
levels. However, as indicated in Figures 2 and 3 below, there may be 
too many fishing vessels to begin with, so even if no more effort is 
expended, there is already likely excessive capacity in the WCPO. 
Moreover, new fishing vessels being built are bigger, more efficient, 
and able to stay out fishing much longer than older vessels.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Figure 4: Number of longline vessels operating in the WCPFC area.
    (Source: WCPFC SC3-2007/GN WP-1)

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Figure 4: Number of purse seine vessels operating in the WCPFC 
area.
    (Source: WCPFC SC3-2007/GN WP-1)

    Currently, each member nation is required to annually provide the 
WCPFC with a list of fishing vessels authorized to fish in the 
convention area. However, most member countries have provided only 
general lists of vessels that may or may not be actively fishing in the 
WCPFC area, therefore the list needs further refinement and categories 
such as ``active/inactive'' which would serve to indicate a clearer 
picture of overall capacity in the region.
    Another management issue involves bycatch of marine mammals, sea 
turtles, and seabirds. Since the 1996 reauthorization of the MSA, the 
Western Pacific Fishery Management Council has implemented an effective 
bycatch reduction program. Sea bird mitigation measures (e.g., night-
setting, side-setting, blue-dyed bait, line shooters, etc.) have 
reduced seabird bycatch in the Hawaii longline fishery from thousands 
of seabirds annually to less than 100 per year. Reductions in sea 
turtle bycatch have also been realized from the required use of circle 
hooks and mackerel bait in the Hawaii longline swordfish fishery--90 
percent reduction in loggerhead sea turtles and 87 percent reduction in 
leatherback sea turtle interactions. Based on these successes, the 
Western Pacific Fishery Management Council has been working actively to 
promote these measures in the international arena, sponsoring 
international meetings such as the series of International Fishers 
Forums and sea turtle workshops. Hawaii's longline fisherman have been 
active participants in these efforts and have worked to engage foreign 
fisherman in promoting bycach reduction, examples being the Tri 
National Exchange bringing fishermen from Hawaii, Japan, and Mexico 
together to reduce loggerhead sea turtle interactions. Bycatch measures 
in the WCPFC have taken a back seat as member states struggle over the 
design and implementation of basic monitoring and compliance and 
accurate catch documentation issues.
Enforcement Issues
    Enforcement issues in the WCPO involve lack of adequate monitoring, 
flags of convenience, at-sea transshipment, inadequate port state 
measures, catch documentation, and apparent loop holes for vessels with 
access agreements with island nations. While effort has been made to 
resolve these issues, such as requiring VMS and observers in the WCPFC, 
full implementation of these measures is still far off in the future.
    A major problem facing small island nations is the lack of 
enforcement assets to patrol their EEZs. The U.S. Coast Guard faces 
similar challenges in the WCPO as effectively monitoring the U.S. EEZ 
in the region, especially the PRIA, requires significant resources. The 
U.S. EEZ around the PRIA, for example, is subject to illegal fishing by 
foreign vessels. Recent cases involve two Ecuadorian flagged purse 
seine vessels caught fishing in the U.S. EEZ around Howland/Baker 
Islands and Jarvis Island. Although the USCG was able to detect this 
illegal activity by air and were able to pursue one of these vessels 
with a cutter at sea, the USCG was unable control and board this vessel 
while in the U.S. EEZ. The cases were recently settled for $117,000 
each; however, there are suspicions that these vessels were illegally 
fishing in the U.S. EEZ for 2 weeks, instead of for making one set as 
the penalties were assessed. The USCG needs more resources and assets 
to effectively monitor the U.S. EEZ in the WCPO.
    The Ecuadorian vessels were fishing within the WCPFC convention 
area without authorization as Ecuador is not a member of the WCPFC. 
Ecuador, in 2007, sought cooperating non-member status within the 
WCPFC, but their application was rejection by the member nations. This 
issue highlights a loophole for foreign fishing vessels--potential IUU 
vessels--that fish in the WCPO as they are not subject to WCPFC 
conservation and management measures because the state flag under which 
the vessel operates is not a member of the Commission.
    The MSRA added a provision (Sec. 510) that requires all foreign 
fishing vessels transiting the U.S. EEZ seaward of Hawaii, CNMI, 
American Samoa, Guam, and the PRIA without VMS capable of communicating 
with USCG or NMFS Office of Law Enforcement (OLE) to notify the USCG or 
OLE the name of the vessel, flag state, location, and destination of 
the vessel. Section 510 also requires that all fishing gear on the 
board the foreign fishing vessel be stowed below deck or removed from 
the place where it is normally used for fishing. Congress intended this 
provision to require notification of foreign vessels because the USCG 
and NMFS Office of Law Enforcement do not have access to VMS data of 
foreign fishing vessels, and that effective monitoring of the EEZ 
around the PRIA and other remote U.S. territories takes nearly daily 
fly-overs by USCG air assets. The Bush Administration in signing the 
MSRA indicated that they would implement section 510 of the MSRA only 
as appropriate under international law, and to date, the USCG nor OLE 
have not pursued this enforcement tool. It seems the Bush 
Administration interprets section 510 to be inconsistent with existing 
international treaties or agreements relating to freedom of navigation. 
While this may or may not be true, the Administration should push this 
approach in international fora as a means to deter illegal foreign 
fishing.
    Fisheries observers are a major component of effective monitoring 
of tuna fisheries in the WCPO. At the last WCPFC meeting it was agreed 
that the WCPFC observer program would be initiated in 2008, starting 
with national observer programs and with a goal of 5 percent coverage. 
There has been major resistance in the WCPFC from several member 
nations on determine what vessels will be subject to observers and when 
and who is going to pay for the implementation and administration of 
the observer programs. To put this in context, our local, Hawaii-based 
longline fishery targeting swordfish is subject to 100 percent coverage 
and the Hawaii longline deep-set tuna fishery is at 20 percent observer 
coverage, costing over $6 million per year--we hope to utilize video 
monitoring technology in the near future to reduce these costs in our 
fishery.
    VMS is another important enforcement tool for effective 
conservation and management. Although WCPFC conservation and management 
measures require VMS on all vessels that are authorized to fish in the 
WCPFC area, the VMS program and implementing details have yet to be 
agreed on and significant work needs to be done before VMS is applied 
evenly throughout the region. Through management regulations 
recommended by the Western Pacific Fishery Management Council in 1991, 
the Hawaii-based longline fishery was the first fishery in the Nation 
to be required to use VMS, and thereby pioneering it use as an 
effective enforcement tool.
    At-sea transshipment is a major IUU and management concern because 
it can avoid port-state monitoring and catch documentation is often 
lacking. At-sea transshipment is prohibited for purse seiners by the 
WCPFC; however, at-sea transshipment remains a practice for large-scale 
longline vessels (mostly freezer vessels fishing for albacore).
    Consistent port-state measures are important and require rigorous 
procedures to verify catch and catch locations. Measures to deny port-
entry by vessels suspected of IUU fishing can be problematic as it 
would then eliminate port-state control of an IUU vessel that if denied 
port-entry, would likely offload at another, less strictly controlled 
port.
    An important point is that U.S. fisheries operating in the WCPFC 
are the most tightly managed, closely monitored fisheries in the world. 
What is troublesome from a U.S. fishing prospective, is that what the 
U.S. agrees to in the WCPFC and carries out through domestic 
regulations, the same will likely not be replicated by other member 
nations. In effect, the U.S. could over-regulate its fisheries while 
other member nations do little in terms of accountability, thereby 
setting U.S. vessels at a competitive disadvantage. In this respect, if 
member nations do not adequately monitor and enforce their own vessels 
to comply with agreed to conservation and management measure, the U.S. 
has little option other than to impose trade sanctions.
Fisheries Development in the U.S. Pacific Island Territories and 
        Commonwealth
    The U.S. Pacific Island Territories of American Samoa and Guam and 
the U.S. Commonwealth of Northern Mariana Islands need support to 
develop their fisheries, and existing law such as the Central, Western, 
and South Pacific Fisheries Development Act of 1972 is an appropriate 
vehicle to render such support. The U.S., under the South Pacific Tuna 
Treaty (SPTT), provides $18 million annually to members nations of the 
Forum Fisheries Agency (FFA) including the Republic of the Marshalls 
Islands, Federated States of Micronesia, Republic of Palau (which are 
all Former Trust Territories of the Pacific Islands) for 40 U.S. purse 
seine access permits to fish within the EEZs of FFA member nations. 
Because around 25-30 permits have gone largely unused by the U.S. purse 
seine fleet in recent years, the FFA has sold the latent amount of 
permits to other nations, thereby receiving double revenues as the U.S. 
fleet is rebuilding. Guam and the Northern Mariana Islands do not 
receive any benefit from the SPTT to develop their fisheries.
    Given the strategic location of Guam and the Northern Mariana 
Islands in the Western Pacific, both have great potential to provide 
needed infrastructure to the WCPFC (its Secretariat is located in 
Pohnpei, FSM) as well as be international transportation hubs for 
fishing fleets air-freighting fish to the U.S. and Asia. Guam used to 
be a major transshipment location for both purse seine and longline 
vessels, however, over the last 5 years there has been a major 
reduction in port calls by these vessels. A possible reason for this 
decline is linked to a suggestion that the Federated States of 
Micronesia (FSM) is requiring all their foreign fishing access 
agreements to land their fish in the FSM. Nonetheless, Guam and the 
Northern Mariana Islands are working to establish small-scale longline 
fleets and the U.S. should support fisheries development efforts in 
these areas.
    The American Samoa tuna canneries are vital to the territory's 
economy. In 2004, according to the U.S. Department of Labor, the 
canneries directly employed 4,738 workers (38.6 percent of all surveyed 
workers in the territory), paid an average hourly wage rate of $3.60, 
and accounted for 24.5 percent of the territory's total wage bill for 
all workers. However, the influence of the canneries goes well beyond 
purely domestic impacts. Ready access to the canneries by countries 
surrounding American Samoa (Cook Islands, Niue, Tonga, Samoa) has 
supported the growth of domestic longline fishing in these countries. 
Further, as revealed at a recent Western Pacific Fishery Management 
Council workshop on albacore longline fisheries, most countries across 
the entire South Pacific, including those with canneries such as 
Australia, New Zealand, Papua New Guinea, Solomon Islands and Fiji, 
ship albacore to Pago Pago for canning. The development of the albacore 
longline fisheries in the central South Pacific have also provided 
benefits to those Pacific Island nations that have the majority of the 
skipjack resource but do not receive the lion's share of the SPTT 
funds. Thus, the SPTT is a key component for the U.S. in the Pacific 
Islands through this mosaic of inter-connections to other fisheries, 
and for this reason, it does not simply represent U.S. purse seine 
access to skipjack in the equatorial Pacific.
    The Hawaii and American Samoa longline fleet comprise the largest 
U.S. domestic industrial fishing fleet in the WCPO. The Hawaii and 
American Samoa fisheries are model fisheries in terms of ecologically 
sustainable longline fishing, employing high observer coverage, vessel 
monitoring systems, limited entry programs, spatial management to 
minimize fishery interactions, and innovative turtle and seabird 
bycatch reduction methods. Indeed, the Hawaii fishery was recently 
evaluated and found to be overall 93 percent compliant with the United 
Nations Food and Agriculture Organization's Code of Conduct for 
Responsible Fisheries. Responsible, well-managed fisheries can also be 
profitable. This is evident from Honolulu being ranked 4th 
($54,600,000) nationally in terms of landed fish value for 2006, and in 
2007, the value of landed fish in Honolulu is in excess of $71 million.
    Our longline fisheries, therefore, serve as the model for other 
nations within the WCPO. Countries neighboring American Samoa, such as 
the Cook Islands, Samoa and Niue, have taken a serious interest in U.S. 
longline fisheries management and seek to emulate our successes. 
Moreover, longline fishing seems poised to begin developing in the Guam 
and the Northern Mariana Islands, where if successful, will provide an 
additional role model for neighboring Micronesian countries, such as 
the Federated States of Micronesia and Palau.
Closing
    Overall, I believe the Department of State, National Marine 
Fisheries Service, and the USCG are working well on implementing the 
international provisions of the MSRA. For these agencies it is often a 
tiring and frustrating experience and they deserve our appreciation and 
financial support. The focus on IUU fishing is important, but pales in 
comparison to the challenges faced by the U.S. in attempting to get the 
Pacific RFMOs to adopt monitoring and compliance along with adequate 
conservation measures. In the WCPO, the Hawaii longline fleet 
represents less than 2.5 percent of the total bigeye catch, but 
provides 87 percent of the total observed (use of fishery observers) 
fishing effort in the region. As previously mentioned, we have VMS for 
nearly twenty years in our fishery; however, such measures essential to 
monitoring and compliance have a long way to go before fully 
implemented in the WCPFC. As a small, well-managed fishery that has 
little overall impact in the larger arena of fishing in the WCPO, we 
stand ready to adopt whatever conservation measures are recommended by 
science.
    We ask only that when the U.S. Government acts to restrict us 
within the context of international agreements, that it results in 
lower fishing mortality which benefits the resource and not a simple 
shift to imports from countries without proper monitoring and 
compliance. While the Hawaii longine fishery maintains a solid working 
relationship with the Western Pacific Fishery Management Council, DOS, 
NMFS, and the USCG, we recognize that further coordination and dialogue 
amongst these groups is required in order to formulate or consider 
appropriate management and enforcement measures for international 
fisheries for which we participate in.
    Chairman Inouye and Members of the Committee, it has been my honor 
to testify today and I will gladly accept and questions.

    Senator Stevens. Thank you very much. I will have some 
questions.
    Ms. Speer, thank you for being here.

 STATEMENT OF LISA SPEER, DIRECTOR, WATER AND OCEANS PROGRAM, 
               NATURAL RESOURCES DEFENSE COUNCIL

    Ms. Speer. Thank you very much, Senator Stevens.
    Senator Stevens. Can you pull that mike up toward you, 
please?
    Ms. Speer. Yes, sure. I want to, first of all, echo Mr. 
Benton's sentiments, thanking you for your extraordinary 
leadership over the last two decades in terms of the Fish 
Stocks Agreement, the Driftnet Moratorium, the recent U.N. 
General Assembly resolution calling for regulation of currently 
unregulated bottom fisheries throughout the world. All of those 
and many more major international instruments to govern high 
seas fishing have resulted directly from your leadership, and 
the world owes you a big thanks.
    My written testimony focuses on a lot of different issues. 
I would like to address my comments today on the North Pacific 
and the Arctic.
    As you know, as a direct result of the resolution you 
sponsored, Senate Resolution 610, the U.N. General Assembly 
passed a resolution in October of 2006 calling on States to 
establish regional fishery management organizations to govern 
fisheries that are currently unregulated throughout the world. 
And there has been good progress since 2006 in implementing 
that resolution in many places. But unfortunately, one of those 
places is not the North Pacific.
    There are a couple of problems here. The first is in the 
current Northwest Pacific negotiations that are ongoing right 
now between the United States, Korea, Russia, and Japan. There 
have been a number of different meetings. Interim measures have 
been adopted for the Northwest Pacific. But unfortunately, a 
lot of those interim measures are not being implemented.
    For example, one of the key interim measures that was 
agreed to was to ``freeze the footprint,'' to have no new 
fishing in this region until a management regime can be 
established. But the parties have not yet submitted the 
information needed to determine where that footprint is. So it 
is pretty hard to, in fact, implement a ``freeze the 
footprint'' agreement if you don't know where that footprint 
is.
    And second, with respect to the other measures that have 
been adopted, in the absence of 100 percent observer coverage 
as we have in the North Pacific within the U.S., there are 
always going to be questions about whether, in fact, the other 
parties are complying with whatever measures, no matter how 
good they are, that have been adopted.
    Of even greater concern is the draft treaty text that has 
been prepared by Japan that would govern fisheries in the 
future. This treaty, in our view, falls way short of what U.S. 
fishermen have to comply with under the Magnuson-Stevens Act, 
as well as the Fish Stocks Agreement and other international 
agreements.
    Our view is that the Northwest Pacific agreement has to 
undergo a complete overhaul, and if that is not possible, we 
would recommend that the United States withdraw from the 
negotiations, because for us to sign on to a treaty that is 
that deficient would send a terrible message to the world about 
our commitment to modern fisheries management and promoting the 
ideas that are in the Magnuson-Stevens Act beyond U.S. borders.
    So why does the North Pacific agreement matter to the 
United States? There is a chain of volcanoes under the sea that 
stretches from the northern part of Hawaii up to the Aleutians. 
It is sort of a string of pearls, if you will, that connects 
Hawaii and Alaska. And those volcanoes are stopping points for 
a number of different migratory species.
    They are also covered with corals. The Chinese fishery in 
that region for many years was exclusively for corals, and 
there are still very large aggregations remaining in many 
places.
    Unfortunately, the Japanese and the Russians fished out 
most of those seamounts for pelagic armorhead and alfonsin in 
the 1960s and 1970s. And one thing we learned in Hawaii at the 
most recent meeting of the northwest fishery negotiations is 
that overfishing is continuing on those seamounts, and it is 
having an impact within the zone, within our zone, on the 
Hancock seamounts, which are the northern-most seamounts within 
the U.S. zone. Before 1976, they used to be in the high seas. 
They were overfished. The U.S. claimed jurisdiction, and shut 
the fishery down in 1984. There has been a moratorium on all 
bottom fishing on the Hancock seamounts since 1984, and the 
fish have not come back.
    And NOAA's Hawaii office thinks the reason they are not 
coming back is because overfishing is continuing on the high 
seas in the northern seamounts that are providing the feed 
stock for bringing those fish back again. So overfishing on the 
high seas is having an impact within our zone, and that is a 
really important element to address.
    The Northeast Pacific, turning to that for a moment, as you 
probably know, is completely unregulated. There are no efforts 
right now to establish an RFMO, and we are very concerned that 
as the noose tightens around unregulated fishing in other parts 
of the world, that we are going to start attracting all kinds 
of people who seek to evade regulated fishing to the Northeast 
Pacific.
    We recommend that the United States initiate something to 
get into place a management plan for the Northeast Pacific as 
soon as possible. We would prefer to see one regime cover the 
entire North Pacific. But given the drawbacks that I mentioned 
with respect to the Northwest Pacific, that may not be 
possible.
    I wanted to turn to the Arctic for a moment and to say that 
the actions that the North Pacific Fishery Management Council 
has taken have been extraordinarily foresighted, and we 
strongly support what they have done and agree that they ought 
to be exported beyond our zone. And time is not on our side on 
this. If, in fact, as you mentioned earlier, we have 2 or 3 
years, we really need to get cracking.
    I have spoken to a number of people in the State 
Department. As was noted earlier, there have been overtures 
both to Russia and to Canada to see whether there is interest 
in moving this forward. And frankly, I understand the response 
has been from tepid to lukewarm, and I think that is going to 
continue to happen unless we start elevating the level of 
diplomatic engagement by a bunch of rungs up the ladder. In 
fact, we may want to just ditch the ladder and get in the 
elevator and raise this at a much higher level.
    And I would encourage you, sir, to consider doing what you 
have done in the past so successfully, which is start talking 
about this in international fora. Come to the United Nations. 
Start talking about the need to protect the Arctic, the need to 
come together and develop an agreement that will regulate 
commercial fishing before those commercial fisheries get 
established. If we wait until they get established, it will be 
much more difficult.
    Thank you for the opportunity.
    [The prepared statement of Ms. Speer follows:]

 Prepared Statement of Lisa Speer, Director, Water and Oceans Program, 
                   Natural Resources Defense Council

    Mr. Chairman, Members of the Committee:
    My name is Lisa Speer. I am Director of the Water and Oceans 
Program at the Natural Resources Defense Council (NRDC), a national 
conservation organization dedicated to protecting natural resources and 
public health. My work over the last 10 years at NRDC has focused on 
the conservation and management of fisheries and the marine environment 
in areas beyond national jurisdiction.\1\ We welcome the opportunity to 
testify today on issues related to international fisheries management 
and enforcement.
---------------------------------------------------------------------------
    \1\ This testimony uses the terms ``high seas'' and ``areas beyond 
national jurisdiction'' interchangeably, recognizing that they are not 
completely congruent in aerial coverage.
---------------------------------------------------------------------------
    I would like first to thank Senators Inouye and Stevens for their 
outstanding leadership on fisheries issues. For more than two decades, 
Senators Stevens and Inouye have led the way in promoting sound 
fisheries management both here in the United States and beyond our 
borders. Their decades-long bipartisan cooperation has yielded 
extraordinary results, including the 1991 U.N. moratorium on large 
scale driftnets on the high seas, the groundbreaking, legally binding 
conservation provisions of the U.N. Agreement on Straddling and Highly 
Migratory Fish Stocks (``Fish Stocks Agreement''), the FAO 
International Plan of Action (IPOA) on illegal, unreported and 
unregulated (IUU) fishing, the 2006 U.N. General Assembly Resolution 
61/105 on unregulated fishing, and a host of other key agreements, 
instruments and resolutions. The oceans, and the planet, owe them an 
enormous debt.

Overview of International Fisheries
    There is no longer any doubt that we are rapidly reaching, and in 
many cases have exceeded, the limits of ocean ecosystems and the 
fisheries they support. According to the U.N. Food and Agriculture 
Organization (FAO), roughly seventy-five percent of the world's marine 
fish populations are fully fished, overfished, or depleted. Sea 
turtles, marine mammals and seabirds are threatened by incidental catch 
in fishing gear, as are many species of commercial and non-commercially 
important fish. Destructive fishing practices such as unregulated 
bottom fishing damages the habitat on which marine life, including 
important commercial fish species, depend. Overcapacity and subsidies--
on the order of $10-15 billion annually--continue to propel short term 
overexploitation at the expense of long term sustainability.
    The depletion of the seas has enormous implications for the human 
environment as well as the natural one. Globally, over a billion people 
get a major portion of their protein from the sea. Marine fisheries 
employ roughly 20 million people worldwide, many from developing 
countries where fishing provides a critical source of income as well as 
food.
    Climate change and acidification of the oceans lends new urgency to 
these pervasive problems. Scientists believe that healthy, diverse 
marine ecosystems are the best insurance against the profound changes 
in store as the planet warms and the oceans acidify. Like people, the 
healthier our oceans and fisheries are, the better able they will be to 
cope with potentially devastating changes.

Increasing Pressure on the High Seas
    Faced with declining stocks in nearshore coastal waters, fishermen 
now venture far out into previously untouched areas of the deep sea, 
home to exceptionally vulnerable species and habitats. According to 
FAO, the catch of oceanic species typically found on the high seas has 
tripled since the mid-1970s. And the pressure is growing. Just last 
week the chief of the Russian State Committee for Fisheries announced a 
plan to expand the Russian open ocean fish catch by 50 times current 
levels, from 30,000 tons to 1.5 million tons by the end of next 
year.\2\ While the amount may represent wishful thinking, the direction 
is unmistakable and is shared by other high seas fishing nations.
---------------------------------------------------------------------------
    \2\ Kazinform, March 22, 2008.
---------------------------------------------------------------------------
    Conservation and management of high seas fisheries is important to 
the United States for several reasons. Many high seas fish stocks, such 
as tuna, swordfish and squid, are important to U.S. fishermen and 
consumers. Mismanagement, illegal fishing, unregulated fishing and the 
use of damaging fishing practices harms those stocks, damages marine 
wildlife and destroys important ocean habitat. In addition, poor or 
absent management of high seas fishing puts U.S. fishermen, who must 
comply with the requirements of the Magnuson-Stevens Act and other 
statutes, at a serious competitive disadvantage against unregulated or 
poorly regulated foreign fleets.
    For these and other reasons, the U.S. has an important interest in 
the governance of high seas fishing. Unfortunately, the international 
regime governing such fishing has not kept pace with the expansion of 
fleets and technology, as discussed below.
Gaps in International Fisheries Governance
    Gaps in fisheries governance include geographical, implementation 
and enforcement gaps.

a. Geographical gaps
    RFMO/As with authority to manage highly migratory species such as 
tuna and swordfish cover most of the world's oceans. This is not the 
case for other high seas fisheries, including those for sharks, many 
non-tuna or tuna-like pelagic species, and non-straddling deep sea 
fish. The remainder of this testimony focuses on the latter category.
    Prompted by Senate Resolution 610, introduced by Senators Stevens 
and Inouye in September, 2006, and a following directive by President 
Bush, the United Nations General Assembly passed a resolution in 
December 2006 to address the gaps in bottom fisheries governance. UNGA 
Resolution 61/105 calls on States to establish new RFMOs and to adopt 
interim measures to regulate bottom fisheries and protect vulnerable 
marine ecosystems on the high seas by December 31, 2008.
    Important progress in implementing Resolution 61/105 has been made 
in South Pacific, where parties negotiating a new South Pacific RFMO 
have adopted strong interim measures and have made steady headway in 
negotiating treaty text. We are grateful for the leadership role played 
by the United States in the development of interim measures.
    The South Pacific, along with CCAMLR, stands out among RFMO/As with 
competence to regulate bottom fisheries. Most other RFMOs lag far 
behind these two regions in implementing Resolution 61/105. Of 
particular concern is the direction of negotiations in the Northwest 
Pacific, and the lack of any meaningful progress toward establishing a 
management regime in the Northeast Pacific.

The Northwest Pacific
    Negotiations to establish a new RFMO/A in the North West Pacific 
began in 2006 and involve the U.S., Korea, Japan and Russia. The 
parties agreed on interim measures for the management of bottom 
fisheries on the high seas of the region in February 2007, and agreed 
to a further set of measures to implement the February 2007 agreement 
in October 2007. While good progress has been made on interim measures, 
a key issue with regard to observer coverage was not resolved, and 
several important issues were left open pending the development of the 
FAO Guidelines on implementing key elements of UNGA Resolution 61/105. 
These include the definition of vulnerable marine ecosystems and 
significant adverse effects.
    Of much greater concern is the draft convention text prepared by 
Japan. In our view, the current draft of the convention text does not 
meet the most basic requirements of modern international fisheries 
agreements, including the U.N. Fish Stocks Agreement, the FAO Code of 
Conduct, the FAO Compliance Agreement, and other international 
instruments. Nor does it impose requirements anywhere close to those 
required here in the United States under the Magnuson-Stevens Act.\3\
---------------------------------------------------------------------------
    \3\ The major areas in which the draft convention text falls short 
in our view include its weak or absent provisions on transparency, new 
fishing in the absence of a management plan, registry of vessels and 
vessel owners, port state duties, capacity controls, flag state 
obligations, transshipment, boarding and inspection procedures, 
decisionmaking, performance reviews, conservation and management 
measures for target and non-target species, implementation of the 
precautionary approach, observer coverage, and data sharing.
---------------------------------------------------------------------------
    U.S. approval of this draft in anything like its current form would 
send a very negative message to the rest of the world about our 
commitment to improving implementation of high seas fisheries 
management principles and instruments, in particular the commitment to 
the effective implementation of the 1995 U.N. Fish Stocks Agreement. We 
trust the U.S. will do everything necessary to strengthen the draft so 
that foreign vessels operating on the high seas in the Pacific are 
subject to standards at least as stringent as those in place in the 
U.S. under the Magnuson-Stevens Fishery Conservation and Management 
Act. If the other participants to the negotiations do not agree to 
dramatically strengthen the draft text, we recommend the U.S. withdraw 
from the negotiations.

The Northeast Pacific
    As the noose tightens around unregulated fishing across the globe, 
the Northeast Pacific is one of a dwindling number of places left where 
high seas bottom fishing can proceed unregulated, unmanaged, and 
unreported. At the moment, there does not appear to be much high seas 
bottom fishing taking place in the Northeast Pacific. But there is no 
doubt that will change as fisheries become depleted or subject to 
tighter regulation elsewhere. The Northeast Pacific should not be 
permitted to become a haven for foreign fleets seeking to prosecute 
fisheries without controls, oversight or enforcement.
    For many reasons, we believe a single RFMO covering bottom fishing 
on the high seas of the entire North Pacific would be an ideal outcome. 
One possibility is to extend the Northwest Pacific agreement to the 
east and south so that it covers the entire North Pacific. 
Unfortunately however, as discussed above the draft Northwest Pacific 
agreement does not come close to meeting the standards set in either 
the Magnuson Stevens Act or the Fish Stocks Agreement. Unless that 
agreement is fundamentally revised and improved, we do not support 
expanding its coverage to include the Northeast Pacific.
    If strengthening the NW Pacific agreement is not possible, we 
believe the U.S. should pursue a new agreement for the Northeast 
Pacific without delay. It is far easier to negotiate strong 
conservation, management and enforcement measures before foreign 
fisheries become entrenched and stocks are depleted. Deep sea fish 
stocks are typically slow growing and easily overfished, and the 
history of overfishing and depletion in high seas seamount fisheries 
throughout the Pacific is sobering. Therefore, recognizing that 
negotiating a new agreement is a large and costly undertaking, we 
nevertheless recommend the U.S. move quickly to close this gap.

The Arctic
    Fish distribution and abundance in the Arctic is changing as the 
ocean warms, and fishing conditions are becoming more favorable. But 
our scientific understanding of evolving fish population dynamics in 
the region, and the impact of fishing on the broader ecosystem, remains 
extremely limited. The North Pacific Fishery Management Council 
recently adopted precautionary restrictions on Arctic commercial 
fishing to allow scientists to better understand the changing dynamics 
of the region, and to permit managers to develop an informed fishery 
management plan to ensure sustainability of any future fishery.
    We applaud this precautionary approach, and support a similar 
approach for transboundary, migratory and straddling fish stocks that 
may be subject to fishing by other Arctic nations. The Arctic fisheries 
resolution (S.J. Res 17), introduced by Senator Stevens and passed by 
the Senate last summer, promotes the idea of a new international 
fisheries management organization/s for the region to manage shared 
Arctic stocks. We urge the U.S. to promote restrictions on commercial 
fishing of shared stocks along the lines of what the North Pacific 
Council adopted for domestic Arctic fisheries.
    Finally, negotiating an agreement for the Arctic should be a top 
priority for the United States. We cannot afford delay given the very 
rapid changes taking place in the Arctic marine environment and the 
clear intent of some Arctic nations to increase fishing capacity.

Other regions
    Deep sea fisheries remain unregulated in a number of other high 
seas areas, including the northern Indian Ocean, central Atlantic 
(south of the NAFO and NEAFC areas), and the south west Atlantic. In at 
least some of these areas unregulated bottom fishing targeting 
seamounts is occurring. In addition, some RFMOs have yet to make 
satisfactory progress toward meeting the mandates of U.N. Resolution 
61/105. The U.S. can play a helpful role within NAFO, which is holding 
an extraordinary meeting in May to discuss needed measures in this 
regard.
    In 2009, the U.N. General Assembly will review progress toward 
meeting the requirements of Resolution 61/105. The results of the 
review will lay the groundwork for further international action to fill 
the holes in high seas fisheries governance. We strongly urge the 
United States to play an active role in organizing the review with the 
goal of ensuring that it is conducted in a timely and meaningful 
manner.

b. Performance gaps
    The performance of RFMOs in meeting the mandates of the Fish Stocks 
Agreement and other relevant instruments varies tremendously. Without 
accountability or oversight, there is little incentive for RFMOs to 
improve their performance. We have therefore supported efforts by the 
United States and others to initiate regular reviews of RFMO 
performance.
    The United States has been a leader in developing and beginning to 
apply criteria for such reviews. However to date these reviews have 
largely been self-audits. While those audits have yielded helpful 
information, we believe it is important for RFMOs to be reviewed by an 
independent body without a stake in the outcome. Just as few 
corporations permit employees to review themselves, or schools allow 
students to grade themselves, we believe RFMOs would benefit from 
regular outside review. Such reviews would help improve performance, 
harmonize approaches to fisheries conservation and management and 
provide for greater exchange of strategies, methodologies and 
regulatory approaches among RFMOs.

c. Enforcement Gaps: Illegal, Unreported and Unregulated (IUU) Fishing
    FAO reports that IUU fishing activities are increasing, and now 
accounts for some 30 percent of the catch in some important fisheries. 
IUU fishing contributes to overfishing, habitat destruction, harmful 
bycatch, and deprives legitimate fishermen of harvest opportunities. 
Some estimates put the worldwide value of illicit catches at least as 
high as $10 billion per year.\4\
---------------------------------------------------------------------------
    \4\ Closing the Net: Stopping Illegal Fishing on the High Seas, 
HSTF March 2006 at 3.
---------------------------------------------------------------------------
    There are a host of important initiatives under way to address IUU 
fishing, including those mandated by the 2006 reauthorization of the 
Magnuson-Stevens Act, and Section 113 of the 2007 Omnibus 
Appropriations Bill (H.R. 2764), both of which came about as the result 
of leadership by this Committee.
    Four international initiatives stand out as important elements of 
an international solution to IUU fishing.

        1. A global record of fishing vessels

    One of the greatest obstacles faced by fisheries enforcement 
authorities is the ability of IUU fishing vessels to rapidly change 
names, ownership, and flag to evade enforcement.
    Work is now underway under the auspices of FAO to develop a global 
record of fishing vessels with unique identifiers that stay with the 
vessel forever, regardless of changes in ownership, flag, or type of 
fishing. Such identifiers would greatly facilitate MCS, and go a long 
way to prevent and deter IUU.\5\ Combined with other measures, such as 
those envisioned in the draft Port State Agreement and an expanded MCS 
network, have the potential to foil efforts to avoid enforcement 
through renaming, reflagging and changing ownership of vessels. The 
estimated cost is $2.5m for the development phase of the global record 
and $600,000 per year for maintenance; an option for the U.S. to 
consider is contributing to this effort financially.
---------------------------------------------------------------------------
    \5\ Report of the Expert Consultation on the Development of a 
Comprehensive GloblRecord of Fishing Vessels, Rome, Italy, 25-28 
February, 2008.

---------------------------------------------------------------------------
        2. Centralized, tamper-proof VMS

    The 2006 UNGA Fisheries Resolution (para 49) urges flag states to 
require VMS on all vessels fishing on the high seas as soon as 
practicable and in the case of large-scale fishing vessels no later 
than December 2008. One option the U.S. could consider is to either 
prohibit importation of fish caught by such large scale vessels without 
VMS after December 2008. Another option would be to subject all such 
vessels to inspection once they enter U.S. ports.

        3. Port State Agreement

    Port state measures are aimed at vessels engaged in IUU fishing 
that seek to avoid applicable conservation and management measures by 
landing catches outside the region in which the fish was caught and 
where officials have little or no knowledge about the fish landed or 
applicable management measures. The U.S. is leading negotiations to 
develop a binding Port State agreement. The current draft Agreement, 
which will be finalized next year, would require parties to deny use of 
their ports for landing, transshipping or processing of fish if a 
foreign vessel:

        --has been fishing in an RFMO area when that vessel's flag 
        state is not a member of that RFMO (note the port state does 
        not need to be a member of the relevant RFMO);

        --has been sighted engaged in or supporting IUU fishing 
        activities

        --is included in an RFMO IUU vessel list, or

        --has not been authorized to fish in the area by the competent 
        RFMO or coastal state.

    The Agreement relies on advance notification of detailed 
information by vessels seeking to land fish, including the vessel's 
authorization to fish, its transshipment records, relevant regional 
RFMO, and other information. It is up to the Port State to verify this 
information. One option for the U.S. to consider is pressing for 
mandatory flag State verification of a vessels' information (as drafted 
the agreement allows verification through the flag State but does not 
require it). Repeated failures by a flag State to provide verification 
could provide grounds for action against that State, which may in turn 
provide an effective tool against flag of convenience States and thus 
have a broader impact on IUU fishing.

        4. EU-type Catch Documentation

    The European Commission has proposed a new catch certification 
scheme that focuses on the fish rather than on the vessel as in the 
Port State Agreement. The proposal, which will be considered for 
approval by the European Council this June, aims to track fish ``from 
the net to the plate.'' Under this proposal, all fisheries products 
imported into the EU, whether fresh, frozen or processed, would be 
required to have validated catch certificates provided by the flag 
state that certifies the products are legal and that the vessel 
concerned holds the necessary licenses and quotas. This would 
facilitate verification that fish have been caught legally, even if 
they pass through a number of territories or processing before arriving 
in the EU market.
    One area worth considering is whether such an approach could work 
in the U.S.. Attacking IUU from both ends--the vessel and the catch--
may be more effective at blocking IUU products from entering the U.S. 
market. Considering that the EU and the U.S. represent two of the three 
largest seafood markets in the world, this approach has the potential 
to make a major dent in IUU fishing.
Conclusions and Recommendations
    The magnitude of the problems facing high seas fisheries calls for 
a major initiative to chart a new course. As a major fishing nation, as 
a leader on these issues, and as one of the world's largest consumers 
of seafood, the U.S. is in an important position to lead such an 
effort. We recommend such an initiative include the following elements.

        1. The U.S. should accede to the United Nations Convention on 
        the Law of the Sea;

        2. Continued vigorous advocacy at the WTO to reduce and 
        eventually eliminate the estimated $10-12 billion annual 
        subsidies for fishing that fuel overcapacity and overfishing;

        3. Fill governance gaps for species and areas that are 
        currently unregulated, with a particular focus on the north 
        Pacific and the Arctic;

        4. Address performance gaps through institution of regular 
        independent review of RFMO performance against internationally 
        accepted criteria;

        5. Play an active role in the UNGA 2009 review of the 
        implementation of UNGA Resolution 61/105 regarding unregulated 
        bottom fisheries with the goal of ensuring that it is conducted 
        in a timely and meaningful manner;

        6. Provide financial and political support for the 
        establishment of a global record of fishing vessels with unique 
        identifiers;

        7. Consider import or other restrictions on large scale vessels 
        without VMS after December 31, 2008;

        8. Consider an EU-type catch documentation scheme;

        9. Consider pressing for mandatory flag state verification of 
        information provided by foreign vessels under the draft Port 
        State agreement;

        10. Lead by example: encourage NMFS to (a) promptly issue 
        proposed revisions to the current National Standard 1 
        guidelines to ensure that overfishing does not occur and that 
        overfished stocks are rebuilt as required by the MSRA, and (b) 
        effectively implement the MSRA's provisions on rebuilding, 
        which if properly implemented would create tens of thousands of 
        additional jobs, increase catch levels by 64 percent, and add 
        more than $1 billion to the U.S. economy.

    In closing, we again thank you and your staffs for your leadership 
on both domestic and international fisheries. We look forward to 
working with you to address the challenges ahead. Thank you for the 
opportunity to testify.

    Senator Stevens. Thank you very much. I look forward to 
discussing your latest comment. There is just a scarce amount 
of time to deal with this issue, and I hope that we can get 
together.
    To the great credit of Secretary Albright, she saw the 
problem and went with us when we went to the U.N. before. I 
hope that Secretary Rice will similarly see the problem with 
regard to the Arctic, and I have not had a chance to really 
discuss that with her yet. But you are right. We can't wait on 
that subject at all.
    Let me turn to Mr. Cook, though. Mr. Cook, Senator Inouye 
wanted to ask a couple of questions. You have already discussed 
part of his question; the effectiveness of the Western and 
Central Pacific Fisheries Commission to establish conservation 
and management efforts. Do you think they have been successful 
so far in their efforts?
    Mr. Cook. Senator, I am sorry to say I don't. This is a 
relatively new organization. It has been in the formative 
stages for several years, but it still is relatively new. As 
you know, the island nations of the Pacific, the fisheries 
there, the tuna fisheries are really the only natural resource 
that they have. They want to sell that resource to the highest 
bidder. It makes that a very, very difficult situation to 
operate in.
    I think that the U.S. brings the conservation ethic to the 
WCPFC, and I think that it will take a long time because other 
members do not necessarily share that same ethic, and it will 
take a long time and a lot of convincing on our behalf to make 
these organizations work. It is simply a battle that we have to 
fight, and it will be a while getting it won.
    Senator Stevens. He said he wanted to know whether the 
WCPFC has cooperated with and consulted with the Inter-American 
Tropical Tuna Commission. Do you see such cooperation taking 
place now?
    Mr. Cook. I believe there is some cooperation there. I am 
not an expert in that area, and I really can't comment on it 
extensively.
    Senator Stevens. You mentioned the council. Does the 
council interact with both the Inter-American Tropical Tuna 
Commission and the WCPFC?
    Mr. Cook. Yes, they do. I think they do a very effective 
job working with both of those commissions. We have people from 
the council that attend meetings at both of those commissions, 
and we keep constantly up with them. As you may be aware, we 
operate under quotas for certain species under both of those, 
and so we are very, very actively engaged. And I think the 
council does a terrific job representing the interests of the 
U.S. on both of those organizations.
    Senator Stevens. Would you submit to us, if you would, any 
comments you might have on what might be done to increase the 
effectiveness of the WCPFC and whether or not we might be in 
position to bring about a better relationship with the council?
    Mr. Cook. I will. Thank you.
    Senator Stevens. Thank you very much.
    Let me go back to you, Mr. Benton. Based also on what Ms. 
Speer has said, I think we have acted quickly enough to put 
down some roadblocks to really entering into the zone directly 
north of our own State. But I don't think we have been very 
effective with looking at the whole Arctic Ocean as it might 
impede on that area once we take down the barriers. Now am I 
right?
    Mr. Benton. Thank you, Senator Stevens. Yes, I think you 
are absolutely dead-on. I think that the fishery management 
council took a very bold step. There was some trepidation there 
for a bit on their part when they first did it. But they 
stepped up to the plate, as they have often done for 
conservation, and that is a good step.
    But when you look at the Arctic Basin, sort of look at the 
map looking down from the top, we have got a real challenge 
ahead of us here. As Ambassador Balton pointed out, there are 
fisheries occurring on the Atlantic side now, and a lot of 
players over there, those arrangements over there, even though 
they have arrangements, aren't working all that well. It is my 
understanding.
    Our relationship with our Russian neighbor is not what it 
was a decade or so ago, to be quite honest. And I have also 
heard, as Ms. Speer mentioned, that overtures had been made to 
both Canada and to Russia and that Russia and Canada both were 
lukewarm. And it seems to me that we do need to up the ante 
here. But I don't think that we can do it just from a top-down 
approach. I like the idea of you taking--taking charge of this 
Arctic issue and giving it the profile it needs because it does 
need it.
    We also, though, need to find the right people to talk with 
the people on the ground on the Russian side to get some 
support in Russia for that kind of action as well. That is how 
we did it before. We worked both from the top and the bottom, 
and we got industry-to-industry discussions going on. We had--
you know, the State of Alaska took a real role in working with 
folks in Vladivostok and Petropavlovsk to get support in the 
region for some of the initiatives we took in the past.
    I think that if we explained it correctly and if we had an 
initiative such as Ms. Speer mentioned and you have hinted at 
of maybe you taking charge of this and taking it to the United 
Nations and taking it to the Secretary of State, I think we 
could be very successful, and I think we could turn it around. 
I don't see that kind of aggressive, coordinated strategy 
developing yet, and it needs to do that very quickly because 
you are right. Time is not on our side.
    Senator Stevens. Well, we are planning to do just that. But 
one of the problems we have is the oil and gas development is 
coming at us, too, with the Chukchi Sea sale and the interests 
of Shell now in the Arctic Ocean. I don't know if you realize 
it, but the revenue-sharing provisions of the bill that passed 
in the last Congress excluded Alaska from participating in any 
of the revenues from the outer continental shelf off our State.
    Strangely enough, the revenues from any development off our 
State will go into this fund that was created by that 
legislation that is shared by Florida and Louisiana and Texas 
and parts of California. I think that is, right now, an 
impediment, and I have had meetings with the oil industry. They 
agree. They think there should be a portion of the revenues 
that go to the Federal Government dedicated to the basic 
resource protection that comes from a revenue-sharing concept.
    We are going to try to deal with that, but the 
representatives of the oil industry also recognize the 
fisheries issues are acute and want to be involved in 
approaching the people to make sure that the protection 
measures are in place. So if there is any damage that comes 
about from an initiation of harvesting of the fisheries, that 
they won't be blamed for that, frankly. And I understand their 
fear because that is a totally virgin area for any kind of 
fishing. And if the IUU people get in there, it is going to be 
an overwhelming damage immediately. It would harm the future of 
the oil and gas prospects, I think.
    Ms. Speer, do you have any knowledge of what happened in 
the Norwegian area? There has been oil and gas development 
there, as I understand it. In the same areas there has been 
some of the intrusion of the IUU fisheries. Ms. Speer, are you 
familiar at all with that area?
    Ms. Speer. I am not. Unfortunately, not with respect to the 
oil and gas interests there. But I think you are raising a 
really important issue. The thing that worries us most is the 
oil and gas development that is conducted on the Russian side.
    It is not subject to the same kind of controls we have 
here, and a devastating event on the Russian side could have 
implications for the entire Arctic, including our zone, 
including our fisheries. And I think having a larger engagement 
with the Russians over the future of the Arctic is going to be 
very important.
    I don't know how to make that happen other than to have a 
much higher-level engagement than we have right now. The 
President, you know--I know your friend Sylvia Earle was at the 
Easter Egg Roll with the President a few weeks ago, and she 
mentioned this. And she is very interested in trying to pursue 
this.
    Maybe there is a way to get interest in engagement at the 
White House for moving forward with this, linked to the Law of 
the Sea and other related issues.
    Senator Stevens. You are right. She has a very great 
approach to all these issues, and I enjoy working with her.
    You have mentioned overfishing on the high seas, and I 
assume you are speaking of the Gulf of Alaska. Where are you 
talking about, your comments about overfishing in the high 
seas?
    Ms. Speer. I was talking about overfishing on the seamounts 
of the Northwest Pacific, which is the subject of the current 
negotiation going on between Japan and the United States, 
Russia, and Korea to negotiate a fisheries agreement as a 
result of the U.N. General Assembly's resolution. This is a 
chain of seamounts that extends from the northwest Hawaiian 
Islands up to the Aleutians, and it is really an extraordinary 
area. And it has been overfished for a long, long time.
    And it is continuing, and we are now learning that the 
effects of that are----
    Senator Stevens. What vessels are involved? Are these IUU 
vessels, or are these tuna fleets?
    Ms. Speer. Well, they are U vessels. They are unregulated 
vessels in terms of international control. There are somewhere 
between two and eight Japanese vessels. There is one Korean 
vessel, and there is an unknown number of Russian vessels. The 
Russians don't seem to have a good grip on how many vessels 
they have.
    Senator Stevens. Is that the area you mentioned, too, Dave?
    Mr. Benton. Yes, Senator, that seamount chain that 
stretches from Hawaii up toward the Aleutian Islands is where 
those fisheries are occurring now, and the fishing that is 
going on there is a definite concern.
    The problem that I see and I think the problem that Ms. 
Speer also sees is the piecemeal approach to dealing with this. 
There is equally large and important seamount provinces in the 
eastern North Pacific Ocean that extend up into the Gulf of 
Alaska and up into our own waters. Right now, it is not a 
really large fishery that is going on there. As Ms. Speer 
pointed out, there is probably maybe 20 vessels that are over 
there, but they are having a very significant effect.
    And if we have sort of a situation where we squeeze the 
balloon in the Northwest Pacific, then they are going to move 
over into our part of the world or other fleets potentially 
can. That is why we support a comprehensive solution, one that 
covers the entire Pacific Ocean and deals with protecting areas 
like seamounts.
    You know, the North Pacific Council closed the seamounts in 
our own waters, and we did that in recognition that seamounts 
are a very unique habitat. Seamount fishing in other parts of 
the world is an important way of doing it, but I think off of 
Hawaii inside our own zone, we have pretty adequate controls on 
how you do that without damaging seamount resources.
    But we won't see that in the international waters unless we 
get a comprehensive agreement and we get regulations put in 
place. But if we don't do that for the entire area between Asia 
and the Americas, we are not solving the problem. We are just 
moving the problem.
    Senator Stevens. Do we have any information at all about 
any fishing that is up in the area, the Baffin Islands on the 
Canadian side?
    Mr. Benton. Up on the Arctic side?
    Senator Stevens. Yes.
    Mr. Benton. There is, I think, some small near-shore 
coastal subsistence fisheries that are occurring up in that 
area, but nothing of any consequence.
    Senator Stevens. You haven't heard of any commercial 
fisheries up there, have you?
    Mr. Benton. No. I don't believe there are any. And there is 
a very small semi-commercial fishery at the mouth of the 
Mackenzie River as well.
    Senator Stevens. Well, I thank you very much, and I thank 
the Chairman for allowing us to have this hearing in his 
absence because I think it is important for us to get a record 
and proceed on it. I do plan to approach the Secretary and to 
try to enlist not only the Secretary of State, but the 
Secretary of Commerce in terms of a concept of trying to dig 
into this issue.
    As I said, the area north of our State, I think it is 
totally virgin territory, and north of Wrangel Island and 
Russia, too, I don't think there has been much commercial 
fishing up there either. I do think that we have a chance to 
show what scientific management could bring and maybe hold as 
an example to the other countries of the Arctic what can be 
done if they really assert their authority to protect the 
fishery resources of the Arctic Ocean.
    Most people seem to think the ice is going to disappear 
altogether. It will be there in the wintertime. We are not 
going to have any wintertime fisheries I am told, but the 
summer fisheries could be just zip in and zip out if we are not 
careful. If there is unregulated access to the Arctic Ocean 
through the Bering Straits, we are going to be in trouble.
    The concepts of freedom of navigation would apply to that 
area, and we have to find ways to limit that with regard to 
vessels that could do a great harm to fishery resources. We 
have not mentioned the basic problem that a lot of the basic 
food chain for the fishery resources of the North Pacific 
originate in the Arctic area. That is my information, and I do 
think that we ought to pursue it and make sure that information 
is correct.
    Mr. Cook, the Chairman gives you his apologies, and I spoke 
to him. He deserves to be where he is, and I hope he stays in 
bed because he had a bad cold.
    Ms. Speer?
    Ms. Speer. I just wanted to say one more thing. The United 
Nations is a terribly dysfunctional body, but it is a place 
where you can make progress, and people remember you. They 
really do. And I think there is a lot of discussion of Arctic 
issues, but people are looking for a leader. And I think if you 
came to the United Nations, it would have a very big impact in 
elevating this issue.
    Senator Stevens. Well, I thank you for that. That is why I 
asked the Chairman to allow us to have this hearing. You don't 
go up there until you are ready, and you have to be sure you 
have your own people with you. The reason we succeeded in terms 
of the driftnet fishery was that we went from the hearing to 
Secretary Albright and then to the U.N. together.
    A Senator can't rush up to the U.N. and say, ``Look, guys, 
listen to me.'' It has to be as a representative of his 
country. They have to be behind the Senator before that takes 
place. So I hope that we can go from here and to the Cabinet 
and then to the President and then to the U.N. And it would be 
much better if I had the President of the United States 
speaking to the U.N. about protecting the Arctic Ocean. I hope 
we can convince him to do that.
    So thank you all very much. As I said, there may be 
questions submitted by any members of the Committee. There is a 
debate on the floor about housing. So I understand why they are 
not here and I am. But I am where I want to be.
    Thank you very much.
    [Whereupon, at 11:25 a.m., the hearing was adjourned.]

                            A P P E N D I X

 Prepared Statement of Hon. Daniel K. Inouye, U.S. Senator from Hawaii

    Americans are among the top consumers of seafood products in the 
world. Despite the strength of the U.S. seafood industry, the majority 
of these products are imported. Yet all too often we are completely 
unaware of the product history of the seafood we consume: where it has 
been, how it was harvested and whether it is safe.
    With respect to seafood safety, Senator Stevens and I have recently 
introduced legislation to help ensure that imported seafood products 
are properly inspected, deemed safe, and meet the food safety standards 
that American consumers deserve.
    Along with ensuring that seafood is safe for consumption, it is 
critically important that we ensure fish are harvested in a sustainable 
manner.
    The problems of illegal, unreported, and unregulated (IUU) fishing, 
coupled with global overfishing in general, have had a significant 
impact on our marine environment and on our economy.
    With the reauthorization of the Magnuson-Stevens Fishery 
Conservation and Management Act, the United States is committed now, 
more than ever before to thwart destructive fishing practices.
    Marine science tells us, however, that many fish stocks know no 
boundaries, and in fact traverse across national maritime borders and 
into the high seas. We therefore need responsible, cooperative, 
balanced and enforceable international conservation and management 
agreements for fisheries.
    With this goal in mind, I am especially concerned with the 
inability of the Inter-American Tropical Tuna Convention (IATTC) and 
the Western Central Pacific Fisheries Commission (WCPFC) to reach 
consensus on establishing and enforcing management and conservation 
measures for tuna, specifically bigeye tuna, in the Pacific. I am also 
concerned that while our fishermen are stepping up to the plate, an 
uneven playing field is being created because of the members of the 
Commissions that will not make decisions and are allowing their 
fishermen to continue in an unfettered manner with bad practices.
    To the extent that conservation and management measures are 
currently in place, I have significant concerns regarding the ability 
of the responsible agencies to effectively enforce existing mandates. I 
hope that today's witnesses can help us identify gaps in enforcement 
that exist under the current regime, and recommend how we can better 
position these agencies and our country to address foreign fishing 
incursions into our waters, and how can we increase our role in 
combating IUU both at home and on the high seas.
    Responsible and enforceable conservation and management will help 
ensure a sustainable supply of fish both within our Exclusive Economic 
Zone (EEZ) and on the high seas.
    I look forward to working with the witnesses before the Committee 
today to strengthen the role of the United States on these crucial 
fisheries issues.
                                 ______
                                 
Prepared Statement of Hon. Maria Cantwell, U.S. Senator from Washington

    I'd like to thank Chairman Inouye and Co-Chairman Stevens for 
holding this important hearing today.
    I would like to start out by expressing my sorrow for the recent 
tragedy of the Alaska Ranger, which sank near the Aleutian Islands on 
February 23. My condolences go out to the families and friends of the 
five crewmembers who were lost, and to the rest of the crew who endured 
this harrowing ordeal.
    I would also like to recognize the courage of the Coast Guard 
members who braved extremely difficult conditions to conduct a heroic 
rescue--saving dozens of crewmembers' lives.
    The results of the investigations into the Alaska Ranger incident 
will be of the utmost importance as we learn what went wrong so we can 
determine what steps to take to make sure such tragedies are not 
repeated in the future.
International Fisheries
    By its very nature, fishing is a truly international endeavor. Fish 
don't restrict their movement to geopolitical borders, and the health 
of international fish stocks is critical to the livelihood of fishermen 
in the Pacific Northwest and throughout the world.
    Last year, more than $1 billion worth of seafood was imported into 
the Port of Seattle from dozens of other countries, including Ecuador, 
Greenland, Malaysia, Canada, Sri Lanka, China, and Russia. We also 
exported over $1.1 billion of seafood to just as many countries.
    Because of this international nature, what happens in high seas 
fisheries is both everyone's responsibility and, at the same time, 
nobody's responsibility. We cannot let this fact tempt us into 
inaction.
    We must hold ourselves accountable to play an active role in 
ensuring that the world's fisheries are managed in a responsible, 
sustainable way that preserves their integrity for future generations.
Fisheries Management
    Effective fisheries management is a complicated and difficult job.
    Our experience tells us, though. that it requires a few key 
building blocks:

        1. It Requires an Effective Management Authority--There must be 
        a management organization with a clear mandate, clear lines of 
        authority, and the ability to effectively regulate, control, 
        and limit harvest.

        2. It Requires Reliable Scientific Data--We must be able to 
        reliably and consistently track changes in fish populations, 
        and understand when they are going up, down, or sideways so we 
        can take wise management actions that the fishing industry will 
        believe and accept.

        3. It Requires the Long-term Interest of Stakeholders in 
        Conservation--Fishermen need to believe that maintaining the 
        health of the fisheries is in their best interest. From time to 
        time, catches will inevitably need to be reduced, and getting 
        cooperation and buy-in from the fishermen to do this is 
        essential.

    These three prerequisites are only a starting point, but they are 
an important and necessary foundation.
    If we don't get these building blocks right, there is little hope 
that we will achieve the sustainable fishing practices that our oceans 
deserve.
Fisheries in International Waters
    Unfortunately, the international community has largely failed to 
achieve these few key building blocks for international fisheries.
    Management of international fisheries is done through a patchwork 
of regional fishery management organizations. A glance at a map of 
these organizations shows that they are a confused and disorganized 
mess of overlapping jurisdictions.
    Famous for their ineffectiveness, these organizations are far from 
the strong international management authorities we need.
    Scientific data on international fisheries is often lacking, 
leaving scientists to rely on uncertain models (and sometimes 
guesswork) to make management decisions.
    Where data do exist, it is often questionable or incomplete.
    Nations that do provide reliable data usually demand anonymity on 
who is fishing where, preventing scientists from understanding which 
nations are acting responsibly, and which are causing damage.
    On conservation, the international fishing community has not yet 
accepted that conservation is in their long-term best interest. The 
business of international fishing is still too focused on short-term 
interests and dollars-and-cents.
    This means that responsible, conservation-minded fishing practices 
in international waters are the exception--not the rule.
Moving Forward
    There are many issues to complain about with international 
fisheries, and many of these topics will undoubtedly be raised here 
today.
    I believe, though, that it is important to understand that the 
United States is just one player.
    There is only so much that we can actually control, and there are 
limits to what the United States alone can achieve.
    We can, however, play an active and productive role.
    To do this, we must focus on the things that lie within our 
control, and push the international community to develop a basic 
foundation upon which all sustainable fisheries must be based.
    We must ask how we can be more effective players in the 
international fisheries world:

  <bullet> How can we help foster the development of effective regional 
        management organizations?

  <bullet> What can we do to improve the science of international 
        fisheries and to encourage the open, transparent collection and 
        sharing of reliable scientific data?

  <bullet> And how can our government convince others that conservation 
        is in their best interest--encouraging them to adopt fishing 
        practices that are less destructive, more sustainable, and 
        reduce bycatch?

    We must also look ahead to the challenges facing us in the coming 
years and decades.
    We must consider the future role of rapidly growing nations like 
China. As China continues to industrialize, it has the potential to 
play a major role in the future of fisheries in the high seas.
    It is also essential that the international community--including 
the United States--find a way to more effectively deal with illegal, 
unregulated, and unreported fishing.
    Achieving effective international management will mean nothing if 
people don't follow the rules.
                                 ______
                                 
  Prepared Statement of Hon. Olympia J. Snowe, U.S. Senator from Maine

    Thank you, Mr. Chairman, for convening today's hearing on 
International Fisheries: Management and Enforcement. As Ranking Member 
on the Subcommittee on Oceans, Atmosphere, Fisheries, and Coast Guard, 
I am fully aware of the vital implications of these issues not only for 
our domestic industries, but in some cases for the global viability of 
entire species.
    In a seminal article first published in the journal Science in 
1968, Garrett Hardin described the ``tragedy of the commons''--a 
scenario in which the freedom of individuals to exploit commonly held 
property must inherently lead to its ruin. Hardin based his theory on 
the assumption that individuals will seek to increase their yield from 
the common property because in the absence of regulation, if they don't 
do it, someone else will. As pressure increases the resource is used up 
faster and faster until it is completely destroyed.
    Part of passage of the Magnuson-Stevens Fishery Conservation and 
Management Act in 1976 was Congress' recognition that the tragedy of 
the commons was occurring in the fisheries of the United States. Fish 
stocks were declining, fishing pressure was increasing, and catch rates 
were spiraling into an abyss from which we feared our stocks might not 
recover. Today, I see that tragedy once more playing itself out, this 
time on a global stage, and while the United States cannot manage this 
crisis alone, we can and must be world leaders in the fight to protect 
the fisheries that put food on our tables, and to safeguard the species 
that are in danger of abject collapse.
    I would point to the example of bluefin tuna, a species that has 
been a vital component of the New England fishing industry for decades. 
In recent years, demand for this fish, prized by sushi connoisseurs, 
has skyrocketed leading to dockside prices that can reach tens of 
thousand dollars per fish. Despite out best efforts to manage bluefin 
stocks under an international agreement, the world's population is 
estimated to have declined by over ninety percent in the last 30 years. 
These figures are reflected in New England where the catch in 2006--the 
most recent year in which figures are available--was just 124.3 metric 
tons, less than 10 percent of the fishery's peak of 1,390 metric tons. 
In Maine, the problem was even more acute, with just 9.1 metric tons 
landed in 2006, a level of futility that exceeds anything we have 
experienced in the past half century.
    We in the U.S. are doing our part to prevent overharvesting of 
bluefin, but this is a problem that extends beyond our waters, across 
the Atlantic Ocean, and into the Mediterranean Sea. And until the other 
countries that share this valuable fish stock stop overfishing and 
start managing the resource for the long term, the bluefin population 
will continue to dwindle.
    The bluefin tuna fishery is just one example of the struggles our 
fisheries currently face to meet the rising demand for seafood while 
maintaining sustainable harvest levels and healthy fishing communities. 
The U.S. cannot go it alone, but we can influence global policy through 
more than a dozen Regional Fishery Management Organizations to which we 
belong. To enhance our efforts in this regard, I worked alongside many 
of my colleagues on this Committee--Senator Stevens notable among 
them--to include in the most recent reauthorization of the Magnuson-
Stevens Act several provisions enhancing our authority to enforce 
international treaties and agreements to which the U.S. is a party, and 
to impose import restrictions on nations that fail to adhere to these 
standards.
    And as we strive to protect the world's dwindling fish stocks, we 
must also protect our domestic fisheries. The fishing industry has been 
integral to my home state of Maine for generations, and in 2006, 
Maine's fishery landings were valued at over $368 million. Given our 
state's reputation, it should surprise no one that the vast majority of 
that figure, nearly $300 million, came from a single species: lobster. 
Today, Maine's lobster industry faces numerous challenges, but 
paramount among them are new regulations that will require our 
lobstermen to fish using sinking rope, ostensibly to protect endangered 
species of whales. The Maine Lobstermen's Association has estimated 
that these regulations will cost each fisherman $10 to $15,000 in the 
first year alone, and will pose a serious safety risk in some areas.
    Meanwhile, lobstermen working just across the Maritime Boundary 
Line in Canadian waters face no similar restrictions despite plying the 
same type of ocean bottom for the same lobsters and interacting with 
the same endangered whales. This blatantly flawed system creates a 
double-standard for the lobster industry, allowing Canadian lobstermen 
to pocket additional profits, and to the extent that lobster gear poses 
a risk to whales, it fails to protect these critically endangered 
species on one side of a line that is entirely meaningless from an 
ecological perspective. This is why I introduced a resolution calling 
for the U.S. to enter into bilateral negotiations with Canada to 
develop a joint management system that will level the playing field for 
our fishermen while affording increased protection to our endangered 
species of whales.
    Ultimately, if the world is to avoid turning its high seas into a 
vast ``tragedy of the commons,'' it will require a legitimate 
commitment from all fishing nations to recognize that the future of 
fishing lies not in vacuuming the life out of our seas today, but in 
responsible, forward-thinking management practices that allow fish 
populations to regenerate themselves tomorrow. I want to thank Deputy 
Secretary Negroponte, and all of our witnesses for taking the time to 
be here today to address these critical issues and to help find a way 
toward a sustainable future for the world's fish stocks and our fishing 
communities.
    Thank you, Mr. Chairman.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. John F. Kerry to 
                          Hon. John Negroponte

    Question 1. The absence of sanction measures within the Regional 
Fisheries Management Organizations (RFMOs) appears to be a significant 
challenge in enforcing any strong fisheries management measures within 
those organizations. Do you agree that this is a problem? Will the U.S. 
propose more stringent sanction measures within the RFMOs that it plays 
an active role in?
    Answer. The United States has been a leading proponent of ensuring 
that RFMOs have a comprehensive suite of tools to enforce compliance 
with agreed conservation and management measures. We developed the 
first schemes within the International Commission for the Conservation 
of Atlantic Tunas (ICCAT) to use trade measures to address actions by 
non-members whose vessels were undermining ICCAT measures. We later 
worked to expand these measures to members as well, and developed a 
process by which members would be automatically subject to quota 
reductions when they exceed their annual limits. In the Northwest 
Atlantic Fisheries Organization (NAFO), we drafted the first measures 
to restrict vessels engaging in illegal, unreported, or unregulated 
(IUU) fishing from landing or transshipping catch taken in 
contravention of NAFO rules in members' ports. Other RFMOs, including 
the Commission for the Conservation of Antarctic Living Marine 
Resources (CCAMLR) and the Inter-American Tropical Tuna Commission 
(IATTC) have since adopted similar trade or landing restrictions, and 
almost all RFMOs have adopted schemes for identifying and sanctioning 
vessels that are engaged in IUU fishing.
    But the strong tools already available within most RFMOs can only 
be effective if all parties have the will and the capacity to use them. 
While there may be additional steps we can take to strengthen and 
expand existing sanctions measures, our main concern is the lack of 
political will by all RFMO members to take the necessary actions to 
comply with agreed rules.
    Another key element is ensuring that all RFMOs develop 
comprehensive schemes to improve the monitoring, control, and 
surveillance of the fisheries under their purview. Measures intended to 
deal with compliance problems that have already occurred are most 
effective when they complement an appropriate mix of control measures 
including effective observer schemes, high seas or port inspection 
programs, catch and trade tracking systems, or transshipment 
regulations.

    Question 2. I understand that the U.S. is playing a lead role in 
negotiating a new global agreement under the auspices of the Food and 
Agricultural Organization of the United Nations (FAO) to restrict 
access to ports to vessels that cannot certify that their catch has 
been caught legally or that have a history of illegal fishing. Can you 
provide an update on those negotiations? Do you expect these agreements 
to apply to only fishing vessels, or carrier vessels as well? What 
actions can the U.S. take in the meantime--domestically as well as 
through the RFMOs--to deny access to U.S. markets to illegally-caught 
fish?
    Answer. The United States joined with other members of the Food and 
Agriculture Organization of the United Nations (FAO) in agreeing to 
negotiate a legally binding instrument on Port State Measures to 
control IUU fishing. The United States hosted an expert consultation in 
September 2007, which produced a first draft of such a treaty. This 
first draft covers all vessels--catcher vessels and carrier vessels--
that are bringing to port fish that has not been previously landed and 
sets minimum standards for port States to prohibit landing or 
transshipment of fish caught in a manner that undermines international 
conservation and management efforts. The final scope of the agreement 
will be the subject of negotiations that will begin at FAO headquarters 
in Rome in June. The goal is to produce a treaty that can be adopted at 
the next meeting of the FAO Committee on Fisheries in March 2009.
    We believe that this goal can be achieved. Most governments and 
interested stakeholders recognize the desirability of having a minimum 
set of port State controls that apply on a worldwide basis. The FAO has 
already developed a Model Scheme on Port State Measures, which has 
usefully influenced the development of port controls by individual 
nations and by regional fisheries management organizations (RFMOs). But 
a treaty would increase the chances that port States, individually and 
through RFMOs, will harmonize such controls and raise the costs of 
engaging in IUU fishing.
    In the meantime, we understand that NOAA fisheries is completing 
the final rulemaking process to ensure the United States can implement 
its commitments under the RFMO IUU vessel listing schemes to which we 
are bound. This will allow us to prevent use of--or in some cases even 
access to--our ports by listed vessels. We also helped to develop an 
expedited process by which NAFO may add IUU vessels listed by the North 
East Atlantic Fisheries Commission (NEAFC) to its IUU list, and we 
later helped to develop a similar measure in ICCAT to allow the 
reciprocal inclusion of vessels listed by any tuna RFMO on the ICCAT 
list. These measures give the United States the ability to act against 
IUU vessels identified even by organizations, such as NEAFC, to which 
the United States is not a party and substantially increase our ability 
to restrict entry of IUU-caught fish into the United States.

    Question 3. What steps is the U.S. taking within the RFMOs to 
ensure that vulnerable seafloor habitats are protected from bottom 
trawling?
    Answer. The United States, at its highest levels of government, 
recognizes that the effects of destructive fishing practices on 
vulnerable marine ecosystems (VMEs) in all parts of the oceans are a 
serious problem. As such, we strongly support the 2006 United Nations 
General Assembly resolution (61/105) that calls for specific actions by 
States and regional fisheries management organizations and arrangements 
(RFMO/As) to protect VMEs by the end of 2008. The United States has 
been a leader in protecting VMEs from significant adverse impacts 
(SAIs) of certain types of fishing activities, including bottom 
trawling, both domestically and through RFMO/As.
    The United States is party to two RFMO/As with the competence to 
regulate bottom fisheries and protect VMEs: the Commission for the 
Conservation of Antarctic Marine Living Resources (CCAMLR) and the 
Northwest Atlantic Fisheries Organization (NAFO).
    At the 2007 Annual CCAMLR Commission meeting, the U.S. proposed a 
conservation measure to implement UNGA resolution 61/105, which was 
ultimately adopted by a consensus of the Parties. The measure, which 
covers all bottom fishing activities (the use of any gear that 
interacts with the bottom), freezes the footprint of such activities to 
areas currently approved for bottom fishing through November 2008. 
Then, starting December 1, all individual bottom fishing activities are 
subject to assessment by Scientific Committee. The measure will be 
reviewed in 2008 and in 2009, and biennially thereafter, to assess its 
effectiveness.
    In NAFO, the United States participated in the development of a 
measure adopted in 2006 that resulted in the closure of four seamounts 
to all demersal gear for period of 2007-2010, with an option for 
exploratory fishing based on Scientific Committee advice. In 2007, the 
U.S. worked to secure further protections in NAFO through the 
establishment of a Coral Protection measure that closed certain areas 
to all fishing from January 2008 to December 2012. The United States 
actively participated in the recent special NAFO Intersessional Meeting 
to develop further measures for VMEs to implement resolution 61/105. We 
are pleased that at that Meeting the Parties were able to adopt a 
measure that is fully consistent with resolution 61/105. We look 
forward to working with Contracting Parties at the upcoming Annual NAFO 
Commission Meeting to further elaborate certain aspects of the measure.
    In addition, the United States is an active participant in two 
ongoing negotiations to establish regional fisheries management 
arrangements for non-highly migratory high seas fisheries in the 
Northwest Pacific and the South Pacific Ocean. In February 2007, the 
participants in the Northwest Pacific negotiations adopted a set of 
interim measures that are consistent with UNGA resolution 61/105. These 
interim measures were further strengthened in October 2007. As 
discussions continue toward a more permanent management arrangement for 
this area, the U.S. delegation has proposed expanding the scope to 
include a broader area of the North Pacific, including the area 
adjacent the U.S. EEZ off Alaska and the west coast of the continental 
United States, so that this area is not left unregulated. In May 2007, 
the United States brokered the adoption of interim measures for South 
Pacific region that are also fully consistent with resolution 61/105, 
and which will apply until permanent measures are adopted by the future 
RFMO.
    Further, the United States has continually called upon other 
nations to take similar actions within areas under their respective 
national jurisdiction, much as the United States has done and continues 
to do. The United States has the largest EEZ in the world and has taken 
very significant steps to protect VMEs, including seamounts, 
hydrothermal vents and cold-water corals, from destructive fishing 
practices, including bottom-trawling, that has adverse impacts on VMEs.

    Question 4. The European Community has proposed a certification 
scheme which would require that all seafood products imported into the 
EU receive prior certification from the appropriate flag state that the 
products are legal and that the vessel holds the necessary licenses, 
permits and quotas. Does the U.S. have any plans for implementing a 
tracing or certification system? Would a system like the EU's work for 
the United States? How do we ensure that certification systems actually 
reduces IUU fishing, rather than just directing IUU products to other 
markets without similar certification systems in place?
    Answer. In October 2007, the European Commission introduced a suite 
of proposed regulations intended to close European markets to IUU-
caught fish and strengthen tools to combat IUU fishing by vessels and 
nationals from both EU Member States and third countries. The 
centerpiece of the plan is a new requirement that all fisheries 
products imported into the EU, whether fresh, frozen, or processed, 
must be accompanied by prior certification from the flag State of the 
catching vessel that the products are legal and that the vessel 
concerned held the necessary licenses and quotas. These catch 
certificates may either be established under a bilateral arrangement or 
pursuant to a multilateral catch documentation scheme, and they will 
follow the fish or fish products throughout the market chain.
    We understand the proposals are undergoing considerable discussion 
among Member States, and support is mixed. They are now scheduled to be 
taken up by the EU Council of Fisheries Ministers in June.
    The United States has already implemented catch or trade tracking 
systems adopted by CCAMLR for toothfish species, by ICCAT and IATTC for 
frozen bigeye tuna, and by ICCAT for swordfish, as well as the tuna 
tracking program of the Agreement for the International Dolphin 
Conservation Program (AIDCP) that documents purse-seine harvested tuna 
from the time of capture forward. We are also working to implement the 
new bluefin tuna catch documentation system adopted by ICCAT. NOAA 
Fisheries has recently begun the process to incorporate these schemes 
into the U.S. International Trade Data System, the ``single window'' 
through which government agencies may collect, store, and disseminate 
all international trade data. This will allow for faster and more 
seamless import tracking of fish covered under the multilateral schemes 
above.
    We are not aware of any intention to implement a general U.S. 
fisheries import certification scheme such as the one being 
contemplated in the EU. Certainly, any such scheme would have to be 
carefully tailored to ensure that it would be consistent with our trade 
obligations, would not put an undue burden on U.S. businesses, and 
would provide a meaningful deterrent to IUU fishing.

    Question 5. I understand that discussions are underway within the 
WTO to reduce or eliminate fisheries subsidies. Can you provide us with 
an update on those negotiations? Do you believe this is an important 
step in reducing IUU fishing?
    Answer. The negotiations on fisheries subsidies are part of the WTO 
Doha Round ``rules'' negotiations, and are being conducted in a series 
of sessions taking place in Geneva on establishing a subsidies 
discipline. The Doha mandate contains, for the first time, a mandate to 
establish a set of rules to discipline fishery subsidies that 
contribute to overcapacity and overfishing, leading to the depletion of 
fish stocks around the world. In November 2007, the Chair of the 
negotiating group addressing fisheries subsidies released an ambitious 
draft text, which would prohibit a broad list of potentially harmful 
fisheries subsidies, with some exceptions (including for developing 
countries).
    If the prohibition on subsidies is strong enough, and the 
exemptions or allowable subsidies are clearly defined and appropriately 
applied within the WTO membership, then they could allow the 
international community to focus on those vessels or flag states that 
have not been following the rules or that realize incentives in acting 
outside of the agreed frameworks and management regimes. However, this 
step would only be effective if we considered it as part of a larger 
suite of measures, agreements and approaches that the United States and 
others in the international community are taking at both global and 
regional fora to address the multiple challenges associated with, and 
solutions to, IUU fishing.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                        James W. Balsiger, Ph.D.

    Question 1. Dr. Balsiger, what is the status of implementing the 
``equivalent conservation measures'' section in the reauthorized 
Magnuson-Stevens Act?
    Answer. In preparation for the first identifications of nations 
required under Section 610 (``Equivalent Conservation Measures'') of 
the Moratorium Protection Act, NOAA Fisheries has been collecting 
information from the public and will be seeking to corroborate such 
information. On March 21, 2008, NOAA Fisheries published a notice in 
the Federal Register soliciting information from the public regarding 
nations whose vessels are engaged in the bycatch of protected living 
marine resources. The information request has been circulated broadly 
within our constituent groups.
    NOAA Fisheries is also in the process of drafting a proposed rule 
for the identification and certification of nations under the 
Moratorium Protection Act. In preparation for the development of the 
proposed rule, NOAA Fisheries published an Advanced Notice of Proposed 
Rulemaking in June 2007 and the agency held several public meetings in 
July 2007 to solicit public comments on this process. The proposed rule 
that is currently under development will outline what equivalent 
conservation measures nations must have in place to address the bycatch 
of protected living marine resources in order to receive a positive 
certification. NOAA Fisheries anticipates that the rule will be 
available for public comment this summer.
    Under the authority of Section 610 of the Moratorium Protection 
Act, NOAA Fisheries has been involved in various international efforts 
to support capacity building through agreements and bodies, including 
the United Nations (UN) Fish Stocks Agreement, U.N. General Assembly 
and various regional fishery management organizations (RFMOs).
    NOAA Fisheries, in cooperation with its Federal partners, has 
assisted other nations in addressing IUU fishing activity and reducing 
the bycatch of protected living marine resources, by hosting and 
supporting workshops on techniques and tools to strengthen enforcement 
and prevent IUU fishing; on employing methods to prevent and mitigate 
the incidental take of marine turtles, mammals, seabirds, and other 
marine resources; and on the proper response to marine mammal 
strandings. NOAA Fisheries has also provided technical and other 
assistance to developing countries to improve their capabilities for 
the monitoring and control of fisheries and has sought to promote the 
development of effective fisheries observer programs in other 
countries. NOAA Fisheries will continue to reach out to other nations 
and provide the assistance and tools necessary to help them reduce the 
bycatch of protected living marine resources and increase their 
capacity for sustainable fisheries management.

    Question 2. Dr. Balsiger, what is being done to expand the capacity 
of the MCS network to developing countries?
    Answer. The Director of NOAA Fisheries Office of Law Enforcement 
(OLE) is currently serving as the Chairman of the Monitoring, Control 
and Surveillance (MCS) network and OLE is working to enhance the 
network through various initiatives including updating the MCS Network 
website, planning the 2nd Global Fisheries Enforcement Training 
Workshop, and increasing network membership. The recent addition of an 
MCS Network coordinator and ongoing efforts to hire fisheries analysts 
and a training coordinator will further improve the capabilities of the 
International MCS network in 2008.
    In April 2008, the MCS Network and NOAA Fisheries OLE participated 
in the Global Oceans Forum in Hanoi, Vietnam in an effort to increase 
membership of the network and publicize the role and opportunities the 
MCS network can provide to the Global community. The MCS Network hosted 
a workshop on illegal, unreported and unregulated (IUU) fishing during 
the Forum and fostered international dialogue on the challenges and 
potential solutions to combat IUU fishing in both developed and 
developing countries. Through this effort, contacts with MCS 
practitioners in developing countries in Africa has led to discussions 
on joint projects with the MCS Network and several African nations to 
conduct operational training and enforcement efforts in portions of 
Western Africa. Additionally, NOAA Fisheries OLE is working closely 
with NOAA Fisheries Office of International Affairs on MCS capacity 
building in Central America and is working with the MCS Network to 
increase its role in Central America.

    Question 3. Dr. Balsiger, what is being done to ensure that foreign 
nations will be prepared to meet international requirements negotiated 
pursuant to the reauthorized Magnuson Stevens Act?
    Answer. NOAA Fisheries has been diligent in communicating the 
international requirements of the Magnuson-Stevens Fishery Conservation 
and Management Reauthorization Act to other countries at every possible 
opportunity. To illustrate, NOAA Fisheries has engaged in ongoing 
communication with other nations about these requirements at workshops 
and multilateral/bilateral meetings. In addition, NOAA Fisheries has 
provided information to U.S. Commissioners of RFMOs to ensure that our 
delegations are aware of and communicate these requirements to other 
countries at international meetings. NOAA Fisheries will continue to 
take advantage of every opportunity to communicate these new 
requirements to RFMOs and other nations.
    As discussed in more detail in the response to question #1 above, 
NOAA Fisheries has also provided assistance to other nations to help 
them address IUU fishing activity and the bycatch of protected living 
marine resources. NOAA Fisheries will continue to actively work with 
other nations to help achieve the goals set forth in the international 
provisions of the Magnuson-Stevens Fishery Conservation and Management 
Reauthorization Act.

    Question 4. What are the likely effects that these requirements 
will have on the importation of seafood into the United States?
    Answer. Under the Moratorium Protection Act a vessel of a nation 
that has been identified as having vessels engaged in IUU fishing and/
or bycatch of protected living marine resources may be denied entry 
into U.S. ports to which they currently have access if such nation does 
not receive a positive certification from the Secretary of Commerce. An 
identified nation that fails to receive a positive certification may 
also be prohibited from importing certain fish or fisheries products 
into the United States or be subject to other measures.

    Question 5. What is the percentage of nations that are aware of the 
MSA requirements?
    Answer. NOAA Fisheries is making every effort to communicate these 
requirements to other countries at workshops and bilateral/multilateral 
meetings. However, it is unclear what percentage of nations is aware of 
the international requirements under Title IV of the Magnuson-Stevens 
Fishery Conservation and Management Reauthorization Act.

    Question 6. Dr. Balsiger, what steps need to be taken to further 
strengthen the relationship between NOAA and the Coast Guard to improve 
enforcement and prosecution capabilities?
    Answer. NOAA Fisheries OLE and the U.S. Coast Guard (USCG) continue 
to have a strong working relationship and routinely collaborate on 
fisheries enforcement issues. The USCG maintains a full time liaison 
position within the NOAA Fisheries OLE which greatly enhances 
communications and coordination between the two agencies. In addition, 
close coordination is routine throughout the Nation between NOAA 
Fisheries OLE field offices and staff and the USCG personnel in their 
geographic areas of responsibility. Other relationships between USCG 
legal staff, as well as operational fisheries law enforcement 
personnel, and the NOAA Office of General Counsel for Enforcement and 
Litigation (GCEL) are continuing to increase effectiveness of the two 
agencies in the arena of fisheries enforcement and prosecution.

    Question 7. Dr. Balsiger, what tools do you need to strengthen your 
ability to execute the follow-on investigation and prosecution of 
violators?
    Answer. NOAA Fisheries Office of Law Enforcement (OLE) staff, 
including 148 sworn Federal agents and officers, continues to work 
closely with international, Federal and state law enforcement partners 
in effort to detect, apprehend and prosecute those involved in the 
illegal importation of IUU product into the United States and/or its 
territories and to attack the global trade of IUU fisheries product. 
There are some tools needed to address current gaps in enforcement 
capabilities to effectively combat IUU fishing:

        Significantly increased civil monetary penalties--under many of 
        our statutes, civil penalty limits prevent assessment of 
        penalties adequate to deter illegal importation of fish product 
        into the United States. Modernization of the civil penalties to 
        a level beyond a ``cost of doing business'' is essential to 
        address illegal product being imported into the United States.

        Improved capability to share information--confidentiality 
        provisions and limitations on information sharing with 
        international fishery management organizations and the 
        governments of other nations currently reduce NOAA's ability to 
        work collaboratively with other governments to track IUU 
        product and conduct joint enforcement operations. In addition, 
        NOAA would benefit from enhanced access to data currently being 
        collected by other Federal law enforcement agencies and the 
        agencies that constitute the intelligence community. OLE is 
        already working, within its existing authority and through on-
        going initiatives (such as CBP's International Trade Data 
        System (ITDS)) to share information and collaborate with other 
        Federal agencies in the effort to detect IUU fishing but 
        additional congressional authority would assist in this effort.

        Increased criminal authority to allow for criminal fines and 
        penalties for substantive violations--An expansion of available 
        enforcement tools to allow for the option of criminal 
        prosecution of substantive violations will significantly 
        enhance the deterrent effect of enforcement actions and 
        increase the penalty level beyond a ``cost of doing business'' 
        for those engaged in illegal trade of fish and fish product.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                        James W. Balsiger, Ph.D.

    Question 1a. Fisheries management in the Pacific Northwest and 
Alaska are renowned for being some of the best-managed fisheries in the 
world. The fish, however, don't exactly recognize international borders 
in the ocean. While we often do a great job managing the fisheries 
within our borders, our fish resources are also impacted by 
irresponsible fishing outside our border How important is effective 
management of international fisheries for the U.S. fishing industry?
    Answer. Effective management of international fisheries is very 
important for the U.S. fishing industry. Effective conservation and 
management of international fisheries is very important for the U.S. 
fishing industry. Many of the marine resources of interest to the U.S. 
fishing industry are resources the United States shares with other 
nations. As a result, the United States must engage internationally to 
advance U.S. objectives for the effective conservation and management 
of the marine resources.

    Question 1b. What are the main tools and levers that we have for 
helping push for better international management? What are the main 
obstacles?
    Answer. Bilateral and multilateral arrangements through regional 
fisheries management organizations (RFMOs) are the basic tools for 
improving international fisheries management.
    Because the resources covered by these management arrangements are 
shared, Parties are cognizant that irresponsible fishing behavior has a 
destructive effect on their own fisheries and that conservation and 
management cooperation result in mutual benefits.
    One of the main obstacles in all international (as well as 
domestic) fisheries management is the availability of complete and 
reliable data on which to base conservation and management regimes. Due 
to the enormous size and remoteness of the ocean, access to data is a 
significant obstacle.

    Question 1c. Would you say that NOAA is doing enough to push for 
more effective fisheries management?
    Answer. Achieving effective international fisheries management is a 
constant challenge and NOAA strives to improve this process. For 
example, in the Pacific Northwest and Alaska, NOAA is currently 
involved in the negotiation of a Northwest Pacific RFMO to address the 
adverse effects of fishing gear on vulnerable marine ecosystems. NOAA 
is also anticipating the possible need to negotiate an Arctic RFMO to 
conserve and protect Arctic living marine resources as the ice recedes 
in the Arctic Ocean.

    Question 2a. U.S. law prohibits foreign fishing vessels and cargo 
vessels from landing their catch in U.S. ports. American Samoa, Guam, 
and the U.S. Virgin Islands are exempt from this law, so foreign cargo 
vessels that accept at-sea transshipments of fish species and foreign 
flagged fishing vessels can land product in these U.S. ports. How do we 
ensure that the fish landed at these ports were not harvested in an 
illegal, unregulated, or unreported (IUU) manner?
    Answer. Vessels are subject to NOAA Fisheries Office of Law 
Enforcement (OLE) inspection upon arrival in port in the United States' 
territories. Inspections are conducted based on the availability of law 
enforcement resources and are specifically designed to detect suspected 
IUU activity and areas for additional investigation. Enforcement action 
may be pursued by NOAA Fisheries OLE and our law enforcement partners 
at any time.
    Very few cargo (fish carriers) vessels land fish in Guam or 
American Samoa and most of those that do are used to receive fish from 
local plants. Carriers operating in the territories of the Pacific tend 
to transport fish from the fishing grounds to processing plants such as 
canneries and loining plants.
    Since there is a cannery in American Samoa, carriers occasionally 
enter port to off load. However these carriers come from other ports in 
the Pacific such as Pohnpei, Honiara, or Majuro and they do not 
typically carry fish transshipped at sea. These carriers are generally 
registered with the Forum Fisheries Agency (FFA), and thus they are 
monitored by the FFA Vessel Monitoring System (VMS). Transfers of purse 
seine caught fish at sea typically takes several days and loitering of 
a vessel equipped with VMS would be detected and investigated as 
potentially suspicious activity.

    Question 2b. Why are these locations exempt from the law that 
applies to U.S. ports?
    Answer. The Nicholson Act prohibits foreign vessels from landing 
fish in most United States' ports however it does allow for foreign 
vessels to unload in the United States' territories. It is our 
understanding that the exemption to the offloading of fish product in 
the territories was in part due to an interest in encouraging economic 
growth. NOAA is not certain of other reasons for the exemption of the 
territories from the Nicholson Act provisions which apply to all other 
U.S. ports.

    Question 2c. Do we have any idea if IUU fish are landed in these 
territories?
    Answer. IUU fish and/or fish product does come into the United 
States' territories occasionally, and NOAA Fisheries OLE and our law 
enforcement partners have utilized the provisions of the Lacey Act to 
prevent IUU fish from being introduced into the United States. As 
recently as March 2008, NOAA Fisheries OLE initiated an investigation 
of a foreign flagged vessel landing in American Samoa that was 
suspected of various illegal fishing activities. To date, this ongoing 
investigation has yielded numerous instances of IUU fishing activity by 
this vessel. However, the IUU fish landed in the United States' 
territories of the Pacific comes almost exclusively from fish 
harvesting vessels and not freight carrier vessels. NOAA Fisheries OLE 
and our law enforcement partners are aware of the potential use of 
these ports for IUU product and have used the Lacey Act successfully 
for several years to combat it. The establishment of the Western-
Central Pacific Fisheries Commission, and subsequent implementation of 
their conservation and management measures (VMS requirements, observer 
requirements, etc.), are significantly enhancing NOAA Fisheries OLE's 
ability to monitor, detect and intercept IUU activity. The current 
challenge we face is being able to adequately respond to the increased 
demands for investigation and monitoring of fishing vessel activity in 
the Western and Central Pacific area.

    Question 3a. One of the key steps necessary for achieving 
sustainable fisheries is developing management organizations with clear 
mandates, clear lines of authority, and the authority to reduce catch 
and regulate harvest. Taking a look at a global map of the world's 
international fishery management organizations, though, it seems like 
they are more like a disorganized mess. How would you grade the 
international community's success in developing management 
organizations with clear mandates and clear lines of authority to 
regulate fishing harvest?
    Answer. In most cases where an RFMO exists, there are few problems 
with lines of authority. The RFMO has the authority to make 
conservation and management decisions, and RFMO members have the duty 
to carry them out. Unfortunately, RFMOs do not always have the 
information or political support necessary to make the appropriate 
conservation and management decisions.

    Question 3b. What is the U.S. Government doing to help improve the 
situation?
    Answer. The United States has been at the forefront of efforts to 
conduct RFMO performance assessments, and several of these are being 
currently carried out. Our intention has been to call the public's 
attention to problems, such as you have identified, to help increase 
awareness and generate pressure to correct them.

    Question 3c. Can the United States play a greater role? What 
roadblocks are holding us back?
    Answer. Developing states often need assistance in meeting their 
obligations within RFMOs. Such needs can range from data collection to 
effective domestic management programs to enforcement. Title IV of the 
Magnuson-Stevens Fishery Conservation and Management Reauthorization 
Act recognizes these needs and authorizes NOAA Fisheries provide 
assistance to address them with available resources.

    Question 3d. To what extent has not ratifying the Law of the Sea 
impacted the United States' ability to participate internationally in 
these issues?
    Answer. The Status of the United States as a non-party to this 
vital treaty undermines our credibility with other major fishing 
nations, virtually all of which are parties to the Convention. The 
Administration appeals to the Senate to provide its advice and consent 
to U.S. accession to this treaty.

    Question 4a. In order to manage fisheries responsibly, we need to 
be able to track fish stocks effectively. Good, solid science is 
necessary not just to help in making wise management choices, but also 
for getting cooperation and buy-in from the fishermen who are impacted 
by those management choices. What is the United States doing to help 
coax other nations into providing better data on international fishing?
    Answer. As noted above, the United States has been working actively 
in the RFMO context to encourage other nations to provide better data 
on international fishing activities, including data on harvest and 
bycatch. NOAA Fisheries is also providing assistance and expertise to 
developing nations to improve their capacity to collect and provide 
such data.

    Question 4b. In your view, what are the countries that need to make 
the largest improvements in providing quality fisheries data?
    Answer. It is difficult to say which countries need to make the 
largest improvements in this area. We are working diligently with our 
counterparts in other nations, both bilaterally and multilaterally, to 
make such improvements. Particularly, some developing states have the 
greatest need for resources to make improvements in fisheries data 
collection.

    Question 4c. To date, little is known about the impacts of IUU 
fishing on open-ocean and deepwater ecosystems. What research is NOAA 
currently conducting to address these gaps in our knowledge?
    Answer. Understanding the ecosystem effects of fishing is a high 
priority for NOAA. Collaborating with our international partners 
through global science bodies and RFMO/As, NOAA will continue to 
examine the impact of fishing activities on non-target fish stocks, 
protected species and their related habitats. For example, NOAA plans 
to collaborate with international partners on assessments of the impact 
of bottom fishing activities in the North Atlantic, Pacific and 
Southern Oceans to ensure the protection of vulnerable marine 
ecosystems, including seamounts, deep sea corals, and hydrothermal 
vents. At a time when human activities are expanding into deeper 
waters, it is crucial to document the effect of such activities on 
seafloor habitat to provide a foundation for developing sound policy 
and making wise management decisions.

    Question 5. NOAA is currently developing a list of vessels and 
nations that engage in IUU fishing, an activity in which eight RFMO to 
which the U.S. is a party are also engaging. In a progress report 
released by your agency in January 2008, the need for consolidation of 
lists identifying IUU vessels and nations was highlighted. How is the 
development of a separate list by NOAA an effective use of scarce time 
and resources?
    Answer. Under the Moratorium Protection Act, as amended by the 
Magnuson-Stevens Act, NOAA Fisheries is required to identify and 
certify nations whose vessels are engaged in IUU fishing and/or bycatch 
of protected living marine resources. The list of identified nations 
must be included in a report to Congress that is due in January 2009.

    Question 6a. United States fishing fleets often have to deal with 
rigorous regulations to reduce bycatch of threatened or endangered 
species like humpback whales, Steller sea lions, and sea turtles. Many 
of these species, however, are threatened not just by U.S. fleets, but 
from other nations' fleets in international waters. What is the U.S. 
Government doing to convince other nations' fishing fleets to adopt 
more environmentally-sensitive fishing methods used by U.S. fleets to 
reduce bycatch?
    Answer. The United States continues to actively work within the 
international community to promote measures that will protect and 
conserve protected living marine resources from the adverse impacts of 
fisheries interactions. The United States works toward this objective 
through bilateral and multilateral engagement with other nations to 
address bycatch. The United States provides assistance and training in 
the use of bycatch reduction gear, mitigation techniques, and other 
appropriate measures. To date, U.S. efforts and RFMO actions to protect 
and conserve protected living marine resources have generally 
concentrated on the impacts of fishing on sea turtles, sharks, dolphins 
and other marine mammals. For example, together with international 
partners, like the World Wildlife Fund for Nature and the Interamerican 
Tropical Tuna Convention, we have conducted experiments with countries 
around the world to demonstrate how large circle hooks with the 
appropriate bait combination can reduce the interactions and post-
hooking mortality rates of sea turtles with longlines. NOAA Fisheries' 
scientists, together with a regional non-governmental organization, 
WIDECAST, are also conducting research on how to reduce the bycatch of 
leatherback turtles in coastal gillnets. Through NOAA's research on 
bycatch reduction, we are able to regularly export bycatch reduction 
solutions with a minimal goal of voluntary adoption of these solutions, 
which in time will hopefully lead to their support of mandatory 
measures at the RFMOs. As another example, NOAA Fisheries is actively 
engaged in capacity building in the West Africa and Central America 
regions with an emphasis on enhancing the ability of these countries to 
monitor and manage their fisheries with respect to reducing protected 
species bycatch. NOAA Fisheries recently conducted observer training in 
Ghana to enhance this country's monitoring capability.

    Question 6b. How successful is our track record in getting other 
nations' fleets to adopt bycatch-reducing fishing methods?
    Answer. NOAA Fisheries has had successes in getting other countries 
to adopt bycatch reduction technologies. Through our technology 
outreach to other countries we demonstrated to countries that using 
bycatch reduction devices, such as Turtle Excluder Devices, can reduce 
bycatch while maintaining target catch retention. Through domestic 
legislation like Public Law 101-162, and through significant technical 
outreach, nations wishing to maintain access to U.S. markets have 
adopted bycatch reduction measures in order to comply with import 
regulations for certain fisheries products. In the case of Turtle 
Excluder Devices, the United States certified 40 nations and one 
economy on May 1, 2008 as meeting the requirements of Public Law 101-
162. Of those 40 nations, 16 countries conduct operations in waters 
where shrimp trawls are likely to interact with sea turtles. Those 16 
countries met the TED standards set forth in U.S. regulations. The U.S. 
Government will continue to promote bycatch mitigation technology for 
all fisheries where proven technology exists. It is worth noting that 
P.L. 101-162 currently lacks enforcement authority and the authority to 
promulgate regulations as well as any specific language prohibiting the 
importation of embargoed product. Inclusion of such authorities and 
prohibition would allow enforcement actions to be brought in response 
to embargoed product entering the United States.

    Question 6c. If other nations don't adopt such methods and continue 
to drive endangered species toward extinction, couldn't this eventually 
threaten to close some U.S. fishing fleets under the Endangered Species 
Act?
    Answer. The United States' government believes that all countries 
should promote and use fishing practices that reduce adverse impacts on 
all living marine resources, including endangered species. Several 
endangered species are shared amongst many nations. The United States 
regularly engages countries in cooperative activities to recover 
species protected under the U.S. Endangered Species Act, especially 
species shared across national borders. The United States' government 
believes that these efforts are vital for meeting each species' 
recovery goals. Section 7 of the Endangered Species Act requires 
evaluation of the effects of Federal actions (e.g., authorization of 
Federal fisheries) on listed species, within the context of the species 
status. Thus we take into account a wide variety of activities within 
the range of the species that may affect the species.

    Question 6d. What more should we be doing, and what are the main 
impediments keeping us from being more successful in this arena?
    Answer. Increasing the capacity of other nations to address the 
management of their fisheries and to reduce the bycatch of protected 
living marine resources is vital to ensuring their recovery. It is also 
a difficult task. The United States often works with countries that do 
not have the same regulatory and financial capacities. In addition to 
our efforts, other developed nations also provide assistance in this 
regard. The United States strives to take advantage of opportunities as 
they arise and will continue to reach out to other nations to build 
capacity and export successful bycatch reduction measures.

    Question 7. A number of marine mammals that are listed as protected 
under the Endangered Species Act or that are listed as depleted under 
the Marine Mammal Protection Act are commonly involved in incidental 
takes during IUU fishing activities. Mortality associated with fishing 
has been identified as a significant factor contributing the decline of 
some of these species, such as humpback whales, sperm whales, fin 
whales, pantropical spotted dolphins, and Steller sea lions. Why has 
the National Marine Fisheries Service failed to account for mortality 
due to IUU fishing in the recovery plans for these species?
    Answer. NOAA Fisheries does not specifically address IUU fishing in 
our recovery plans mainly because it is not currently considered to be 
a significant threat for any of the species listed in the question 
above. Of the species mentioned, recovery plans exist for Steller sea 
lions (2008), sperm whales (draft--2006), fin whales (draft--2006), and 
humpback whales (1991). These plans call for monitoring of the 
populations, which would indicate if fishing interactions, including 
IUU fishing, becomes a problem. NOAA Fisheries periodically update 
recovery plans, and any new information with regard to fishery 
interactions generally, and IUU fishing in particular, would be 
reflected in the new plans.
    With regard to pantropical spotted dolphins, they are not listed 
under ESA and therefore we do not develop recovery plans for them. The 
anthropogenic factor with the greatest affect on this stock of dolphins 
is the take of these dolphins incidental to the purse seine fishery for 
yellow-fin tuna in the Eastern Tropical Pacific Ocean. This mortality 
is being addressed through conservation measures adopted by the Inter-
American Tropical Tuna Commission (IATTC) and within the United States 
through the dolphin-safe labeling standard for marketing tuna within 
the United States. The level of mortality is well documented through 
observer coverage and subsequent reports to IATTC.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. John F. Kerry to 
                        James W. Balsiger, Ph.D.

    Question 1a. I understand that NOAA is taking an active role in 
improving the international Monitoring, Control and Surveillance (MCS) 
network. Can you describe your efforts, particularly regarding actions 
to improve MCS capabilities in developing countries?
    Answer. The United States continues to play a proactive role in the 
fight against IUU fishing and is hosting the International Monitoring, 
Control and Surveillance (MCS) Network. The MCS Network is a voluntary 
organization dedicated to linking together law enforcement 
professionals from the global community to exchange information, offer 
assistance and to provide training on MCS issues. The Director of NOAA 
Fisheries Office of Law Enforcement (OLE) is currently serving as the 
Chairman of the Monitoring, Control and Surveillance (MCS) network and 
OLE is working to enhance the network through various initiatives 
including updating the MCS Network website, planning the 2nd Global 
Fisheries Enforcement Training Workshop, and increasing network 
membership. The recent addition of an MCS Network coordinator and 
ongoing efforts to hire fisheries analysts and a training coordinator 
will further improve the capabilities of the International MCS network 
in 2008.
    In April 2008, the MCS Network and NOAA Fisheries OLE participated 
in the Global Oceans Forum in Hanoi, Vietnam in an effort to increase 
membership of the network and publicize the role and opportunities the 
MCS network can provide to the Global community. The MCS Network hosted 
a workshop on illegal, unreported and unregulated (IUU) fishing during 
the Forum and fostered international dialogue on the challenges and 
potential solutions to combat IUU fishing in both developed and 
developing countries. Through this effort, contacts with MCS 
practitioners in developing countries in Africa has led to discussions 
on joint projects with the MCS Network and several African nations to 
conduct operational training and enforcement efforts in portions of 
Western Africa. Additionally, NOAA Fisheries OLE is working closely 
with NOAA Fisheries Office of International Affairs on MCS capacity 
building in Central America and is working with the MCS Network to 
increase its role in Central America.

    Question 1b. What kind of resources and capacities/authorities are 
needed to strengthen MCS?
    Answer. One of the challenges of the MCS network is that the costs 
are significantly higher than first estimated. The network's main goal 
is to make the network free to join for all members. At present only 
five members contribute to the network enhancement project. The costs 
related to running both the network and the enhancement project (costs 
beyond what the member countries contribute) fall on NOAA Fisheries 
OLE. The reauthorization of the MSA has greatly expanded OLE's role 
international capacity building and cooperation. The MCS network 
enhancement project, which was highlighted in the ministerial level 
High Seas Task Force (HSTF) final report, ``Closing the Net'', is a 
project that they fully endorsed. The HSTF report and MSRA have placed 
a very bright spotlight on the MCS enhancement project and put NOAA on 
the world stage as the leader in combating IUU fisheries.

    Question 2. The International Commission for the Conservation of 
Atlantic Tunas (ICCAT) is a showcase of the failure of regional fishery 
management organizations (RFMOs) to properly conserve global fisheries. 
ICCAT has consistently ignored the advice of its scientific committee 
on bluefin tuna and has authorized total allowable catch in the eastern 
Atlantic and Mediterranean that is twice the recommended level to 
rebuild the population. In addition, 10 years into a rebuilding plan 
for bluefin in the western Atlantic, there are so few bluefin left that 
the U.S. was unable to catch its quota last year. Does NMFS plan again 
to seek a moratorium on bluefin tuna fishing in the eastern Atlantic 
and Mediterranean until a robust rebuilding plan is adopted? Does NMFS 
support an Atlantic-wide moratorium on bluefin tuna landings?
    Answer. The adoption of appropriate new management measures and 
improving compliance in the eastern Atlantic and Mediterranean bluefin 
tuna fishery will be very high priorities of the United States at ICCAT 
this November. Both the eastern and western stocks of bluefin tuna will 
be assessed this year. The United States and other western Atlantic 
bluefin tuna harvesters have been following scientific advice with 
respect to this stock and will continue to do so. Per agreement by 
ICCAT in 2006, the management measures for the eastern bluefin tuna 
stock will be reviewed in November 2008. We fully expect that ICCAT 
will need to adopt new measures to improve the management of eastern 
bluefin tuna, including substantially reducing fishing mortality.
    Last year, compliance concerns together with the steep decline of 
the eastern stock, led the United States to propose a temporary 
suspension of the eastern bluefin tuna fishery until such time as 
countries could demonstrate control of their fisheries. Our proposal 
did not achieve consensus. Harvesters did agree to report in detail on 
their implementation of eastern bluefin tuna fishery rules before the 
2008 ICCAT meeting. The United States will review over the coming 
months the steps taken by eastern harvesters to comply with ICCAT's 
rules. It is too early to say where that review will lead us.
    Notably, ICCAT does have instruments that allow for the application 
of penalties, including quota reductions and multilateral trade 
restrictive measures, under certain circumstances. We strongly support 
the use of such instruments where appropriate. Further, we expect more 
robust compliance discussions at ICCAT this year as a member of the 
U.S. Delegation to ICCAT now chairs the Compliance Committee.

    Question 3. Electronic documentation can reduce the potential for 
abuse of documentation systems, improve the speed at which information 
can be exchanged and reduce the compliance burden on legitimate 
operators and regulatory authorities. Does NOAA anticipate that the IUU 
certification scheme as mandated under the Magnuson Stevens 
reauthorization will include a comprehensive, electronic catch 
documentation system that traces product from the point of harvest to 
consumer?
    Answer. One important development that should improve NOAA's 
ability to detect IUU fish being imported into the United States is the 
International Trade Data System (ITDS) currently under development by 
the Department of Homeland Security (Customs and Border Patrol). ITDS 
is an integrated, government-wide system for the electronic collection, 
use, and dissemination of trade data. The Safe Ports Act of 2006 made 
ITDS mandatory for all Federal agencies that have a role in determining 
the admissibility of imports to the U.S. market and NOAA Fisheries has 
taken steps to become a participating government agency in ITDS.
    Currently, NOAA Fisheries administers several trade monitoring 
programs under the authority of various statutes and international 
agreements. ITDS will significantly improve the capability of NOAA 
Fisheries to enforce trade measures and documentation requirements of 
these programs. Currently, NOAA Fisheries may not learn of import 
violations related to permitting, documentation and reporting 
requirements until long after they have occurred, making their 
investigation and forfeiture of product difficult or impossible. ITDS 
will allow screening and targeting of inbound shipments, potentially on 
a pre-arrival basis. Such capability will place NOAA Fisheries in a 
position to approve entries of product into the United States or to 
place holds on shipments when permits and/or documentation are missing. 
Close interagency coordination through the ITDS will help ensure the 
detection of potential IUU shipments of fish and fish products as well 
as the effective and consistent application of import regulations.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                        James W. Balsiger, Ph.D.

    Question 1. Last month I introduced a Senate Resolution 456, 
calling for the U.S. to enter into bilateral negotiations with Canada 
to come to an agreement on regulations to protect endangered whales 
from entanglement in fishing gear. NMFS has issued new regulations that 
will have a drastic impact on Maine's lobster industry, imposing costs 
of $10-$15,000 per fisherman to re-equip their gear. Meanwhile, the 
Canadian lobster industry, fishing just across the Maritime Boundary 
Line and interacting with the same whales, operates with no comparable 
restrictions. This reduces the effectiveness of our own regulations and 
allows Canada's fishermen to operate at a distinct competitive 
advantage over our fleet. Has NMFS made any effort to engage the 
Canadians on this issue? If so, why has it been so difficult to come to 
any agreement?
    Answer. NMFS has made an effort to engage the Canadians on the 
development of conservation measures to address both gear and vessel 
interactions with large whales. NMFS Northeast Regional Office and 
Canada's Division of Fisheries and Oceans (DFO) Maritime Region has 
established a Species at Risk Working Group (Group) to address 
transboundary protected species issues. The Group reports to an 
overarching Transboundary Resources Steering Committee co-chaired by 
NMFS Northeast Regional Administrator and the DFO Directorate for the 
Maritimes Region. The Group met via teleconference on December 4, 2007 
to develop a work plan for 2008. The Group agreed to:

        1. Identify issues that would require consultation by each 
        country;

        2. Identify when each country should consult with one another 
        (being mindful of each countries processes);

        3. Develop a protocol for how each country will consult with 
        one another, both on a formal and informal basis; and

        4. Update the transboundary species at risk table, which 
        identifies all transboundary stocks covered by the U.S 
        Endangered Species Act (ESA) and Canada's Species at Risk Act 
        (SARA). The list also provides useful information concerning 
        where the species is with respect to each country's listing 
        process.

    The Group is currently working with its respective staffs to 
address these issues. At its next meeting, the Group will review their 
findings and develop a strategy for the Steering Committee's 
consideration, which will identify how the Group intends to address 
these communication-type issues. The Group intends to meet in late 
summer 2008.
    The Group also provided updates on various transboundary marine 
mammal and protected species issues. Of particular interest was the 
update on the Canadian Right Whale Recovery Strategy. The Recovery 
Potential Assessment (RPA) for right whales was completed in February 
2007. This science based process provided the analysis required to 
complete several components of the draft Recovery Strategy. The 
Recovery Strategy is expected to be finalized in early 2008. The 
Recovery Strategy is analogous to NMFS' Right Whale Recovery Plan under 
ESA. DFO reported that at its next Canadian Right Whale Recovery Team 
meeting, the Team would be moving forward to identify strategies for 
reducing right whale interactions with lobster gear and right whale 
avoidance strategies for reducing vessel strikes. The Team is very 
interested in NMFS input into these strategies. The Canadian Right 
Whale Recovery Team met in March 2008 and is investigating additional 
industry based meetings in collaboration with International Fund for 
Animal Welfare Canada to discuss education and outreach efforts 
concerning large whale entanglements with commercial fishing gear.

    Question 2. In recent years, demand for bluefin tuna has 
skyrocketed, leading to vastly increased pressure to catch these fish, 
some of which can retail for tens of thousands of dollars per fish. In 
New England, bluefin has been a profitable fishery for decades, but 
since a brief boom period in the late 1990s and early 2000s, our catch 
history has suddenly plummeted to historic lows. Maine's fishermen 
landed just 9.1 metric tons in 2006, barely 5 percent of what they 
caught less than a decade prior. And for several years running the U.S. 
has been unable to land the quota afforded to it by the International 
Convention on the Conservation of Atlantic Tunas. Meanwhile, the 
European Community and others are harvesting more than their quotas--
effectively taking the fish that if left to mature could resupply the 
U.S. fishery. What actions does the U.S. intend to undertake at the 
next meeting of ICCAT to prevent the further decimation of this vital 
U.S. industry?
    Answer. Both the eastern and western stocks of bluefin tuna will be 
assessed this year. The United States and other western Atlantic 
bluefin tuna harvesters have been following scientific advice with 
respect to this stock and will continue to do so. Current management 
measures for the eastern bluefin tuna stock, however, are not 
consistent with scientific advice. Per agreement by ICCAT in 2006, the 
management measures for this stock will be reviewed in November 2008. 
We fully expect that ICCAT will need to adopt new measures to improve 
the management of eastern bluefin tuna, including substantially 
reducing fishing mortality. The adoption of appropriate and effective 
new management measures is a very high priority of the United States. 
Given mixing between the eastern and western bluefin tuna stocks, 
management measures that are set in line with scientific advice and 
adhered to should benefit the western stock and fishery.
    Compliance in the eastern fishery, however, has been poor over the 
years. Improving compliance in this fishery continues to be a high 
priority for the United States. We expect more robust compliance 
discussions at ICCAT this year as a member of the U.S. Delegation to 
ICCAT now chairs the Compliance Committee. The United States will 
review over the coming months the steps taken by eastern harvesters to 
comply with ICCAT's rules. While it is as yet too early to say where 
that review will lead us, ICCAT does have instruments that allow for 
the application of penalties, including quota reductions and 
multilateral trade restrictive measures, under certain circumstances. 
We strongly support the use of such instruments where appropriate.

    Question 3. States such as the U.S., Canada, and Japan have, for 
the past quarter century, adhered to a stringent management regime for 
bluefin tuna in the western Atlantic. Meanwhile, nations fishing in the 
East Atlantic and Mediterranean Sea have over-exploited their 
resources, and now their overfishing seems to be impacting our harvest 
here in the western Atlantic despite our conservation efforts. Despite 
the fact that we have a long history of responsible, sustainable 
fishery management in direct contrast to our counterparts across the 
Atlantic, there are some in the environmental community who would 
suggest that the western Atlantic nations should give the Eastern 
states additional effort reduction in order to convince them to adhere 
to stricter conservation standards as well--effectively ignoring all 
the cuts our fishermen have taken in years past and rewarding the 
easterners for their bad behavior. Does the U.S. plan to offer 
reductions in our effort to catch bluefin tuna at the next ICCAT 
meeting in hopes of gaining similar concessions from nations fishing 
the eastern and Mediterranean stock? If so, doesn't this simply add 
insult to the injury our fishermen have already received and reward the 
bad actors for continuing to flout the rules of the Convention?
    Answer. The new assessments for both stocks of bluefin tuna will be 
completed in early July 2008. The United States will press ICCAT to 
adopt new measures for the eastern stock that are consistent with 
scientific advice. Such action must be taken regardless of what the 
scientific advice may be for the western stock. As noted, the United 
States and other western harvesters have consistently followed the 
science for the western bluefin tuna stock. The U.S. Delegation will do 
everything possible to protect U.S. interests with respect to bluefin 
tuna and other ICCAT species this November.

    Question 4. The most recent reauthorization of the Magnuson-Stevens 
Fishery Conservation and Management Act includes language authorizing 
the Secretary of State to identify and impose trade restrictions 
against states known to engage in Illegal, Unregulated, and Unreported 
fishing. While the language includes a 2-year buffer, meaning 
implementation is not required until January 2009, in the case of 
bluefin tuna, the 2008 meeting of ICCAT will be critical to future 
management of this dwindling fish stock, and the threat of listing or 
sanctions for nations who are ignoring their responsibilities under the 
Convention could be a vital tool in our effort to establish a 
responsible, scientifically-supported international management program. 
Would State Department action such as described above be helpful to 
your cause as you attempt to protect U.S. access to bluefin tuna 
stocks, and ensure that other nations cease over-harvesting of the 
species?
    Answer. For clarification, the Magnuson-Stevens Fishery 
Conservation and Management Reauthorization Act (MSRA) established new 
requirements for the Secretary of Commerce, in consultation with the 
State Department, to combat illegal, unreported, or unregulated (IUU) 
fishing and help reduce the bycatch of protected living marine 
resources. Among the Act's requirements, the Secretary of Commerce must 
identify in a biennial report to Congress those nations whose vessels 
are engaged in IUU fishing or bycatch of protected living marine 
resources. Subsequently, the Secretary of Commerce must certify whether 
the identified nations have taken appropriate corrective action to 
address such activities. The first biennial report is due to Congress 
in January 2009.
    In preparation for the first identifications, NOAA Fisheries has 
been collecting information from the public and will be seeking to 
corroborate such information. On March 21, 2008, NOAA Fisheries 
published a notice in the Federal Register soliciting information from 
the public regarding nations whose vessels are engaged in IUU fishing 
and bycatch of protected living marine resources. The information 
request has been circulated broadly within our constituent groups. At 
this stage, it is too early to tell what the results of our information 
review will be. If any information comes to light through this process 
that is of concern, NOAA Fisheries would be prepared to use it 
bilaterally, at ICCAT or in other international fora as appropriate.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                          Hon. David A. Balton

    Question 1. What is the Administration doing to level the playing 
field on the high seas for our domestic fishing fleets which are 
regulated under the Magnuson-Stevens Act and are disadvantaged compared 
to the unregulated foreign high seas fleets?
    Answer. We recognize that effective international fisheries 
management is critical to the U.S. fishing industry and other 
stakeholder groups, both for achieving sustainable fisheries world-wide 
and for creating a level economic playing field for U.S. fishing 
industries.
    The United States works bilaterally, regionally, and globally to 
strengthen international fisheries governance, sustainably conserve and 
manage fisheries resources, protect vulnerable marine species and 
habitats, and to combat IUU fishing. Through RFMOs we are seeking 
stronger monitoring, control, and surveillance measures, including 
broader access to data from vessel monitoring systems, increased vessel 
observer programs, stronger documentation schemes, and the adoption of 
controls and standards to regulate the landing and transshipment of 
fish in port, and advocating for stricter adherence to scientific 
advice when adopting conservation and management measures. We are also 
pressing for performance reviews to assess how well RFMOs are meeting 
their mandates and to identify how each could strengthen its 
functioning. At the global level, the United States is working actively 
through international organizations, such as the United Nations and the 
U.N. Food and Agriculture Organization (FAO), to press for strengthened 
and more effective implementation of agreed international rules and 
instruments and to develop technical guidance that will ensure 
consistent application of standards across RFMOs and oceans.
    Further, in areas of the world where RFMOs do not yet exist, the 
United States is taking a leadership role in the negotiations to 
establish new fisheries management organizations. Such negotiations are 
underway in the Northwest Pacific and the South Pacific for currently 
unregulated non-highly migratory species. In both of these 
negotiations, the United States is pressing for modern agreements that 
are consistent with the established principles of international law, as 
outlined in the 1982 U.N. Convention on the Law of the Sea, and that 
reflect the conservation and management objectives established by the 
1995 U.N. Fish Stocks Agreement and other related instruments.

    Question 2. Mr. Balton, what efforts has the international 
community taken in recent years in the Pacific to address sea turtle 
bycatch? Have any other countries followed the leadership of the 
longliners in the Pacific and adopted their techniques?
    Answer. The international community, which together faces many 
challenges in managing fisheries target species, has in recent years 
devoted attention and resources to reducing sea turtle bycatch, largely 
as a result of U.S. leadership. However, the work accomplished to date 
is really only the beginning and much additional work and follow 
through will be required. A number of nations are now in the process of 
undertaking new gear and research trials to develop fishing gear 
modifications and to identify mitigation techniques most appropriate 
for their fisheries and their regions. With regard to one significant 
success, through bilateral outreach, multilateral coordination and 
participation in regional fishery management organizations (RFMOs), the 
United States has been able to promote the importance, ease of use and 
effectiveness of circle hooks and bait combinations in longline 
fisheries. While few nations other than the United States currently 
require the use of circle hooks in their shallow set longline 
fisheries, many countries have agreed to carry de-hooking equipment, 
perform gear trials, consider requirements for circle hooks in future 
management strategies and participate cooperatively in RFMOs where sea 
turtle conservation and management measures have or may soon be 
adopted. Last year, the Inter-American Tropical Tuna Convention (IATTC) 
adopted a U.S. proposal to mitigate the impact of tuna fishing on sea 
turtles. Additionally, the United States also participated in 
discussions regarding a conservation and management measure for sea 
turtles in the Western and Central Pacific Fisheries Commission and 
will lead efforts to develop a proposal that may be adopted by that 
Commission later this year.
    Coordinated international efforts to reduce sea turtle bycatch in 
fisheries are supported by U.S. participation in meetings of 
multilateral bodies that address the management challenges of sea 
turtle conservation across a broader range of issues in addition to 
fisheries, including those of habitat protection, scientific research 
and recovery strategies. These organizations and forums include the 
Indian Ocean- Southeast Asia Marine Turtle Memorandum of Understanding, 
the Inter-American Convention for the Protection and Conservation of 
Sea Turtles, the International Fishers Forum and the Annual Symposium 
on Sea Turtle Biology and Conservation. Additionally, the Convention on 
Migratory Species may soon begin discussions on the development of a 
multilateral Memorandum of Understanding focused specifically on sea 
turtle conservation in the Pacific Ocean. Forums such as these increase 
the ability of the international community to effectively reduce sea 
turtle bycatch as they provide opportunities for nations to share new 
gear technologies and lessons learned as well as coordinate research, 
outreach and regional workshops. Through these cooperative efforts the 
international community will continue to take meaningful steps and will 
undoubtedly be successful at further reducing sea turtle bycatch.

    Question 3. The United States is a world leader in efforts to 
reduce bycatch mortality, not only in application, but also in research 
and development. What efforts are being taken to distribute this 
knowledge and resources to the rest of the world?
    Answer. Representatives from the United States travel around the 
world, conducting workshops, participating in gear trials, sharing 
research and distributing modified fishing gear such as circle hooks. 
During the last calendar year, the United States participated in 
several turtle excluder device (TED) workshops, provided support funds 
and in kind assistance for training and technology transfer, and sent 
thousands of circle hooks to regions, such as South America and the 
Pacific Islands. U.S. scientists and gear specialists actively 
participate in international conferences, workshops and the scientific 
committees or related bodies of RFMOs where they are able to share 
recent findings, encourage collaborative research and promote effective 
mitigation techniques with a global audience. The United States also 
partners with local organizations to build regional capacity while 
undertaking some of the burden of monitoring fisheries interactions 
with non-target species and conducting rigorous gear trials.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                          Hon. David A. Balton

    Question 1. Last month I introduced a Senate Resolution 456, 
calling for the U.S. to enter into bilateral negotiations with Canada 
to come to an agreement on regulations to protect endangered whales 
from entanglement in fishing gear. NMFS has issued new regulations that 
will have a drastic impact on Maine's lobster industry, imposing costs 
of $10-$15,000 per fisherman to re-equip their gear. Meanwhile, the 
Canadian lobster industry, fishing just across the Maritime Boundary 
Line and interacting with the same whales, operates with no comparable 
restrictions. This reduces the effectiveness of our own regulations and 
allows Canada's fishermen to operate at a distinct competitive 
advantage over our fleet. Does the Department of State have any plans 
to discuss a bilateral whale conservation agreement with Canada? Do you 
agree that such negotiations would make sense given the cost of the new 
regulations we are imposing on our domestic industry? I understand that 
there is precedent for such bi-lateral agreements such as the Pacific 
Salmon Treaty which manages shared salmon stocks on the Pacific coast.
    Answer. The Department of State agrees it would be useful and 
appropriate to have complementary approaches with Canada in whale 
conservation, particularly with respect to North Atlantic right whales. 
We understand that Canada has already implemented certain measures to 
reduce ship strikes, and that National Marine Fisheries Service (NMFS) 
personnel have approached their Canadian counterparts over the years to 
engage further on right whale conservation. Through our regular 
communication channels, we will work with NMFS and Canadian officials 
to implement the most efficient bilateral means to protect this and 
other whale species along our coasts, including the possibility of a 
formal agreement.

    Question 2. In recent years, demand for bluefin tuna has 
skyrocketed, leading to vastly increased pressure to catch these fish, 
some of which can retail for tens of thousands of dollars per fish. In 
New England, bluefin has been a profitable fishery for decades, but 
since a brief boom period in the late 1990s and early 2000s, our catch 
history has suddenly plummeted to historic lows. Maine's fishermen 
landed just 9.1 metric tons in 2006, barely 5 percent of what they 
caught less than a decade prior. And for several years running the U.S. 
has been unable to land the quota afforded to it by the International 
Convention on the Conservation of Atlantic Tunas. Meanwhile, the 
European Community and others are harvesting more than their quotas--
effectively taking the fish that if left to mature could resupply the 
U.S. fishery. Why have U.S. efforts been so ineffective in the past? 
What should we be doing differently?
    Answer. We remain very concerned by the declines in bluefin tuna 
Atlantic-wide, and by the apparent impact that overfishing elsewhere is 
having on U.S. fisheries. The United States and other Western Atlantic 
harvesters have consistently adopted management measures for bluefin 
tuna in the Western Atlantic that are in line with the advice of 
ICCAT's Standing Committee on Research and Statistics. The situation in 
the Eastern Atlantic and Mediterranean is very different. Management 
measures adopted for this fishery have time and again been inconsistent 
with the scientific advice, and many years of poor monitoring and 
control has ensured that even these inadequate measures have not been 
respected.
    The United States led development of the Western Atlantic 
rebuilding plan that was adopted by ICCAT in 1998, and we have also 
spearheaded initiatives within ICCAT to impose consequences on ICCAT 
members who do not follow the rules. Unfortunately, too many other 
ICCAT members have lacked the political will to adopt and implement 
meaningful conservation measures. We have been working to get other 
members to recognize the seriousness of the status of bluefin tuna 
Atlantic-wide and the urgent need for ICCAT to act. We are also hopeful 
that changes in the functioning of ICCAT's Compliance Committee called 
for by both the new Chairman of the Commission and the new U.S. chair 
of the Compliance Committee itself will result in ICCAT finally 
undertaking a comprehensive review of member compliance at the next 
annual meeting.

    Question 3. States such as the U.S., Canada, and Japan have, for 
the past quarter century, adhered to a stringent management regime for 
bluefin tuna in the western Atlantic. Meanwhile, nations fishing in the 
East Atlantic and Mediterranean Sea have over-exploited their 
resources, and now their overfishing seems to be impacting our harvest 
here in the western Atlantic despite our conservation efforts. Despite 
the fact that we have a long history of responsible, sustainable 
fishery management in direct contrast to our counterparts across the 
Atlantic, there are some in the environmental community who would 
suggest that the western Atlantic nations should give the Eastern 
states additional effort reduction in order to convince them to adhere 
to stricter conservation standards as well--effectively ignoring all 
the cuts our fishermen have taken in years past and rewarding the 
easterners for their bad behavior. Does the U.S. plan to offer 
reductions in our effort to catch bluefin tuna at the next ICCAT 
meeting in hopes of gaining similar concessions from nations fishing 
the eastern and Mediterranean stock? If so, doesn't this simply add 
insult to the injury our fishermen have already received and reward the 
bad actors for continuing to flout the rules of the Convention?
    Answer. The situations in the western and eastern Atlantic are 
linked by our insistence that management measures in place for both 
must be consistent with the best available scientific advice on what 
will allow bluefin tuna stocks to rebuild to sustainable levels. As we 
work with our partners in NOAA Fisheries to develop U.S. positions for 
this fall's ICCAT annual meeting, we will ensure that they reflect the 
results of the upcoming bluefin stock assessment to be done in July. 
But we will insist on the strongest possible measures for the eastern 
Atlantic and Mediterranean fishery regardless of the outcome of the 
western stock assessment.

    Question 4. The most recent reauthorization of the Magnuson Stevens 
Fishery Conservation and Management Act includes language authorizing 
the Secretary of State to identify and impose trade restrictions 
against states known to engage in Illegal, Unregulated, and Unreported 
fishing. While the language includes a 2-year buffer, meaning 
implementation is not required until January 2009, in the case of 
bluefin tuna, the 2008 meeting of ICCAT will be critical to future 
management of this dwindling fish stock, and the threat of listing or 
sanctions for nations who are ignoring their responsibilities under the 
Convention could be a vital tool in our effort to establish a 
responsible, scientifically-supported international management program. 
Why has the Department of State failed to implement these policies? Do 
you plan to list or threaten to list any nations engaged in IUU fishing 
prior to the next ICCAT meeting slated for November 2008?
    Answer. The reauthorized Magnuson Stevens Act contains a number of 
new international fisheries provisions, including a process by which 
the Secretary of Commerce, in consultation with the Secretary of State, 
may identify Nations whose vessels are engaging in IUU fishing or other 
fishing that results in bycatch of protected species beyond certain 
standards. The Department has been working closely with NOAA as they 
work to implement these provisions as quickly as possible. In the 
meantime, we have begun collaborating to gather and follow up on 
information about nations whose vessels may be engaging in IUU fishing 
or bycatch of protected resources. We agree that this process provides 
us with a valuable opportunity to gather additional information that 
may be useful in our bilateral outreach and at the ICCAT Annual Meeting 
this fall.

    Question 5. The most recent report on global fish production from 
the United Nation's Food and Agriculture Organization shows that 
today's fish harvests are larger than ever before, yielding over 154 
million tons of fish in 2005 alone. That same report estimates that 77 
percent of the world's fish stocks are being fished at levels either at 
or in excess of their maximum sustainable limits. As technology allows 
vessels to catch more fish with less effort, and as landings close in 
on their maximum sustainable levels, we will invariably be faced with a 
problem of too many fishermen chasing too few fish to sustain their 
livelihoods. This problem is exacerbated by fisheries subsidies. Japan, 
for example, spends approximately $750 million annually subsidizing its 
fishing fleet and the European Union over $530 million. The U.S., by 
contrast, averages just $24 million annually, much of which is 
specifically targeted to capacity reduction programs such as vessel 
buybacks and loans. The U.S. Trade Representative is advocating the 
elimination of these harmful subsidies, and that their efforts are 
supported by the UN's Food and Agriculture Organization. Specifically 
what efforts has the U.S. taken at the international level to 
discourage the use of harmful fisheries subsidies? What effect have 
these efforts had on the targeted fisheries?
    Answer. Negotiations on fisheries subsidies are part of the WTO 
Doha Round ``rules'' negotiations, and are being conducted in a series 
of sessions taking place in Geneva on establishing a subsidies 
discipline. The Doha mandate contains, for the first time, a mandate to 
establish a set of rules to discipline fishery subsidies that 
contribute to overcapacity and overfishing, leading to the depletion of 
fish stocks around the world. In November 2007, the Chair of the 
negotiating group addressing fisheries subsidies released an ambitious 
draft text, which would prohibit a broad list of potentially harmful 
fisheries subsidies, with some exceptions (including for developing 
countries). It is not clear how long the negotiations may take, as they 
will be subject to the overall progress made in the larger context of 
the Doha Round.
    If the prohibition on subsidies is strong enough, and the 
exemptions or allowable subsidies are clearly defined and appropriately 
applied within the WTO membership, then they could allow the 
international community to focus on those vessels or flag states that 
have not been following the rules or that realize incentives in acting 
outside of the agreed frameworks and management regimes. However, this 
step would only be effective if we considered it as part of a larger 
suite of measures, agreements and approaches that the United States and 
others in the international community are taking at both global and 
regional fora to address the multiple challenges associated with, and 
solutions to, IUU fishing.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                     Rear Admiral Arthur E. Brooks

    Question 1. Rear Admiral, I understand the Coast Guard leverages 
VMS resources in the North Pacific, enabling more effective 
international fisheries enforcement in that region. What is the Coast 
Guard doing to increase utilization and access of VMS in the Western 
and Central Pacific Region? What are the impediments to expanding Coast 
Guard access to VMS feeds internationally? What alternatives are 
available to the Coast Guard to increase its Maritime Domain Awareness 
when access to VMS data is not available?
    Answer. The Coast Guard continues to establish comprehensive 
Maritime Domain Awareness (MDA) to inform decisions on how best to 
employ finite resources to deter the threat of Illegal, Unregulated, 
Unreported (IUU) fishing. MDA is enhanced through application of 
technologies such as Vessel Monitoring Systems (VMS). VMS refers to 
satellite-based ship tracking systems used as part of a living marine 
resources regulatory regime.
    NOAA has implemented VMS requirements as a critical component of 
many domestic fishery management plans. The Coast Guard has real-time 
access to this data under the authority of the Magnuson-Stevens Fishery 
Conservation and Management Act (MSFCMA). VMS requirements are also 
being increasingly adopted through international fishery agreements. 
For example, the Pacific Forum Fishery Agency requires that foreign 
fishing vessels seeking to fish within member Exclusive Economic Zones 
(EEZs) must carry operable VMS. In the Fourteenth Coast Guard District, 
we have executed agreements with Pacific Forum Fishery Agency countries 
to gain near-real time access to this VMS position data. The Coast 
Guard can see the movement of many U.S. and foreign-flagged vessels 
operating in the non-contiguous U.S. EEZs of the Pacific, which 
provides us with improved visibility on what is happening in this 
geographically expansive area. VMS is also a provision of other 
Regional Fisheries Management Organizations' (RFMO) management schemes, 
including the Central Bering Sea ``Donut Hole'' Convention and the 
Western and Central Pacific Fisheries Commission. Relaxation of the 
data confidentiality provisions in the MSFCMA to allow for sharing data 
with RFMOs and other nation's enforcement agencies would allow the U.S. 
to participate more fully in centralized vessel monitoring and trade 
tracking schemes.
    VMS alone is not enough to maintain effective MDA for IUU 
enforcement. VMS is not infallible; as it is not part of every 
management measure nor on board every potential IUU vessel. The Coast 
Guard is able to close this gap in some key areas by utilizing national 
resources to monitor foreign fishing vessel activity.

    Question 2. What resources are needed to increase the Coast Guard's 
maritime domain awareness so you can more effectively patrol, enforce, 
and target illegal, unreported, and unregulated fishing on the high 
seas?
    Answer. Enforcement of international fisheries management schemes 
is a mission largely conducted by the Coast Guard Deepwater and large 
legacy cutters assets. Access to most of the eight non-contiguous U.S. 
EEZs in the Western and Central Pacific require several days to over a 
week in transit time for a cutter departing the nearest Coast Guard 
base. The centerpiece of the Coast Guard's future capabilities to 
address a projected increase in IUU threat and secure our Nation's 
maritime borders is the Integrated Deepwater System. The Deepwater 
acquisitions are designed to enhance the Coast Guard's ability to 
enforce international and domestic living marine resources regulations 
in the U.S. EEZ and on the high seas.
    The Coast Guard needs to replace aging vessels, aircraft, and shore 
infrastructure, and sustain these assets during recapitalization. The 
cost of maintaining and operating out-dated assets is continually 
increasing, as are major unplanned maintenance evolutions and 
reductions in readiness. Lost cutter days within the legacy deepwater 
cutter fleet continue to mount. During the last 2 years, an average of 
400 scheduled deployment days was lost in the Pacific Area due to 
unplanned maintenance and engineering casualties. Ultimately, the 
future operational success of the Coast Guard to help combat the global 
threat of IUU fishing is dependent upon a comprehensive 
recapitalization of front line assets and shore and support 
infrastructure. We can provide a comprehensive briefing on our 
recapitalization plans and programs if helpful.

    Question 3. What effect will the delays in the Deepwater 
acquisition have on the Coast Guard's ability to patrol the extensive 
Western Pacific EEZ?
    Answer. The majority of patrols conducted in the Western Pacific 
are completed by the two 110' patrol boats and the 225' buoy tender 
assigned in Guam. Any delays in the Deepwater program have no impact on 
these vessels ability to patrol in the Western Pacific EEZ.
    The patrols of these smaller cutters are occasionally augmented by 
High Endurance Cutters and Medium Endurance Cutters on an as needed 
basis based upon operational requirements in the Western Pacific EEZ.

    Question 4. I understand that the Unmanned Aerial Systems (UAS) 
program has been put on hold under Deepwater. What was the Coast 
Guard's plan for using the UAS for fisheries enforcement?
    Answer. Unmanned Aerial Systems (UAS) would provide long range 
persistent surveillance that, when coupled with an end-game asset 
(i.e., surface ship), would provide detection and monitoring capability 
and the means to execute an effective on scene presence to conduct 
fisheries enforcement. We are evaluating alternatives for future UAS 
capabilities.

    Question 5. Rear Admiral Brooks, what would the United States gain 
by ratifying the United Nations Convention on Law of the Sea? How would 
this enhance our ability to address illegal, unreported, and 
unregulated fishing?
    Answer. The U.S. Government would reap significant dividends by 
ratifying the United Nations Convention on Law of the Sea (UNCLOS), 
particularly with respect to combating Illegal, Unreported, Unregulated 
(IUU) fishing. UNCLOS promotes an economically and environmentally 
balanced fisheries management regime, something of vital importance to 
the United States. UNCLOS provisions on fisheries management are 
entirely consistent with U.S. domestic fisheries laws as well as U.S. 
international fisheries agreements and understandings. UNCLOS also 
imposes basic obligations of environmental protection and species 
preservation on all member states. The international framework 
applicable to the treaty continues to evolve and strengthen protection 
of aquatic resources.
    Absent ratification, it is challenging for the U.S. Government to 
credibly participate in the evolution of IUU fishing counter-measures 
and to make our voice heard on these issues because UNCLOS is the 
international legal instrument that established the overall structure 
for international fisheries management. Without accession, the U.S. 
Government will continue to silence its otherwise considerable voice in 
international oceans and IUU discussions among parties to UNCLOS, and 
we will unnecessarily restrict our ability to enforce the elements of 
UNCLOS that are in the interest of the U.S. Government. Ratifying 
UNCLOS would demonstrate the U.S. Government's global commitment to the 
fight against IUU fishing.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                     Rear Admiral Arthur E. Brooks

    Question 1. U.S. law prohibits foreign fishing vessels and cargo 
vessels from landing their catch in U.S. ports. American Samoa, Guam, 
and the U.S. Virgin Islands are exempt from this law, so foreign cargo 
vessels that accept at-sea transshipments of fish species and foreign 
flagged fishing vessels can land product in these U.S. ports. How do we 
ensure that the fish landed at these ports were not harvested in an 
illegal, unregulated, or unreported (IUU) manner? Why are these 
locations exempt from the law that applies to U.S. ports? Do we have 
any idea if IUU fish are landed in these territories?
    Answer. Coast Guard expertise resides in our authority, competency, 
and capability to conduct at-sea enforcement for Federal laws and 
regulations. Accordingly, the Coast Guard is not in a position to 
address regulations related to landing requirements and recommends you 
contact the Department of Commerce for further information.

    Question 2. One of the key steps necessary for achieving 
sustainable fisheries is developing management organizations with clear 
mandates, clear lines of authority, and the authority to reduce catch 
and regulate harvest. Taking a look at a global map of the world's 
international fishery management organizations, though, it seems like 
they are more like a disorganized mess than a system with clear lines 
of authority to regulate international fishing. How would you grade the 
international community's success in developing management 
organizations with clear mandates and clear lines of authority to 
regulate fishing harvest? How would you grade the international 
community's success in defining clear lines of responsibility and 
authority for effective fisheries enforcement in international waters? 
Do the international regional fishery management organizations do an 
effective job giving the U.S. Coast Guard a clear picture of the 
jurisdictions for international fisheries regulation and enforcement, 
and where the U.S. Coast Guard should operate within them? To what 
extent has not ratifying the Law of the Sea impacted the United States' 
ability to participate internationally in these international fishery 
management issues? Has it hurt our ability to play a clear and 
effective role in this arena?
    Answer. The Coast Guard applauds and supports the National Oceanic 
and Atmospheric Administration (NOAA) and the State Department in their 
efforts to bring additional tools to bear on combating Illegal, 
Unregulated, Unreported (IUU) fishing, such as the application of Port 
State Measures to deter IUU importation, implementation of Catch 
Documentation Schemes, and development of an International Trade Data 
System. These tools help restrict market access for IUU product, 
thereby making IUU activity less profitable. However, at-sea 
enforcement and the ability to deliver consequences to those found 
directly engaged in illegal fishing activity remains a critical element 
of the overall U.S. Government effort to address the IUU threat, as 
outlined in the U.S. National Plan of Action to Prevent, Deter, and 
Eliminate IUU Fishing.
    The Coast Guard is dedicated to supporting multilateral efforts to 
bolster legal regimes that deter IUU and deliver consequences to 
violators. Considering maritime initiatives and policies as part of a 
larger system enables a better understanding of their inter-
relationships and effectiveness. A well designed system of regimes 
creates the opportunity for mutually supporting domestic and 
international regulations. Together, they provide a comprehensive 
system of maritime governance.
    The Coast Guard fully supports modernization of Regional Fishery 
Management Organizations (RFMOs) to include comprehensive boarding and 
inspection regimes as called for by the 1995 Agreement for the 
Implementation of the Provisions of the United Nations Convention on 
the Law of the Sea of 10 December 1982 Relating to the Conservation and 
Management of Straddling Fish Stocks and Highly Migratory Fish Stocks--
more commonly referred to as the U.N. Fish Stocks Agreement. The 
Western and Central Pacific Fisheries Commission's recent incorporation 
of these enforcement principles into its management regime is a 
particularly relevant example. This Commission is one of the first in 
the world to employ a fully-developed boarding and inspection protocol 
for high seas enforcement based on the U.N. Fish Stocks Agreement. The 
Coast Guard is proud to have been involved in its development.
    While the Coast Guard continues to work with our international 
partners on IUU fishing enforcement and counter-measures, the United 
States' status with respect to the United Nations Convention on Law of 
the Sea (UNCLOS) does present challenges in our ability to enforce some 
elements of UNCLOS that are in the interest of the United States. 
Ratifying UNCLOS would demonstrate the United States' commitment to our 
international partners in the fight against IUU fishing and the provide 
the United States increased legitimacy in international oceans and IUU 
discussions.

    Question 3. Does the Coast Guard enforce illegal, unreported, and 
unregulated fishing in the high seas in the same way that you engage in 
drug interdiction in international waters? Does the Coast Guard even 
have the ability or authority to do this? Please explain the primary 
legal, political, logistical, and resource-related issues impeding the 
U.S. Coast Guard from participating in high seas fisheries enforcement.
    Answer. The principle source of the Coast Guard's authority to 
conduct maritime law enforcement operations, including Illegal Drug 
Interdiction and Illegal, Unreported, Unregulated (IUU) fishing 
activity, resides in 14 U.S.C. 89. This section allows the Coast Guard 
to ``make inquiries, examinations, inspections, searches, seizures, and 
arrests upon the high seas and waters over which the United States has 
jurisdiction . . .'' Similarly, for both mission areas, the Coast Guard 
utilizes multi- and bilateral agreements (e.g., shipriders) to maximize 
legal authority to engage in law enforcement activities on 
participating flag state vessels.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. John F. Kerry to 
                     Rear Admiral Arthur E. Brooks

    Question 1. I understand that the Coast Guard has developed 
capacity building programs in certain West African nations, to assist 
states who currently do not have the ability to police or protect their 
own EEZ. What type of support does the Coast Guard need to fully 
develop and implement this program?
    Answer. The Coast Guard currently has a Memorandum of Agreement 
with the Department of the Navy which allows Coast Guard participation 
in the delivery of Security Assistance programs authorized by the 
Foreign Assistance Act and the Arms Export Control Act. The Coast Guard 
has very limited organic authorities to provide training to foreign 
nationals. These are limited to training in conjunction with normal 
operations (coincident to a port call) which must be coordinated with 
Department of State (DoS) and follow human rights vetting procedures 
and assistance to non-compliant ports under the International Ship and 
Port Facility Security Code (ISPS) to correct deficiencies. Under 
Security Assistance, the Coast Guard can only provide training to 
foreign nationals at the request of another government agency, at the 
request of a U.S. Embassy team, or in conjunction with normal 
operations (coincident with a port call), coordinated with the 
Department of State and fully reimbursed under the Economy Act. The 
Coast Guard does not possess independent legal authority or funding to 
assist other countries directly for the purpose of training and 
education.

    Question 2. In your experience, what are the most important steps 
we can take at the regional or international level to improve flag 
state accountability?
    Answer. The Coast Guard fully supports NOAA and the State 
Department in their efforts to bring additional tools to bear on 
combating Illegal, Unreported, Unregulated (IUU) fishing, such as the 
application of Port State Measures to deter IUU importation, 
implementation of Catch Documentation Schemes, and development of an 
International Trade Data System. These tools will help restrict market 
access for IUU product, thereby making IUU activity less profitable. 
However, at-sea enforcement and the ability to deliver consequences to 
those found directly engaged in illegal fishing activity remains a 
critical element of the overall U.S. Government effort to address the 
IUU threat, as outlined in the U.S. National Plan of Action to Prevent, 
Deter, and Eliminate IUU Fishing.

    Question 3. It is critical that we have good information on the 
vessels that are entering our waters. What kind of monitoring/tracking 
is currently required, for both large and small boats entering U.S. 
waters? Is this data shared between countries? What level of tracking 
is reasonable and manageable?
    Answer. The Coast Guard employs a variety of classified and 
unclassified vessel tracking information systems and processes to 
monitor vessel movement. These systems include the Automatic 
Identification System (AIS) and in 2009, the Long Range Identification 
and Tracking (LRIT) system, both of which are International Maritime 
Organization (IMO) mandated systems for commercial vessels. While these 
systems do not currently provide information on smaller vessels, the 
Coast Guard is exploring the option of extending AIS requirements to 
some smaller class of vessels. Indeed, the Coast Guard is currently 
working with the Department of Homeland Security to finalize a Notice 
of Proposed Rulemaking to mandate AIS carriage on certain vessels 65, 
and larger, as required by the Maritime Transportation Security Act of 
2002. Additionally, classified systems are utilized on a limited basis 
to monitor vessels and Vessel Traffic Services (VTS), the Inland River 
Vessel Movement Center (IRVMC), and the National Vessel Movement Center 
(NVMC) monitor commercial vessels in various ports and waterways of the 
United States. Improved tactical vessel tracking is planned using 
surface search radar in the vicinity of major ports under the 
Interagency Operations Center/Command 21 project, and the use of 
unclassified commercial space capabilities is being assessed. Finally, 
all commercial vessels entering U.S. waters are required to submit an 
Advanced Notice of Arrival (ANOA) report to the Coast Guard, and any 
vessel entering U.S. waters from overseas, regardless of size or 
category, must report to Customs and Border Patrol. Some of this 
information is being shared with international partners, subject to 
U.S. law, and more sharing agreements are being sought for the future.
    As a component of many domestic fisheries management plans and 
international fisheries agreements, some fishing vessels are required 
to maintain a vessel monitoring system (VMS). The coordination, 
development, implementation, and management of domestic VMS programs 
resides within NOAA. The application of domestic VMS systems on U.S. 
vessels to meet international requirements of various Regional Fishery 
Management Organizations (RFMOs) is also overseen by NOAA. As such, 
NOAA is in a better position to respond to questions regarding data 
sharing, system and carriage requirements, and the overall national 
management of VMS information.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                     Rear Admiral Arthur E. Brooks

    Question 1. When the Coast Guard was transferred to the Department 
of Homeland Security in 2003 it gained a new suite of maritime security 
missions but to date has not appreciably expanded its personnel level. 
While we can debate what that investment represents in terms of 
effective execution, in 2007, for the second straight year, the Coast 
Guard failed to achieve its self-imposed targets for five of its eleven 
mission programs. It is telling that four of those five are so-called 
``traditional'' Coast Guard missions, including living marine resources 
enforcement--the mission area that includes fisheries management at the 
domestic and international levels. Meanwhile, IUU fishing is on the 
rise, and the Coast Guard annually detects over a hundred incursions 
into our Exclusive Economic Zone. Understanding that the Coast Guard's 
motto--semper paratus--implies its willingness to always accomplish the 
mission required with whatever capabilities it has at the ready, I 
wonder: can the Coast Guard effectively carry out its required 
enforcement against IUU fishing practices given its current level of 
assets and financial support?
    Answer. Coast Guard Operational Commanders are tasked with 
conducting risk-based decision-making to conduct operational planning, 
apportion and allocate resources, and align mission priorities. The 
Coast Guard applies this standard to the Other Law Enforcement mission 
(i.e., Foreign Fishing Vessel Enforcement) to determine the appropriate 
level of Coast Guard effort. The Other Law Enforcement mission's 
performance target for Fiscal Year 2009 is to reduce the number of 
detected foreign fishing vessel incursions into the U.S. Exclusive 
Economic Zone (EEZ) to 195 or less. The Coast Guard anticipates a 
continued focus on high threat areas as outlined in the Coast Guard's 
Fisheries Enforcement Strategic Plan, Ocean Guardian, and on ensuring 
compliance with international fisheries agreements. We will ensure 
mission performance continues to drive allocation of operational 
assets.

    Question 2. I understand that the Coast Guard has entered into 
cooperative agreements with some Pacific nations known or suspected of 
significant IUU fishing effort, specifically targeting vessels fishing 
with driftnets greater than 2.5 kilometers in length--a method banned 
by the United Nations. These agreements include provisions allowing 
foreign enforcement officials to ``ride along'' on Coast Guard vessels 
providing immediate sovereign authority for boarding foreign vessels 
and to interpret between Coast Guard officers and the suspected 
violators. While I appreciate the innovative nature of this program, I 
am concerned that it may shift too much of the Coast Guard's focus away 
from domestic fisheries enforcement, given that living marine resourced 
missions taking up just 9.3 percent of the Coast Guard's 2006 budget 
allocation. Can you provide us with an update on this program? What 
impact has this and other cooperative enforcement programs had on high 
seas driftnet fishing in particular and IUU fishing in general? Are 
similar programs being developed for other areas of the high seas, and 
if so, will they further deplete resources that would otherwise be used 
for domestic enforcement?
    Answer. The Coast Guard continues to develop active international 
partnerships through the development of bilateral enforcement 
agreements and participation in multilateral groups, like Regional 
Fisheries Management Organizations and the North Pacific Coast Guard 
Forum. Combating Illegal, Unreported, and Unregulated (IUU) fishing 
internationally requires that the Coast Guard work closely with the 
National Oceanic and Atmospheric Administration (NOAA) and the U.S. 
State Department to develop and advance cooperative enforcement 
agreements. For example, over the past year the Coast Guard coordinated 
with North Pacific Anadromous Fish Commission and North Pacific Coast 
Guard Forum partners including Canadian, Chinese, Japanese, and Russian 
surface and air patrols to cooperatively deter IUU in the North 
Pacific.
    These two forums further supplement the Coast Guard's 
implementation of a bilateral U.S. Government--People's Republic of 
China (PRC) Memorandum of Understanding (MOU) to enforce the United 
Nation's moratorium on large-scale high seas driftnet fishing. The MOU 
(also referred to as the ``U.S.-PRC Shiprider Agreement'') establishes 
boarding procedures for law enforcement officials of either country to 
board and inspect U.S. or Chinese flagged vessels suspected of driftnet 
fishing. The Memorandum also establishes a shiprider program, which 
allows China's Ministry of Agriculture's Bureau of Fisheries (FLEC) 
officials to embark on U.S. Coast Guard resources during each driftnet 
fishing season. Pursuant to this provision, China has provided a total 
of 46 enforcement officials to the Coast Guard since 1994. In 2007, two 
FLEC officers rotated through the North Pacific Regional Fishery 
Training Center in Kodiak, Alaska, from April-August 2007. In addition, 
two FLEC shipriders were deployed on the USCG Cutter BOUTWELL during 
its IUU Patrol. These officials were instrumental in facilitating 
communications between the USCG and the FLEC and effectively expanded 
the jurisdictional reach of both enforcement agencies allowing for six 
vessel seizures, the largest number in the North Pacific since the 
implementation of the MOU.
    Beyond our work in the North Pacific, the Coast Guard is 
increasingly involved in West Africa and with Pacific Island nations to 
utilize bilateral fisheries enforcement agreements. In mid-February of 
this year, Coast Guard Cutters ASSATEAGUE and SEQUOIA, with embarked 
Federated States of Micronesia ship-riders, interdicted two Japanese-
flagged fishing vessels in the Micronesian EEZ 160 nautical miles south 
of Guam. Both Japanese fishing vessels were found to be fishing in 
violation of Micronesian law. The Coast Guard cutters, acting under 
authority of their embarked Micronesian fisheries enforcement officers, 
escorted these suspected IUU fishing vessels toward Pohnpei, Micronesia 
for further investigation and prosecution. Finally, in June, the high 
endurance Coast Guard cutter DALLAS will deploy to West Africa under 
the operational control of the Department of Defense. Planning efforts 
are underway to conduct maritime law enforcement operations with Cape 
Verde, which include using Cape Verde maritime law enforcement officer 
``ship-riders'' as a proof-of-concept test. If successful, the U.S. 
Coast Guard and U.S. Navy may consider expanding such operations to 
other West African nations with the interest and capacity to 
participate.
    Coast Guard Operational Commanders are tasked with conducting risk-
based decision-making to conduct operational planning, apportion and 
allocate resources, and align mission priorities. The Coast Guard 
applies this standard to the Other Law Enforcement mission (i.e., 
foreign fishing vessel enforcement) and the Living Marine Resources Law 
Enforcement mission (i.e., domestic fisheries enforcement) to determine 
the appropriate level of Coast Guard effort. Coast Guard mission 
planning and execution is accomplished through performance based 
management. Performance in the Other-Law Enforcement mission has 
exceeded program targets in four of the last 5 years. Performance has 
been similarly consistent in the domestic Living Marine Resources Law 
Enforcement mission. The Coast Guard conducted a near historical high 
number of commercial fishing vessel boardings in Fiscal Year 2007 
(6,375 boardings), and observed at-sea compliance rate for domestic 
fisheries has been within 1 percent of the 97 percent observed 
compliance target for the past 5 years.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                              David Benton

    Question 1a. In your testimony, Mr. Benton, you talk about how the 
Alaska fisheries have been so successful at least partly because of 
United States success in making major inroads with other nations on 
fishery management agreements and treaties. Why do you think we have 
been so successful in forging successful international agreements for 
Alaska's fisheries? What was the main tipping point that pushed us into 
these treaties?
    Answer. In my testimony I describe some of the conservation 
challenges that the United States faced in the North Pacific in the 
decades leading up to the passage of the MSA and into the mid-1980s. 
Passage of the MSA, and the declaration of the EEZ was a major 
milestone and allowed us to protect and management resources out to 200 
miles. However, throughout that period, the U.S. also made great 
efforts to address challenges on the high seas, but for the most part 
was unsuccessful. Then, several factors came together that afforded us 
the opportunity to achieve our conservation goals and establish these 
new international agreements. Chief among these was a renewed sense of 
united purpose within the United States lead by Members of Congress, 
the fishing industry, and the Dept. of State; coupled with the thawing 
of relations with the (then) Soviet Union that allowed for the two 
nations to work closely together. The other players in the region: 
Japan, Taiwan, Republic of Korea, China, and Canada all had various 
interests some of which aligned with our interests, many of which did 
not. And, while this had been the case for many years, the gridlock was 
broken when the two superpowers brought forward joint proposals for new 
fishery arrangements in the North Pacific. This, in my view, was 
perhaps the main ``tipping point'' that made many of these arrangements 
possible.

    Question 1b. How much was this success because of the 
cooperativeness of international partners?
    Answer. Certainly the cooperation of international partners played 
a key role, but internal agreement within the U.S. was equally 
important. In particular, leadership out of the Congress and especially 
the Senate helped forge a united U.S. position. The states of Alaska, 
Washington, and Oregon worked well together, and with the fishing 
industry. We had a common goal and a shared approach. In addition, at 
that time there was a better working relationship between the fishing 
industry, the environmental lobby, and other U.S. interests than exists 
today. This allowed the United States to put forward a strong and 
unified position that, when coupled with the new cooperation with some 
of our international partners, was very powerful. Unfortunately, 
relationships today between the fishing industry and the environmental 
lobby are more antagonistic. In fact, many in the fishing industry 
believe that the environmental lobby is using some of these 
international issues to put pressure on U.S. domestic fisheries over 
and above the requirements of existing U.S. law such as the MSA. This 
will make it harder for the United States to form a strong and united 
front to address legitimate conservation issues on the high seas.

    Question 1c. Why have we not been able to repeat this success for 
other fisheries in other regions? What makes Alaska different? What can 
we do to repeat the success of the Pacific Northwest in other fisheries 
and regions?
    Answer. I think these two questions are very closely related, and I 
would suggest that there have been successes elsewhere with other 
fisheries and other arrangements. For example, the emerging fishery 
management regime in the Western Central Pacific holds promise to be an 
effective management tool for highly migratory species there, although 
a lot of work remains to be done. There have been improvements in some 
of the southern oceans fishery management arrangements as well as 
bilateral arrangements with Canada and Mexico. Many of these 
improvements have come about, or are coming about, due to evolving 
international standards such as those pushed by Alaska in the North 
Pacific, and through implementation of broader international 
instruments such as the Code of Conduct and the U.N. Fish Stocks 
Agreement.
    Looking forward, the new provisions regarding international 
fisheries in the most recent reauthorization of the MSA should help 
advance U.S. interests internationally if they are implemented 
thoughtfully. In my view, this means we need to get back to some 
basics. In recent years, international agreements have often times 
become more about furthering somewhat esoteric principles instead of 
focusing on practical and effective measures to address real-world 
management and conservation issues. It has become more fashionable to 
pursue ill-defined, but rhetorically gratifying language in these 
discussions than to buckle down to the hard work of crafting and 
implementing basic fishery management regimes. What is needed is less 
focus on ``principles'' and more work on solid science programs, 
effective harvest and fishing capacity controls, and at-sea monitoring 
and enforcement programs. And, in the end, U.S. fishing interests need 
to see some benefit from these international agreements. Instead of 
U.S. fishermen sitting on the beach while foreign fishing fleets 
continue to fish, new agreements need to place the same requirements on 
all participants, including opportunity for U.S. interests to fish as 
well as foreign fleets. This is the approach we have used in Alaska and 
the Pacific Northwest over the years with some success.

    Question 2. You mention in your testimony that high-seas driftnet 
fisheries (which are banned by U.N. moratorium) are the ultimate 
Illegal, Unreported, and Unregulated fisheries. You also mention that 
they are experiencing a significant resurgence. In your view, why is 
this resurgence happening? Who, if anyone, is responsible for capturing 
and prosecuting individuals who fish with driftnets illegally on the 
high seas? If our government catches someone doing this outside our 
EEZ, do we even have the ability to capture and prosecute them?
    Answer. I am not sure exactly why the resurgence of large scale 
high seas fishing is occurring. It appears to be related to the growing 
economies of China and Southeast Asia, with the attendant demand for 
seafood and a higher standard of living.
    In the North Pacific we have a strong international cooperative 
enforcement regime. This regime initially came about because of the 
North Pacific Anadromous Fish Convention (NPAFC) which set up a 
mechanism for cooperative enforcement by non-flag state members. As I 
understand it, this initial arrangement has been expanded and 
reinforced through various bi-lateral arrangements with nations not 
party to the NPAFC. The result is an enforcement net implemented by the 
major coastal states of the North Pacific, with the ability for them to 
detain, board, inspect, and bring into port vessels engaged in illegal 
fishing activities such as high seas driftnet fishing. Prosecuting 
violators remains with the flag state. So, as a result, the U.S. Coast 
Guard does have the ability to detain, for example, a Japanese vessel 
illegally engaged in high seas driftnet fishing and bring it into a 
U.S. port. Prosecution would be by the Japanese government once the 
vessel and/or the captain and crew were turned over to Japanese 
authorities.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                              David Benton

    Question 1. In recent years, demand for bluefin tuna has 
skyrocketed, leading to vastly increased pressure to catch these fish, 
some of which can retail for tens of thousands of dollars per fish. In 
New England, bluefin has been a profitable fishery for decades, but 
since a brief boom period in the late 1990s and early 2000s, our catch 
history has suddenly plummeted to historic lows. Maine's fishermen 
landed just 9.1 metric tons in 2006, barely 5 percent of what they 
caught less than a decade prior. And for several years running the U.S. 
has been unable to land the quota afforded to it by the International 
Convention on the Conservation of Atlantic Tunas. Meanwhile, the 
European Community and others are harvesting more than their quotas--
effectively taking the fish that if left to mature could resupply the 
U.S. fishery. These issues with bluefin tuna also apply to other highly 
migratory species such as swordfish and white and blue marlin. Such 
issues are also similar to some of those you have addressed in the 
north Pacific. Based on your experiences with fisheries enforcement in 
the North Pacific, what are the features of effective high seas 
fisheries enforcement that can be translated to the North Atlantic 
Ocean? How can Congress help facilitate effective high seas enforcement 
partnerships with other countries?
    Answer. I recall several years ago Senator Snowe came to Alaska to 
see how we are doing, and asking similar questions. We discussed at the 
time the similarity between Alaska and New England: small communities 
with a long tradition of being dependent on the sea for their 
livelihood. I appreciate her leadership on oceans issues, and her 
continued interest in improving our Nation's fisheries conservation 
programs while at the same time promoting policies aimed at maintaining 
sustainable fisheries and communities.
    I am less familiar with North Atlantic high seas enforcement than 
with the North Pacific. However, I believe that there are some 
fundamental characteristics to successful and effective programs that 
transcend regional differences. These include:
    Good science. The foundation of successful management and 
conservation is having a strong scientific program that provides 
managers with the information they need to ensure sustainable harvests 
and take into account ecosystem factors. For HMS, this is especially 
true, given their complex life history.
    Accurate monitoring. For fisheries operating on the high seas, 
effective and verifiable monitoring programs are a must. At-sea 
observers, augmented by vessel logs and independent verification are a 
necessary part of successful management. This is especially true for 
international agreements that set harvest quotas among numerous 
nations. Each party (nation) must be able to independently verify the 
catches reported by the other parties in order for all parties to trust 
the management system.
    Strict application of catch levels and other restrictions. There 
needs to be an effective, cooperative regime in place to ensure that 
catch levels are adhered to, with stiff penalties for overharvest. For 
example, if a party (nation) overharvests its quota for bluefin tuna in 
a given year, then the quota for the next year should deduct that 
amount plus an additional amount as a penalty for non-compliance. I do 
not know if such an arrangement exists in the North Atlantic; but given 
the history of overharvest of various species by parties such as the 
EU, something similar should be implemented.
    Cooperative enforcement. In the North Pacific, pursuant to the 
North Pacific Anadromous Fish Convention (and subsequently other 
arrangements) enforcement vessels from a non-flag state can detain, 
board, inspect, and divert to port vessels engaged in IUU fishing such 
as high seas driftnet fishing. This means that a U.S. Coast Guard 
Cutter could detain a Japanese vessel engaged in illegal high seas 
driftnet fishing in the North Pacific. Prosecution of the offenders is 
by the flag state. Much credit goes to the U.S. Coast Guard for their 
diligent work to ensure that these cooperative arrangements continue to 
work. As a result, in the North Pacific there is an effective 
cooperative enforcement net for stopping violations of the relevant 
international agreements. This has been an extremely effective and 
necessary component to our international management regime.
    As I mentioned, I am not as familiar with North Atlantic 
arrangements as I am with the North Pacific. But, if there are lessons 
to be learned and applied to the North Atlantic I believe that the 
above characteristics need to be implemented in your region. This will 
require a concerted effort on the part of the U.S. government, the 
Congress, the regional seafood industry, and other interests. The 
various interests need to provide the U.S. with a strong and cohesive 
position as well as support for aggressive and determined diplomacy at 
several levels of government. In my view, the biggest challenge to 
developing a cohesive U.S. policy will depend on whether or not the 
environmental lobby can set aside its rhetorical stance on some issues 
and work effectively with other interests such as the seafood industry 
to achieve a common goal. That has certainly been a challenge in our 
part of the world.

    Question 1a. You are clearly very familiar with the gaps in 
international agreements surrounding Alaska, but have you identified 
any other gaps in high seas fisheries management elsewhere in the 
world? What steps can the U.S. take to close these gaps?
    Answer. Many, if not most of the international fisheries management 
regimes and organizations around the world are targeted on specific 
fisheries. Tuna agreements, squid agreements, salmon treaties, etc. 
This species/fisheries specific approach is a practical, efficient, and 
cost effective way for international interests to address real world 
management issues. However, gaps exist at both the geographic level as 
well as species coverage. This is true for most parts of the world, 
even the North Pacific. For example, in the central and eastern North 
Pacific there are no international management regimes in place to 
address fishing on seamounts, or for species other than salmon and 
highly migratory species. With the push now for new Regional Fishery 
Management Organizations (RFMOs) these gaps hopefully can be filled so 
there are management regimes in place around the globe. However, again 
one of the biggest challenges is crafting international arrangements 
that are simple, effective, and practical. I believe that the 
international fisheries provisions in the most recent reauthorization 
of the MSA should help advance U.S. interests internationally if they 
are implemented thoughtfully. In my view, this means we need to get 
back to some basics. In recent years, international agreements have 
often times become more about furthering esoteric principles instead of 
focusing on practical and effective measures to address real-world 
management and conservation issues. What is needed is less focus on ill 
defined ``principles'' and more work on solid science programs, 
effective harvest and fishing capacity controls, and at-sea monitoring 
and enforcement programs. And, in the end, U.S. fishing interests need 
to see some benefit from these international agreements. Instead of 
U.S. fishermen sitting on the beach while foreign fishing fleets 
continue to fish, new agreements need to place the same requirements on 
all participants, including opportunity for U.S. interests to fish as 
well as foreign fleets.

    Question 1b. How effective has the Coast Guard's high seas driftnet 
enforcement program been at reducing incidents of IUU driftnet fishing? 
Are the resources being applied to this program causing a reduction in 
effort in domestic enforcement? Should the program be expanded into the 
north Atlantic?
    Answer. In my mind, this is one of the most important issues to be 
addressed. In the North Pacific I do not believe that international 
arrangements and obligations are currently undermining regional 
domestic monitoring and enforcement programs. I can not speak to the 
situation for the North Atlantic. But, if new international 
arrangements do not build on existing programs, and if these new 
arrangements are not crafted around solid and easily enforceable 
requirements, then there is a significant likelihood that we will be 
placing an unreasonable burden on the U.S. Coast Guard and handing them 
a mission with an unattainable goal. Even now, USCG resources are 
stretched thin, and additional funding and assets are needed. But, with 
the emerging demands of the Arctic Ocean opening up, increased 
responsibilities for enforcing ever more complicated international laws 
and treaties, coupled with growing domestic demands the USCG is going 
to be severely hamstrung if Congress and the Administration doesn't 
step up to the plate with additional support. So, my belief is that the 
USCG is up to the task, whether it is in the North Pacific, the South 
Pacific, the Gulf of Mexico or the North Atlantic: but only if we 
provide them the tools, support, and resources necessary to get the job 
done.

    Question 2. Regional Fishery Management Organizations or RFMOs 
exist in numerous forms that vary in terms of quantities of fish stocks 
addressed, numbers of party states, and areas of sovereignty to which 
the treaties apply. The U.S. alone is party to more than a dozen 
different RFMOs. Given all these discrepancies between the different 
organizations, each clearly requires specific negotiations. But there 
must be some underlying principles that can be applied across multiple 
organizations--a set of ``best management practices'' that can 
facilitate agreements and lead to a brighter future for our world's 
fisheries. Since each RFMO is designed to address unique regions and 
stocks, they have adopted different approaches for forging cooperation. 
What have you found to be some ``best practices'' of RFMOs that can and 
should be adopted by other RFMOs?
    Answer. I believe that I have addressed most of this above. 
However, I want to emphasize one of the crucial factors that I believe 
will determine success or failure. One of the biggest challenges, in my 
mind, is crafting international agreements that are effective, 
efficient, and practical. Too often, the environmental lobby has 
diverted negotiations from the hard work necessary to build effective 
regimes toward an argument about broad and ill defined principles. This 
is the path to inaction and needs to be avoided.
    As for the rest, RFMOs in my view need to have solid practical 
requirements for science, independently verifiable monitoring, 
effective enforcement, and penalties for non-compliance. Decisions need 
to be transparent, but transparency should not lead to gridlock. And in 
the end, the parties to any such agreements need to see tangible 
benefits. This must include U.S. fishing interests that have often 
times been disadvantaged by such agreements, taking on the majority of 
the conservation burden while the fishermen of other nations continue 
to fish.

    Question 3. RFMOs consistently have problems with securing 
compliance of their member states, even for simple functions like data 
reporting. In reauthorizing the Magnuson Stevens Act at the end of the 
109th Congress, new authority was provided for the Federal Government 
to manage international fisheries. Among those provisions was the 
authority to identify and impose trade restrictions on countries that 
are known to engage in IUU Fishing practices, but the Federal 
Government has not yet carried out this authorization. If the Federal 
Government chose to act on the authority provided by Congress to 
identify and sanction nations that are know to use IUU Fishing 
practices, how would that impact our work within the RFMO structure? 
Would it improve or degrade our negotiating position with other member 
states? What kinds of incentives can we offer to help encourage other 
countries to live up to their commitments under RFMOs?
    Answer. I believe that the provisions provided by Congress can 
assist the United States exert a leadership role in the development of 
RFMOs, or in its efforts to improve existing RFMOs if they are part of 
a ``carrot and stick'' approach. This means that U.S. diplomacy must be 
firm, but practical and reasonable as mentioned in previously. We also 
need to be careful not to open ourselves to vulnerabilities such as 
violating world trade rules, or allowing other nation's to use similar 
measures not for conservation, but to secure trade advantages.
    With regard to incentives, the U.S. has the opportunity to assist 
developing nations to better manage resources within their waters or on 
the high seas through technical assistance and fiscal support. It will 
be more difficult to provide incentives to developed nations although 
there are incentives for many nations to work closely with the U.S. on 
scientific and conservation programs to better manage resources those 
countries depend upon.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                               James Cook

    Question 1. Mr. Cook, can you address the effectiveness of the 
Western and Central Pacific Fisheries Commission to establish 
conservation and management efforts?
    Answer. Since its inception, the WCPFC has been working 
implementing essential monitoring and control measures such as Vessel 
Monitoring Systems (VMS), a regional observer program, vessel 
identification requirements, and boarding and inspection measures. 
Currently, the VMS and a regional observer programs have not been fully 
agreed to and implemented, which indicates that it has taken a 
significant amount of time to implement some of the more basic, yet 
essential, conservation and management measures.
    Regarding conservation and management of fish stocks, the WCPFC 
agreed to measures to reduce bigeye tuna overfishing involving catch 
quotas for longline vessels and fishing effort increases for purse 
seine vessels. Despite these measures, there is no indication that they 
have been successful in reducing bigeye tuna overfishing, as there are 
too many longliners fishing in the convention area and too much purse 
seine FAD fishing.

    Question 2. To what extent has the Western and Central Pacific 
Fisheries Commission consulted with and coordinated with the Inter-
American Tropical Tuna Commission? What do you see as possible 
impediments for the two commissions to come together and collaborate?
    Answer. The IATTC and WCPFC have signed a Memorandum of 
Understanding to cooperate on and as much as possible harmonize fishery 
management between the two areas of competence. However, the membership 
composition of the two Commissions is one of the key factors, which may 
create impediments to reaching a consensus on collaboration. In the 
WCPFC, the Pacific Islands form a single block, together with Australia 
and New Zealand, in the form of the Forum Fisheries Agency (FFA), which 
is a majority of the countries in the WCPFC. Although all of the member 
countries of FAA sit as independent commission members their 
interventions in the Commission process are made on the basis of an 
agreed upon FFA position. There is no similar grouping in the ITTC, 
where all members speak independently. The South and Central American 
countries, which are the majority of the IATTC, have not formed a 
similar bloc within IATTC, and only recently, in 2006 began to caucus 
to see if they could develop their own consensus on management 
measures. Furthermore, the two commissions utilize different 
organizations to provide stock assessments for fisheries they manage. 
Often, there are disagreements between the two commissions on the stock 
structure of manages species such as yellowfin and bigeye tuna.

    Question 3. Mr. Cook, you mentioned in your written testimony that 
69 percent of U.S. purse seiners use FADs. What effects would the 
prohibition of this technology as recommended by the WPFMC, have on 
U.S. purse seiners?
    Answer. The U.S. fleet would have to fish on free swimming or un-
associated skipjack schools. It would be competing against other purse 
seine fleets, some of which on un-associated schools, while others fish 
predominantly on FADs. The U.S. fleet has swung back and forth between 
using FADs and fishing on un-associated schools, but currently, the use 
of FADs may be critical since the use of FADs may greatly reduce the 
fuel requirements by obviating the need to search for free swimming 
skipjack schools. As fuel becomes more expensive, FAD use will likely 
increase. FADs are instrumented with radio transponders and have sonar 
buoys suspended beneath to monitor fish biomass accumulating beneath 
the FAD. Purse seiners can therefore query each of their FADs to 
determine which is likely to be the most productive and thus cut down 
on uncertainty.

    Question 4. The United States has not released a management plan 
for the use of FADs as required by the WCPFC in 2006. What is the 
status of this plan?
    Answer. The State Department and NMFS are working on a solution to 
the FAD problem and hope to gain support at the WCPFC meeting in Pusan 
this December.

    Question 5. The Western pacific Management Council has proactively 
addressed the issue of bycatch, especially in regard to sea birds and 
turtles. What effects do bycatch reduction techniques included in their 
bycatch reduction program have on the total catch allowable?
    Answer. The implementation of seabird and sea turtles in the Hawaii 
longline fleet has not had a major influence on catch rates of target 
species: however, the requirement of circle hooks and mackerel bait in 
addition to sea bird mitigation measures such as night setting, side 
setting, blued dyed bait have significantly reduce sea turtles and 
seabird interactions by orders of magnitude within fleet. In other 
words, the bycatch measures have been highly successful in reducing 
protected species interactions while maintaining high catch rates of 
target species.

    Question 6. Mr. Cook, would you say that other nations enforce 
bycatch and sea turtle conservation standards to the same degree as the 
United States?
    Answer. No, other nations do not have nor enforce bycatch and sea 
turtle conservation standards to the same degree as the United States 
as the U.S. has the most strictly regulated pelagic longline fleets in 
the world. Other fleets, notably the New Zealand and Australian 
longline fleets have taken steps to reduce seabird interactions but 
have not made the same changes to their longline fleets to minimize sea 
turtle interactions. Japan has advocated a requirement for all shallow 
set longline fleets in the WCPFC to use large circle hooks and fish 
bait, but Australia, New Zealand and the EU have so far resisted such a 
measure.

    Question 7. If not, can you speak to the economic impacts this has 
on U.S. fisherman?
    Answer. The U.S. longline fleet in the Pacific is competing against 
less regulated fleets which target the same stocks of fish, some of 
which are exported to the U.S.. In addition to gear requirements such 
as circle hooks and fish bait, the Hawaii shallow-set longline fishery 
that targets swordfish is also regulated by an effort limit and sea 
turtle interaction hard caps as well as 100 percent observer coverage. 
The Hawaii deep-set longline fishery, which targets bigeye tuna is 
restricted from deploying shallow-sets on a tuna trip. Historically, 
these fisheries could switch between gear and often would do ``mixed'' 
sets at various depths. Therefore, based on these highly restrictive 
regulatory regimes, the Hawaii longline fleet has less flexibility, as 
opposed to unregulated fisheries, to switch between shallow and deep 
set fishing in response to economic conditions and market demand.

    Question 8. The Hawaii-based longline fishery is closed down when 
the maximum limit of sea turtles interactions has been reached. Has the 
bycatch reduction program impacted the length of longline season?
    Answer. From 2004-2007, only in 2006 the shallow set fishery was 
closed for the remainder of the year when the loggerhead cap of 16 
interactions was reached in March. However, the effort cap and turtle 
caps have had an influence on fishermen behavior. Prior to the current 
management regime for the swordfish fishery, effort for swordfish would 
typically peak in the second quarter of the year. By contrast, 
swordfish effort had tended to peak in the first quarter as fishermen 
`race' to the turtle cap, i.e., expend their allowable effort as fast 
as possible before the loggerhead turtle cap is reached. Loggerhead 
interaction rates are generally higher in the first quarter of the 
year, however, in 2008, no loggerhead interactions have been observed 
in the fishery.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                               James Cook

    Question 1. In your written testimony, I noticed that you say the 
State Department, National Marine Fisheries Service (NMFS), and Coast 
guard are all ``doing their best to implement the international 
provisions of the Magnuson-Stevens Reauthorization Act of 2006 within 
the context of the international regional fishery management 
organizations.'' You also mention, though, that NMFS has failed to 
develop a Fish Aggregating Device management plan as was agreed to 
under the Western and Central Pacific Fisheries Commission. Papua 
Guinea has a plan, but the United States does not. Does this mean that 
Papua New Guinea is a more responsible player in international fishing 
in the Pacific than we are? Why has the National Marine Fisheries 
Service failed to develop and issue a plan? What does this do to our 
credibility on these issues? Doesn't it prevent us from pushing others 
on conservation?
    Answer. The economic zone of Papua New Guinea has a FAD density 
higher than anywhere in the Pacific and therefore a heightened need to 
monitor.
    The State Department and NMFS are working on a solution to the FAD 
problem and hope to gain support at the WCPFC meeting in Pusan this 
December.

    Question 2. I understand that your fishery has been faced with 
numerous bycatch issues in recent years, and that we have had a fair 
amount of success in finding solutions that reduce the fishery's 
bycatch. What has our government been doing to push other nations' 
fishing fleets to adopt these successful bycatch reduction methods? 
What has your company, fishery, or industry done to help this? Wouldn't 
you say that this responsibility also lies on your shoulders and not 
solely on the government's?
    Answer. The U.S. has been proactive in pushing for the adoption of 
circle hooks and fish bait for shallow set longline fishing in the 
WCPFC. The Hawaii Longline association and my company Pacific Ocean 
Producers (POP) have been extremely supportive and pro-active in 
developing mitigation technology for seabirds and sea turtles. The 
technique of side setting to minimize seabird interactions was a result 
of collaborative effort by POP and the Blue Ocean Institute to test 
underwater setting chutes for longlining, during which the simpler 
technique of side-setting emerged and has now been implemented on about 
one third of the Hawaii longline fleet. The fishing industry must be 
proactively engaged in the development of longline mitigation 
technology. Many of the solutions will be found within the vast 
storehouse of fishermen's knowledge from the thousands of hours of 
experience fishermen have fishing and observing ocean ecosystem, 
including bycatch species.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Ted Stevens to 
                               James Cook

    Question 1. How the U.S. can increase the effectiveness of the 
WCPFC?
    Answer. The U.S. can increase effectiveness in the WCPFC by taking 
hard stances on various conservation and management issues, e.g., 
bigeye tuna conservation. The $18 million per year in the funds 
provided to member nations of the South Pacific Tuna Treaty act is 
significant and can be used as leveraging tool. The U.S. also needs to 
be a leader in preparing and submitting reports or plans, such as a 
plan for purse seine fishing around Fish Aggregation Devices, which is 
a requirement of WCPFC member nations, however to date, has not bee 
provided to the WCPFC by the U.S.

    Question 2. How can we bring about a better relationship with the 
Western Pacific Fisheries Management Council to improve U.S. 
international fisheries management?
    Answer. The U.S. Government can bring about a better relationship 
with the WCPFC through perpetually assigning the chair of the WPFMC to 
be a WCPFC Commission as called for under the MSRA. The U.S. Government 
should also assign the chair of the WPFMC to be a commissioner of the 
IATTC to ensure consistency between the Pacific tuna RFMOs which in 
some cases manage the same fish stocks.
    The draft MOU between the State Department, NMFS, and the three 
Pacific fishery management councils (FMCs), which to date has not been 
agreed to, is another important tool to bring about a better 
relationship with the WPFMC. The draft MOU outlines important facets of 
cooperation between the FMCs and the U.S. Government in relation to 
international fisheries management and how it applies to domestic 
regulations. A clear MOU is essential to implement domestic regulations 
that are based on international agreements.
    Further, the U.S. management of highly migratory fish stocks (HMS) 
is not harmonious between the Atlantic, and the two halves of the 
Pacific Ocean. In the Atlantic, NMFS has assumed management of HMS and 
the Regional Fishery Management Councils have been marginalized in the 
process. In the Eastern Pacific, international management of HMS has 
been conducted under a 1949 convention which established the Inter-
American Tropical Tuna Commission, which was initially for pole-and-
line tuna fishing and predates the rise of purse seining, the Magnuson 
Act and the implantation of the FMCs. The Pacific and Western Pacific 
Council are marginalized in the process, even though the Western 
Pacific longline fleet based out of Hawaii fishes in the Eastern 
Pacific. Neither Council serves as a Commissioner, nor are the Councils 
even members of the General Advisory Committee or the Science Committee 
despite making an application for membership on both several years ago. 
Indeed the GAC is top heavy with purse seiners and Cannery folks, 
despite the virtual demise of U.S. purse seine fishing in the Eastern 
Pacific and the canning industry on the West Coast.
    The Antigua Convention designed to supersede the 1949 Convention 
and the implementing legislation is an opportunity to redress this 
balance and make it mirror the implementing legislation for the Western 
and Central Pacific Fisheries Commission. This would include having 
Commissioners from both of the two Councils and to include Council 
membership in the GAC to include the representative range of fishers 
from longline and troll fisheries . This would bring the IATTC into 
line with the Western and Central Pacific Fisheries Commission and its 
implementing legislation, which specifies the Council Chairs as 
Commissioners and its role in the W&C Pacific Advisory Committee. 
Moreover, the appointment of members of the W&C Advisory Committee is 
through the Commerce Department not the Department of State, which 
again is something that should be rectified in the Antigua Convention 
implementing legislation.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                               James Cook

    Question 1. Regional Fishery Management Organizations or RFMOs 
exist in numerous forms that vary in terms of quantities of fish stocks 
addressed, numbers of party states, and areas of sovereignty to which 
the treaties apply. The U.S. alone is party to more than a dozen 
different RFMOs. Given all these discrepancies between the different 
organizations, each clearly requires specific negotiations. But there 
must be some underlying principles that can be applied across multiple 
organizations--a set of ``best management practices'' that can 
facilitate agreements and lead to a brighter future for our world's 
fisheries. Since each RFMO is designed to address unique regions and 
stocks, they have adopted different approaches for forging cooperation. 
What have you found to be some ``best practices'' of RFMOs that can and 
should be adopted by other RFMOs?
    Answer. Best practices include regular meetings as well as 
Memorandums of Understanding (MOU) between RFMOs to share common 
management approaches for the same stock. For example, Article 22 of 
the Western and Central Pacific Fisheries Convention requires the 
Commission to collaborate with other relevant intergovernmental 
organizations particularly those with related objectives and which can 
contribute to the attainment of the objective of the Convention. The 
Tuna RFMOs did meet last year in Kobe, Japan and discussed performance 
measures. I have attached a matrix of ``Suggested Criteria for 
Reviewing the Performance of RFMOs'' for your consideration. I believe 
identifying such criteria is an essential step toward establishing best 
practices.
    Another best practice, however, does not necessarily pertain to 
RFMOs, but it does involve regular international meetings amongst 
fishermen to share common understandings and to address management 
issues regarding target stocks and bycatch of protected species. A good 
example of a successful series of meetings are the International 
Fishers Forums (coordinated by the Western Pacific Fishery Management 
Council) where fishermen from all over the world have gathered to 
discuss measures and methods to reduce bycatch of sea turtles and 
seabirds. These types of meetings are essential in bringing fishermen, 
as well as fishery managers, together to share information and best 
practices that work in their fisheries.

    Question 2a. RMFOs consistently have problems with securing 
compliance of their member states, even for simple functions like data 
reporting. In reauthorizing the Magnuson Stevens Act at the end of the 
109th Congress, new authority was provided for the Federal Government 
to manage international fisheries. Among those provisions was the 
authority to identify and impose trade restrictions on countries that 
are known to engage in IUU Fishing practices, but the Federal 
Government has not yet carried out this authorization. If the Federal 
Government chose to act on the authority provided by Congress to 
identify and sanction nations that are know to use IUU Fishing 
practices, how would that impact our work within the RFMO structure? 
Would it improve or degrade our negotiating position with other member 
states?
    Answer. It would send a clear message that the U.S. is taking the 
issue of fisheries management in the international context very 
seriously. I think in some cases it could degrade negotiation positions 
if the U.S. is inconsistent in its IUU listings and sanctions. For 
example, the U.S. does not have yet to develop a clear policy on how it 
will list IUU vessels and nations, nor has it developed a policy in how 
to deal with U.S. vessels that may be considered IUU by RFMOs or other 
nations. In addition, the U.S. is not necessary compliant on all 
measures of international fisheries management agreements (e.g., no 
U.S. FAD management plan as called under the WCPFC). This being said, 
taking a hard stance on issues and sanctioning IUU nations in some 
cases would improve our negotiating position as potential sanctions 
from the world's largest economy is undoubtedly a powerful negotiating 
tool.

    Question 2b. What kinds of incentives can we offer to help 
encourage other countries to live up to their commitments under RFMOs?
    Answer. For the Pacific Island Nations that are party to the South 
Pacific Tuna Treaty (SPTT), I think the annual $18 million the U.S. 
provides to them under the SPTT for U.S. purse seine access to their 
waters is a strong incentive and bargaining tool for compliance within 
RFMOs. Besides the aid the U.S. provides to many nations party to 
RFMOs, there are really not many incentives the U.S. can provide to 
nations to live up to commitment under RFMOs. In some cases the U.S. 
could provide observer training in relation to data collection or 
enforcement measures. The Western Pacific Regional Fishery Management 
Council has also been conducting a series of International Fishers 
Forums (IIFF), which have brought together pelagic fishers from all 
over the Pacific and beyond to discuss and share ways to develop 
environmentally responsible methods of pelagic fishing. However, when 
dealing with resource conservation, there is little the U.S. could do 
outside of RFMO negotiations in terms of how much of the resource is 
harvested in within the EEZ of foreign countries.

    Question 3. In response to a growing awareness among consumers 
about seafood sustainability, we have seen a proliferation of voluntary 
eco-labeling practices for fish products. One of the major players in 
the certification of seafood sustainability is the Marine Stewardship 
Council, based in the U.K. In my home state of Maine, organizations 
such as the Port Clyde Groundfishermens' Cooperative and the Maine 
Lobster Promotion Council have begun taking steps to certify their 
products as `sustainable' to take advantage of this trend. In fact, 
some major retailers in the U.S., such as Wal-Mart have made a 
commitment to sell nothing but fish certified as ``sustainable''. What 
are the costs and benefits of this approach? What are some other 
voluntary mechanisms for encouraging wise consumer decisions?
    Answer. Eco-labeling and certification programs for marine capture 
fisheries, and sustainable seafood sourcing policies and standards 
adopted by retailers and seafood buyers is being increasingly referred 
to as the `Sustainable Seafood Movement'. Most Sustainable Seafood 
activities are currently taking place in developed countries, notably 
in Europe, the USA and Australasia; while there have been a few recent 
initiatives to help facilitate certification in developing countries.
    In Europe in particular, environmental NGO's are currently at the 
forefront in influencing the sustainable seafood agenda with, for 
example, Greenpeace's eco-rankings of supermarket retail chains in the 
UK, Denmark and Sweden, and plans for a similar initiative in the U.S. 
Greenpeace has been very active in Britain where there are only a few 
major supermarket chains and where supermarket retailers will do 
whatever it takes to protect their brands from negative publicity. 
Greenpeace has also been critical of some fisheries certified by the 
Marine Stewardship Council (MSC) which creates conflict and confusion 
for both retailers and the public. One could therefore look at eco-
labeling as a cost of doing business or legitimized extortion. 
Certification can also come with conditions attached. Such is the case 
of the Marine Stewardship Council's (MSC) certification of the American 
Albacore Fishing Association (AAFA). Part of the certification 
conditions include a requirement to take appropriate steps to request 
that management agencies begin a process to develop a framework for 
development and clear documentation of decision rules and appropriate 
harvest control mechanisms in the South Pacific albacore fishery. 
Although a seemingly reasonable and precautionary requirement, it is 
nonetheless based on actions which are not directly connected with the 
sustainability of the AAFA fishery and require AAFA to follow a 
specified policy agenda.
    From the perspective of the Hawaii longline fishery, there is 
little economic incentive to seek eco-certification since it will not 
likely improve the already high market profile of fish caught by 
Hawaii's longliners. However, the Hawaii Longline Association would 
likely be in favor of the U.S. Government and the National Marine 
Fisheries Service becoming `third party' certifiers. NMFS already has a 
Fish Watch website for consumers where they can read up on fisheries. 
It would be a natural extension of this initiative to move into 
certification.
    Sustainability criteria used by some environmental non-governmental 
organizations, retailers, and buyers are based on the Food and 
Agriculture Organization of the United Nations' Code of Conduct for 
Responsible Fisheries (COC), and address minimum standards for the: (i) 
adequacy of the fisheries management systems, (ii) the health of stocks 
under consideration, and (iii) ecosystem effects (e.g., bycatch of 
sensitive species groups, habitat effects from fishing gear, status of 
stocks of non-target catch, impacts on dependent predators). The Hawaii 
longline fishery has twice been evaluated against the FAO COC and 
scores in excess of 90 percent.
    Further, the Western Pacific Regional Fishery Management Council 
recently co-hosted the Sustainable Tuna Round Table one of the outcomes 
of which was agreement that The Food and Agriculture Organization of 
the United Nation's Code of Conduct for Responsible Fisheries is an 
appropriate starting point as a global, single set of standards against 
which to assess the sustainability of individual marine capture 
fisheries. The FAO has also produced eco-labeling guidelines for 
countries and industry to develop their own certification programs. Its 
is planned to hold another meeting immediately prior to the next FAO 
Committee on Fisheries (COFI) in 2009 which would develop 
recommendation to be passed to the various member country delegations 
to have COFI recommend that countries develop their own certification 
based oin the FAO COC and the FAO eco-labeling guidelines. Although 
there would be many individual national certification and labeling 
schemes they would all be rooted in one set of standards and criteria. 
The Committee may thus need to consider legislation authorizing the 
National Marine Fisheries Service to produce a government certified 
eco-label for the U.S.
    Retailers and tuna fishing industries have identified concerns with 
existing assessment and eco-certification programs, including: (i) the 
need for improved scientific vigor of some assessment/certification 
programs; and (ii) demand for a single set of global, harmonized 
minimum sustainability standards as a means to address confusion and 
diminished confidence created by the recent proliferation of competing 
certification and eco-labeling programs. Perhaps as the sustainable 
seafood movement matures, retailers and restaurant chains will 
harmonize their standards and methods, and as a result, the number of 
eco-certification and labeling programs will be pared down to the few 
most scientifically vigorous.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                               Lisa Speer

    Question 1. What recent progress has been made toward the 
establishment of a South Pacific Regional Fisheries Management 
Organization?
    Answer. Major progress has been made toward drafting an agreement 
establishing a South Pacific RFMO, and strong interim measures have 
been developed by the parties negotiating the new RFMO. That said, 
concerns remain regarding the implementation of the interim measures, 
and conflicts surround decisionmaking and other key elements of the 
draft agreement to establish the RFMO.

    Question 2. Current RFMOs primarily address highly migratory 
species, but the South Pacific RFMO will focus on non-highly migratory 
species. How do you anticipate this RFMO will be different from the 
others that we are more familiar with?
    Answer. The South Pacific RFMO will address both bottom dwelling 
fish species and non-highly migratory pelagic fish, such as jack 
mackerel. It is our hope that the SP RFMO agreement will reflect modern 
principles of fisheries management, and as a result, avoid the chronic 
problems of overfishing, depletion and impacts on non-target species 
and ecosystems that have plagued older RFMOs.

    Question 3. There is general uncertainty about what constitutes a 
Vulnerable Marine Ecosystem (VME). What is the consensus on the 
defining this term among the international community?
    Answer. A technical consultation is underway under the auspices of 
the U.N. Food and Agriculture Organization to define that term. The 
consultation is expected to complete its work by September 2008. 
Progress to date has been good in some important respects, including 
identification of specific types of habitats and ecosystems that should 
be considered VMEs.

    Question 4. Within international fisheries management, what are the 
next steps to further address VMEs?
    Answer. Under U.N. resolution 61/105, States and RFMOs must, by 
December 31, 2008, identify VMEs, assess whether bottom fishing would 
have significant adverse impacts on them, adopt conservation and 
management measures to prevent those impacts, or not authorize such 
fishing to proceed.

    Question 5. Within the United States, there has been increased 
attention paid to the possible benefits of managing fisheries with an 
ecosystem-based approach. What efforts have been made internationally 
toward integrating ecosystem-based management for fisheries?
    Answer. With the exception of the Antarctic, very few RFMO/As have 
adopted meaningful measures to implement an ecosystem approach to 
fisheries management.

    Question 6. What are the obstacles to employing this potentially 
more effective method of natural resource management?
    Answer. There are several obstacles, but by far the greatest is the 
lack of political will to implement ecosystem approaches to fisheries 
management.

    Question 7. Ms. Speer, I understand that the issue of shifting 
baselines is of concern to many in the management community. What 
effects can a lack of historical catch and biological data have on our 
ability to sustainably manage global fish stocks?
    Answer. A poor understanding of historical catch and biological 
data hampers efforts to determine what constitutes recovery of fish 
stocks and ecosystems, which has in turn led to development of recovery 
targets that are below what the ecosystem and/or fish stock is capable 
of reaching if given the chance.

    Question 8. How can we as a nation work to compile relevant data 
sets that provide for effective management and conservation efforts?
    Answer. An excellent question, one that would benefit from a 
thoughtful process. One option to consider is commissioning the 
National Academy of Sciences to convene an expert panel to evaluate 
this question and make recommendations.

    Question 9. What do you see as the biggest impediments to creating 
stock data and catch history within the international fisheries 
community?
    Answer. The lack of funding for these efforts is the single biggest 
impediment, followed by the absence of a uniform system of data 
collection and reporting and a central repository to analyze and report 
out findings.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                               Lisa Speer

    Question 1. One of the key steps necessary for achieving 
sustainable fisheries is developing management organizations with clear 
mandates, clear lines of authority, and the authority to reduce catch 
and regulate harvest. Taking a look at a global map of the world's 
international fishery management organizations, though, it seems like 
they are more like a disorganized mess. How would you grade the 
international community's success in developing management 
organizations with clear mandates and clear lines of authority to 
regulate fishing harvest?
    Answer. Overall, an F, with few exceptions.

    Question 1a. What is the U.S. Government doing to help improve that 
situation? Are we doing enough?
    Answer. The U.S. has been a leader in promoting RFMO reform. 
However there is much more that needs to be done. One very helpful step 
would be to establish regular, independent reviews of RFMO performance 
against model RFMO performance standards, such as those developed under 
the auspices of Chatham House that can be found at http://www.oecd.org/
dataoecd/2/33/39374297.pdf. A key next step for the U.S. would be to 
seek agreement at the United Nations to conduct an independent 
assessment of the RFMOs against the best practices identified in the 
Chatham House report.

    Question 2. In order to manage fisheries responsibly, we need to be 
able to track fish stocks effectively. Good, solid science is necessary 
not just to help in making wise management choices, but also for 
getting cooperation and buy-in from the fishermen who are impacted by 
those management choices. In your testimony you talk about gaps in 
governance and gaps in enforcement, but do you believe that there are 
also gaps in the science we need for international fisheries 
management?
    Answer. Yes, very much so. As my friend Sylvia Earle likes to say, 
we know more about Mars than our own oceans.

    Question 2a. What are the main reasons for this science gap?
    Answer. Scientific research on the high seas is very expensive and 
time consuming. Much greater funding for deep ocean research is 
essential if we are to fill the gaps necessary for sound conservation 
and management decisions.

    Question 2b. Do you believe that the U.S. is doing enough to play 
its role in promoting good, solid science for international fisheries 
management? What more should we be doing?
    Answer. One option to consider is supporting the establishment of a 
regular, high level assessment of the state of ocean health, like an 
IPCC for the oceans. We would like to see the U.S. to play a leadership 
role in creating such a process.

    Question 3. United States fishing fleets often have to deal with 
rigorous regulations to reduce bycatch of threatened or endangered 
species like humpback whales, Steller sea lions, and sea turtles. Many 
of these species, however, are threatened not just by U.S. fleets, but 
from other nations' fleets in international waters. In your view, is 
the U.S. doing enough to convince other nations' fishing fleets to 
adopt more environmentally-sensitive fishing methods used by U.S. 
fleets to reduce bycatch?
    Answer. The U.S. has played a very important role in encouraging 
other nations to adopt more environmentally sensitive fishing methods. 
Robust implementation of the 2006 amendments to the Magnuson-Stevens 
Act on this topic are an important means of making progress.

    Question 3a. If other nations don't adopt such methods and continue 
to drive endangered species toward extinction, couldn't this eventually 
threaten to close some U.S. fishing fleets under the Endangered Species 
Act?
    Answer. My expertise does not extend to the Endangered Species Act, 
but it is critically important for the U.S. to escalate the pressure on 
other countries whose practices do not live up to the standards U.S. 
fishing fleets must comply with.

    Question 3b. What more should we be doing, and what are the main 
impediments keeping us from being more successful in this arena?
    Answer. Vigorous implementation of the amendments to the Magnuson-
Stevens Act on this topic is an important means of making progress. S. 
2907, the International Fisheries Stewardship and Enforcement Act, also 
represents a means of addressing illegal fishing that results in harm 
to endangered and threatened species.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                               Lisa Speer

    Question 1. Regional Fishery Management Organizations or RFMOs 
exist in numerous forms that vary in terms of quantities of fish stocks 
addressed, numbers of party states, and areas of sovereignty to which 
the treaties apply. The U.S. alone is party to more than a dozen 
different RFMOs. Given all these discrepancies between the different 
organizations, each clearly requires specific negotiations. But there 
must be some underlying principles that can be applied across multiple 
organizations--a set of ``best management practices'' that can 
facilitate agreements and lead to a brighter future for our world's 
fisheries. Since each RFMO is designed to address unique regions and 
stocks, they have adopted different approaches for forging cooperation. 
What have you found to be some ``best practices'' of RFMOs that can and 
should be adopted by other RFMOs?
    Answer. There have been a number of efforts to identify best 
practices among RFMOs. Among the best of these is a report prepared in 
2007 by an independent panel convened by Chatham House that can be 
found at http://www.oecd.org/dataoecd/2/33/39374297.pdf. A key next 
step would be to seek agreement at the United Nations to conduct an 
independent assessment of the RFMOs against the best practices 
identified in the Chatham House report.

    Question 2. RMFOs consistently have problems with securing 
compliance of their member states, even for simple functions like data 
reporting. In reauthorizing the Magnuson Stevens Act at the end of the 
109th Congress, new authority was provided for the Federal Government 
to manage international fisheries. Among those provisions was the 
authority to identify and impose trade restrictions on countries that 
are known to engage in IUU Fishing practices, but the Federal 
Government has not yet carried out this authorization. If the Federal 
Government chose to act on the authority provided by Congress to 
identify and sanction nations that are know to use IUU Fishing 
practices, how would that impact our work within the RFMO structure? 
Would it improve or degrade our negotiating position with other member 
states? What kinds of incentives can we offer to help encourage other 
countries to live up to their commitments under RFMOs?
    Answer. The provisions included in the reauthorization related to 
trade sanctions for countries whose vessels engage in IUU fishing were 
very important steps forward. We believe that trade measures are an 
important tool in the arsenal, and would help improve the effectiveness 
of RFMOs if carefully implemented.

    Question 3. One of the paradoxes of international fisheries 
management is that some developed nations have built up large, 
efficient, technologically advanced fishing fleets and have depleted 
fish stocks in their own waters. In search of fertile fishing grounds 
these vessels have been forced to go further and further afield to meet 
their citizens' appetites and keep their fishermen employed. Meanwhile, 
some developing countries have smaller, more sustainable, even 
artisanal harvesting practices, but because these are not economically 
efficient, their governments can reap greater financial rewards by 
leasing fishing rights to foreign countries, thereby expanding the 
areas in which these more destructive fishing practices can occur and 
simultaneously displacing their own workers. What specific steps can 
the U.S. take to help developing coastal countries to sustain their 
stocks? What can we do, through development assistance or otherwise, to 
stop this?
    Answer. Assistance to developing countries is crucial to enabling 
them to sustainably manage fisheries and enforce the rules that apply 
within their zones. Leasing fishing rights can be problematic, as can 
IUU fishing in the waters of developing countries that do not have the 
resources to monitor and control what goes on within their zones. There 
are many ways the U.S. can help, from providing technical assistance 
(for example, with VMS), to training fisheries managers and enforcement 
officials, to providing financial assistance to FAO to develop a global 
registry of fishing vessels, which would help all nations, including 
developing nations, track and control fishing by foreign fleets within 
their zones.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
